Case: 18-15202, 11/09/2020, ID: 11887335, DktEntry: 63, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

NOV 9 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

SALMA AGHA-KHAN, M.D., M.D.,
Plaintiff-Appellant,
v.
PACIFIC COMMUNITY MORTGAGE,
INC., a suspended California Corporation,
its successors and assigns; et al.,

No.

18-15202

D.C. No. 2:16-cv-01124-JCM-NJK
District of Nevada,
Las Vegas
ORDER

Defendants-Appellees.
Before:

SILVERMAN, NGUYEN, and HURWITZ, Circuit Judges.

No opposition having been filed and good cause appearing, appellees Aurora
Loan Services, LLC (“ALS”), Mortgage Electronic Registration Systems, Inc.
(“MERS”), Theodore Schultz, and Trisha McMullin’s motion to reinstate and
dismiss the appeal as to ALS, and for summary affirmance as to MERS, Schultz,
and McMullin (Docket Entry No. 62) is granted.
DISMISSED as to Aurora Loan Services, LLC; AFFIRMED as to
Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha
McMullin.

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 1 of 6

1
2
3
4

UNITED STATES DISTRICT COURT

5

DISTRICT OF NEVADA

6

* * *

7
8

Plaintiff(s),

9
10
11

PACIFIC COMMUNITY MORTGAGE, INC.,
et al.,
Defendant(s).

13

15
16
17

Presently before the court is defendants Christopher Flaharty, Nichole Flaharty,1 and the
Flaharty Family Trust’s (“the Flaharty defendants”) motion for summary judgment. (ECF No.
172). Plaintiff Salma Agha-Khan filed a response (ECF No. 178), to which defendants replied
(ECF No. 179).
I.

18
19

22
23

Facts
The instant case centers around a dispute over real property located at 1967 Cherry Creek

Circle, Las Vegas, Nevada. (ECF No. 1).

20
21

ORDER

v.

12

14

Case No. 2:16-CV-1124 JCM (NJK)

SALMA AGHA-KHAN, M.D.,

On July 30, 2004, plaintiff purchased the property for $964,102 pursuant to a grant, bargain
and sale deed. (ECF No. 172-4). Also on July 30, 2004, a deed of trust was recorded in favor of
Ghanima Masarani, Mounir Mokaddam, and Joseph Saddi in an amount of $350,000.2 (ECF No.
172-5).

24
25
26
i

27
28
James C. Mahan
U.S. District Judge

Defendants Christopher and Nichole Flaharty are named in their personal capacity and as
trustees of the Flaharty Family Trust. (ECF No. 1).
2 On August 24, 2005, the deed of trust was reconveyed pursuant to a substitution of trustee
and deed of reconveyance (which was recorded on September 7, 2005). (ECF No. 172-6).

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 2 of 6

1

On September 8, 2004, plaintiff obtained a loan from Pacific Mortgage Company for

2

$615,000. (ECF No. 172-7). This loan was secured by a deed of trust, recorded on September 8,

3

2004 (“the Pacific DOT”). Id.
On October 26, 2006, plaintiff obtained an open-ended line of credit for $200,000 from

4

5

GreenPoint Mortgage Funding, Inc. (ECF No. 172-8).

6

On January 13, 2010, Pacific recorded a notice of breach and default and election to sell

7

under the Pacific DOT. (ECF No. 172-9). On May 4, 2010, Pacific recorded an assignment of its

8

deed of trust to Aurora Loan Services. (ECF No. 172-10). On May 14, 2010, a notice of trustee’s

9

sale under Pacific DOT was recorded. (ECF No. 172-11). On September 2, 2010, Steven Joe and

10

Michael McNeill purchased the property $594,891.05 pursuant to a trustee’s deed upon sale

11

(recorded on September 13, 2010). (ECF No. 172-12).

12

On February 24, 2011, the Flaharty defendants purchased the subject property from Joe

13

and McNeill for $722,500. (ECF No. 172-13). In order to finance the purchase, the Flaharty

14

defendants obtained a loan secured by a deed of trust in favor of Wells Fargo. Id.

15

On May 19, 2016, five years and nine months after the foreclosure sale, plaintiff filed the

16

instant complaint. (ECF No. 1). Plaintiff filed three causes of action against all defendants: unjust

17

enrichment, breach of contract, and negligence. Id. These are the only causes of action that

. 18

reference the Flaharty defendants. See id.

19

On February 3, 2017, the court granted eight motions to dismiss and denied plaintiffs

20

motion for leave to file an amended the complaint. (ECF No. 137). In relevant part, the court

21

held,

22

Plaintiff filed her complaint on May 19, 2016, regarding alleged actions that either
occurred in 2004 or, at the latest, 2010. (ECF No. 1). Therefore, the only claim
that could still be live is her fourth claim, breach of contract. However, plaintiff
claims that the loan contract was immediately breached when the loan was
executed—in 2004. (Id.). Therefore, the period for bringing that claim has expired
as well. (Id.); see also NRS 11.190(1).

23
24

25
26

Id.
II.

Legal Standard

27

The Federal Rules of Civil Procedure allow summary judgment when the pleadings,
28

depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any,
James C. Mahan
U.S. District Judge

-2-

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 3 of 6

1

show that “there is no genuine dispute as to any material fact and the movant is entitled to a

2

judgment as a matter of law.” Fed. R. Civ. P. 56(a). A principal purpose of summary judgment is

3

“to isolate and dispose of factually unsupported claims.” Celotex Corp. v. Catrett, All U.S. 317,

4

323-24(1986).

5

For purposes of summary judgment, disputed factual issues should be construed in favor

6

of the non-moving party. Lujan v. Nat’l Wildlife Fed., 497 U.S. 871, 888 (1990). However, to be

7

entitled to a denial of summary judgment, the nonmoving party must “set forth specific facts

8

showing that there is a genuine issue for trial.” Id.

9

In determining summary judgment, a court applies a burden-shifting analysis. The moving

10

party must first satisfy its initial burden. “When the party moving for summary judgment would

11

bear the burden of proof at trial, it must come forward with evidence which would entitle it to a

12

directed verdict if the evidence went uncontroverted at trial. In such a case, the moving party has

13

the initial burden of establishing the absence of a genuine issue of fact on each issue material to

14

its case.” C.A.R. Transp. Brokerage Co. v. Darden Rests., Inc., 213 F.3d 474, 480 (9th Cir. 2000)

15

(citations omitted).

16

By contrast, when the nonmoving party bears the burden of proving the claim or defense,

17

the moving party can meet its burden in two ways: (1) by presenting evidence to negate an essential

18

element of the non-moving party’s case; or (2) by demonstrating that the nonmoving party failed

19

to make a showing sufficient to establish an element essential to that party’s case on which that

20

party will bear the burden of proof at trial. See Celotex Corp., All U.S. at 323-24. If the moving

21

party fails to meet its initial burden, summary judgment must be denied and the court need not

22

consider the nonmoving party’s evidence. See Adickes v. S.H. Kress & Co., 398 U.S. 144, 159—

23

60(1970).

24

If the moving party satisfies its initial burden, the burden then shifts to the opposing party

25

to establish that a genuine issue of material fact exists. See Matsushita Elec. Indus. Co. v. Zenith

26

Radio Corp., 475 U.S. 574, 586 (1986). To establish the existence of a factual dispute, the

27

opposing party need not establish a material issue of fact conclusively in its favor. It is sufficient

28

that “the claimed factual dispute be shown to require a jury or judge to resolve the parties’ differing

James C. Mahan
U.S. District Judge

-3 -

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 4 of 6

1

versions of the truth at trial.” T. W. Elec. Serv., Inc. v. Pac. Elec. Contractors Ass ’n, 809 F.2d 626,

2

631 (9th Cir. 1987).

3

In other words, the nonmoving party cannot avoid summary judgment by relying solely on

4

conclusory allegations that are unsupported by factual data. See Taylor v. List, 880 F.2d 1040,

5

1045 (9th Cir. 1989). Instead, the opposition must go beyond the assertions and allegations of the

6

pleadings and set forth specific facts by producing competent evidence that shows a genuine issue

7

for trial. See Celotex, All U.S. at 324.

8

At summary judgment, a court’s function is not to weigh the evidence and determine the

9

truth, but to determine whether there is a genuine issue for trial. See Anderson v. Liberty Lobby,

10

Inc., All U.S. 242, 249 (1986). The evidence of the nonmovant is “to be believed, and all

11

justifiable inferences are to be drawn in his favor.” Id. at 255.

12

nonmoving party is merely colorable or is not significantly probative, summary judgment may be

13

granted. See id. at 249-50.

14

III.

But if the evidence of the

Discussion

15

Here, defendants argue that summary judgment in their favor is proper as the applicable

16

statute of limitations has run on all of plaintiff s claims. (ECFNo. 172). Further, defendants argue

17

that plaintiffs unjust enrichment, breach of contract, and negligence claims fail as a matter of law.

18

Id. Plaintiff argues that defendants’ motion for summary judgment is premature and that disputed

19

material facts preclude summary judgment. (ECFNo. 178).

20

Under Nevada law, unjust enrichment is an equitable doctrine that allows recovery of

21

damages “whenever a person has and retains a benefit which in equity and good conscience

22

belongs to another.” Unionamerica Mortg. & Equity Trust v. McDonald, 626 P.2d 1272, 1273

23

(Nev. 1981); see also Asphalt Prods, v. All Star Ready Mix, 898 P.2d 699, 701 (Nev. 1995). The

24

statute of limitation for an unjust enrichment claim is four years. In re Amerco Derivative Litig,

25

252 P.3d 681, 703 (Nev. 2011) (citing NRS 11.190(2)(c)). To state an unjust enrichment claim, a

26

plaintiff must plead and prove three elements:

27
28
James C. Mahan
U.S. District Judge

(1) a benefit conferred on the defendant by the plaintiff;
(2) appreciation by the defendant of such benefit; and

-A-

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 5 of 6

2

(3) an acceptance and retention by the defendant of such benefit under
circumstances such that it would be inequitable for him to retain the benefit without
payment of the value thereof.

3

Takiguchi v. MRIlnt’l, Inc., 47 F. Supp. 3d 1100, 1119 (D. Nev. 2014) (citing Unionamerica, 626

4

P.2d at 1273).

5

unavailable. Leasepartners Corp. v. Robert L. Brooks Trust Dated November 12, 1975, 942 P.2d

6

182, 187 (Nev. 1997) (finding that the existence of an expressed, written agreement bars an unjust

7

enrichment claim because there can be no implied agreement).

1

However, where there is an express contract, an unjust enrichment claim is

8

In Nevada, “to succeed on a breach of contract claim, a plaintiff must show four elements:

9

(1) formation of a valid contract; (2) performance or excuse of performance by the plaintiff; (3)

10

material breach by the defendant; and (4) damages.” Laguerre v. Nev. Sys. of Higher Educ., 837

11

F. Supp. 2d 1176, 1180 (D. Nev. 2011) (citing Bernard v. Rockhill Dev. Co., 734 P.2d 1238, 1240

12

(Nev. 1987) (“A breach of contract may be said to be a material failure of performance of a duty

13

arising under or imposed by agreement.”)).

14

A negligence claim under Nevada law must adequately demonstrate: (1) that defendant

15

owed plaintiff a duty of care; (2) that defendant breached the duty of care; (3) actual and proximate

16

causation; and (4) damages. Hammerstein v. Jean Dev. West, 111 Nev. 1471, 1475 (1995).

17

Here, plaintiffs claims against the Flaharty defendants are all time-barred. The court held

18

in its prior order granting numerous other defendants’ motions to dismiss that all of plaintiffs

19

claims against all defendants are time-barred. (ECF No. 137). As the Flaharty defendants did not

20

file a motion to dismiss, the court’s decision did not dismiss plaintiffs claims against the Flaharty

21

defendants. However, the holding in that decision is dispositive over the instant motion.

22

In addition to plaintiffs claims against defendant being time-barred, plaintiffs complaint

23

fails to state cognizable causes of action against the Flaharty defendants. In regards to plaintiffs

24

unjust enrichment claim, plaintiff did not confer a benefit onto defendant, much less a benefit

25

“under circumstances such that it would be inequitable for [the defendants] to retain the benefit

26

without payment of the value thereof.” See Takiguchi, 47 F. Supp 3d at 1119. Plaintiffs breach

27

of contract claim fails because plaintiff never entered into a contract with the Flaharty defendants.

28

See Laguerre, 837 F. Supp. 2d at 1180. Plaintiffs negligence claim fails because plaintiff cannot

James C. Mahan
U.S. District Judge

-5-

Case 2:16-cv-01124-JCM-NJK Document 180 Filed 01/23/18 Page 6 of 6

1

demonstrate a duty owed by the Flaharty defendants to plaintiff or a breach of any such duty. See

2

Hammerstein, 111 Nev. at 1475.

3

IV.

Conclusion

4

Accordingly,

5

IT IS HEREBY ORDERED, ADJUDGED, and DECREED that defendants’ motion for

6
7

summary judgment (ECF No. 172) be, and the same hereby is, GRANTED.
DATED January 23, 2018.

8
9

amj

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
James C. Mahan
U.S. District Judge

C.«

UMTEEKSTATES DISTRICT JUDGE

-6-

APPENDIX
EXHIBIT A: Petitioner’s First Filing DESTROYED by Ninth Circuit,
titled
“Appellant’s THIRD Motion to Disqualify Ninth Circuit
Based Upon Mandatory Self Executing Statutes 144 and
455; Judicial Codes of Conduct and Ethics; Judicial Canons
1,2,3. Appellant’s Affidavit”

1-64

Filed: November 03, 2020

EXHIBIT B: Petitioner’s Second Filing DESTROYED by Ninth
Circuit, titled
“Appellant’s Opposition to Appellees

Motion for

Summary Affirmance”
Ex I: California Secretary of State showing “Lender”
Pacific Community Mortgage had ceased to exist about
10 years earlier
Ex II: Face sheet of Deed of Trust with Recorder’s Memo
“Poor Record Due to Quality of Original Document”
Ex III: Unsigned CLARIFICATION of Deed of Trust^
Filed: November 03, 2020...............

65-150

(App. Ex I, III; Ex B, J of Complaint)

EXHIBIT C: Docket Report of Appeal

152-163

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

EXHIBIT A
Petitioner’s First Filing DESTROYED by Ninth Circuit,
titled
“Appellant’s THIRD Motion to Disqualify Ninth
Circuit Based Upon Mandatory Self Executing
Statutes 144 and 455; Judicial Codes of Conduct
and Ethics; Judicial Canons 1,2, 3. Appellant’s
Affidavit”

Filed: November 03, 2020

1-64

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

received

1

2

OFFICE OF'-THE CLERK
U S COURT OF APPEALS _
PUBLIC INFORMATION UN i

Ninth Circuit Case No. 18-15202

.
.
2^9 MOV -3 PH I2:4 S
Originating US District Court Case No. 2:16-cv-0li24-JCM-NJK

3

FILED

4

docketed,__
INffiA:
DATE

___________

5

IN THE UNITED STATES COURT OF APPEALS

6

7

FOR THE NINTH CIRCUIT

8
9
1=1 —

Q
CO
A

K

10

Salma Agha-Khan

11

Appellant-Plaintiff

12

V.

13

Pacific Community Mortgage, Inc., et al.

14

Appellees-Defendants

15
16
17
18
19

APPELLANT'S THIRD MOTION TO DISQUALIFY
NINTH CIRCUIT BASED UPON MANDATORY AND
SELF-EXECUTING DISQUALIFICATION STATUTES

20

28 U.S.C. § § 144 and 455; AND JUDICIAL CODES OF
21 || CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS 1,
22

2, 3; AFFIDAVIT/DECLARATION OF APPELLANT

23

24 SALMA AGHA-KHAN, M.D.
25 3751 Motor Ave #34727
26 || Los Angeles, CA 90034
27
28

949-332-0330
salmahaaha@aol.com
n
Appellant-Debtor in Pro Per
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

I—I
QJ

cm

1

TABLE OF CONTENTS

2
3

I.

4

NTRODUCTION WITH FEW INSTANCES OF MALICE
EXHIBITED BY NINTH CIRCUIT TOWARDS APPELLANT....... 2

5

6

II.

7

LEGAL STANDARD FOR DISQUALIFICATION

14

28 USC 144

14

8

The Brennan Center's Brief in Support of Petitioner

9
10

in the Williams Case

17

MANDATORY DISQUALIFICATION STATUTE

19

28 U.S. Code § 455

19

ii
12

III.

13
14
15
16

IV.

CODE OF JUDCIAL CONDUCT FOR US JUDGES CAN RENDER
ADVISARY OPINION OF APPELLANT'S MOTION

22

Canon 1

23

Canon 2

24

Canon 3

24

Adjudicative Responsibilities

24

Administrative Responsibilities

26

Disqualification

27

Remittal of Disqualification

29

17
18
19
20

21
22
23

24
25

26
27
28
<u
an

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1

V.

UNITED STATES SUPREME COURT CASE LAW

2
3

4

VI.

"DUE PROCESS REQUIRES RECUSAL"

31

CONCLUSION

36

5

6
7

VII. DECLARATION OF SALMA AGHA-KHAN, MD

37

VIII. CERTIFICATE OF COMPLIANCE

48

IX.

PROOF OF SERVICE

49

X.

SERVICE LIST

50

8

9
10
ii
12

Statutes, US Constitution, Case Law and Publications

i - IX

13
14
15
16
17
18
19

STATUTES AND US CONSTITUTION
28 U.S.C. § 455

1, 19, 20

28 U.S.C. § 144

1, 14

20

21
22

Judicial Code of Conduct and Ethics

1, 23 - 29

23

24
25

Judicial Canons 1, 2, 3
Civil Rights

1, 30
4, 17, 12, 32, 36, 39, 46, 47

26
27
28

Ninth Circuit Rule 27-11
Ninth Circuit Rule 42-1

3, 38
3, 5, 38, 40

a>
oa
(V

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. S S 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1

FRAP 35(b)

9

18 U.S.C.3771(d)(3)

9

2
3

4

US Constitution

11, 13, 15, 17, 21, 32, 36, 45, 47

5
6
7

42 U.S. Code § 1981

12, 46

42 U.S. Code § 1982

12, 46

42 U.S. Code § 1983

12, 46

42 U.S. Code § 1985

12, 46

42 U.S. Code § 1986

12, 46

28 U.S.C. section 535(b) (2002)

12, 46

Federal Whistle Blowers Statute

12, 46

8
9
10
ii
12
13
14
15
16

12, 13, 36

Treason

17
18

19

Supreme Law of the Land

12

18 U.S.C. 2382

13

First Amendment

15

20

21
22

Due Process

15, 17, 31, 32, 33, 34, 36

23

24
25

California Constitution

21, 36

Nevada Constitution

21, 36

26
27
28

Code of Conduct for United States Judges
Canon 1

22 - 23
23

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CD
Q0

/

i

Canon 2

24

Canon 3

24

2
3

4

Adjudicative Responsibilities

24

Administrative Responsibilities

26

Disqualification

28

Remittal of Disqualification

29

5

6
7
8

9
10

Fifth Amendment

32

Fourteenth Amendment

32

ii
12
13
14
15
16
17
18

19

CASE LAW

20

21
22

Page 7
Calderon v. Thompson. 523 U.S. 538, 550 (1998)

23

24
25

Page 9
Bauman v. U.S. Dist. Court. 557 F. 2d 650 (9th Cir. 1977)

26
27
28

Page 12
People v. Zaiic. 88 III.App.3d 477, 410 N.E.2d 626 (1980).
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

>
<u

1

Page 13

2
3

4

In re Sawyer. 124 U.S. 200 (1888),
U.S. v. Will. 449 U.S. 200, 216, 101 S.Ct. 471, 66 L.Ed.2d 392,

5
6
7

406 (1980);
Cohens v. Virginia. 19 U.S. (6 Wheat) 264, 404, 5 L.Ed 257

8

9
10

(1821).

Delew v. Wagner. 143 F.3d 1219, 1222 (9th Cir. 1998).

11
12
13

Page 15
Williams vs.

Pennsylvania. Certiorari to Supreme Court of

14
15
16

Pennsylvania No. 15-5040. Argued February 29, 2016—Decided
June 9, 2016. In the BRIEF OF FORMER APPELLATE COURT

17
18

19

JURISTS AS AMICI CURIAE IN SUPPORT OF PETITIONER
Aetna Life Ins. Co., 475 U.S. 813, 822 (1986)

20

21
22

Ward v. Village of Monroeville. 409 U.S. 57, 60 (1972)
Caperton v. A.T. Massev Coal Co.. 556 U.S. 868, 881 (2009)

23

24
25

Mavberrv v. Pennsylvania. 400 U.S. 455, 466 (1971)
Withrow v. Larkin. 421 U.S. 35, 47 (1975)

26
27
28

Page 16
In re Murchison. 349 U.S. 133, 136 (1955).

><D

DO

n>

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

a

1

Page 17, 18

2
3

4

Williams vs. Pennsylvania. (2015)
Page 19

5

6
7

Hazel-Atlas Co. v. Hartford Co. 322 U.S. 328 * 64 S. Ct. 997

(1944)

8

9
10

Page 31
Caperton v. A. T. Massev Coal Co 556 U.S. 868 129 S.Ct. 2252

11
12
13

(S. Ct. 2009) 173 L.Ed.2a 1208. 77 USLW 4456.
Tumev v. Ohio. 273 U.S. 510, 523, 47 S.Ct. 437, 71 L.Ed, 749,

14
15
16

Page 32
Withrow v. Larkin 421 U.S. 35, 47, 95 S. Ct. 1456, 43 L.Ed.2d

17
18
19

712
Ward v. Monroeville. 409 U.S. 57, 93 S.Ct. 80, 34 L.Ed.2d 267.

20

21
22

Aetna Life Ins. Co. v. Lavoie. 475 U.S. 813, 106 S.Ct. 1580, 89
L.Ed.2d 823.

23

24
25

Mathews v. Eldridae 424 U.S. 319 96 S.Ct. 893
Caperton v. A. T. Massev Coal Co 556 U.S. 868 129 S.Ct. 2252

26
27
28

(S. Ct. 2009) 173 L.Ed.2a 1208. 77 USLW 4456.
Wolfe v. McDonnell. 418 U.S. 539, 557-558 (1974).

>o>

DO
(0

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

%

i

Phillips v. Commissioner. 283 U.S. 589, 596-558 (1974).

2
3

4

Dent v. West Virginia. 129 U.S. 114, 124-125 (1889)
Page 33

5
6
7

Grannis v. Ordean. 234 U.S. 385, 394 (1914)
Joint Anti-Fascist Comm. V. McGrath. 341 U.S. 123, 168 (1951)

8

9
10

Armstrong v. Manzo. 380 U.S. 545, 552 (1965)
Mathews v. Eldridge 424 U.S. 3^9 96 S.Ct. 893

11
12
13
14

Goldberg v. Kelly supra, at 263-271
Fusari v. Steinberg. 419 U.S. 379, 369 (1975)
Daniels v. Williams. 474 U.S. 327 (S.Ct. 1986)

15
16
17

Rochin, supra,
Murray's Lessee 332*332 v. Hoboken Land & Improvement

18

19
20

Co., 18 How 272, 277 (1856)
Page 34

21
22
23

County of Sacramento v. Lewis Supreme Court
Bank of Columbia v. Okelv, 4 Wheat. 235—244(1819)

24
25

26

Hurtado v. California. 110 U.S. 516, 527 (1884).
Wolff v. McDonnell. 418 U.S. 539, 558 (1974),

27
28

Fuentes v. Shevin, 407 U.S. 67, 82 (1972)

>a)

QO
(V

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1

Daniels v. Williams, 474 U.S., at 331

2
3
4

Page 35
In Re Murchison. 349 U.S. 133, 75 S.Ct. 623, 99 L.Ed.942

5
6
7

Page 42
Calderon v. Thompson. 523 U.S. 538, 550 (1998)

8
9
10

Page 43
Bauman v. U.S. Dist. Court. 557 F. 2d 650 (9th Cir. 1977)

11
12
13

Page 46
People v. Zaiic. 88 III.App.3d 477, 410 N.E.2d 626 (1980).

14
15
16

Page 47
Delew v. Waaner. 143 F.3d 1219, 1222 (9th Cir. 1998).

17
18
19
20
21
22

MISCELLANEOUS PUBLICATIONS
Page 14

23
24
25

FBI Press Release: "Public Corruption: Court Room For Sale.
Judge

Gets

Jail

Time

In

Racketeering

Case"

26
27
28

https ://www.fbi.aov/news/stories/public-corruption-courtroomfor-salel
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. £ £ 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

\°

>cu
2DO

1

Page 17 - 19

2
3

4

The Brennan Center's Brief in Support of Petitioner in the
Williams Case: The Brennan Center for Justice amicus

5

6
7

curiae brief
Brief amici curiae of Brennan Center for Justice and Justice at

8

9
10

Stake, filed on 12/7/15
Brief amicus curiae of Constitutional Accountability Center, filed

11
12
13

on 12/7/15
Brief amici curiae of The American Civil Liberties Union, and The

14
15
16

ACLU of Pennsylvania, filed on 12/7/15
Brief amicus curiae of The American Academy of Appellate

17
18
19

Lawyers, filed on 12/7/15
Brief amici curiae of Former Judges with Prosecutorial Experience.

20

21
22

filed on 12/7/15
Brief amici curiae of The American Bar Association, filed on

23

24
25

12/7/15
Brief amici curiae of The Ethics Bureau at Yale, filed on 12/7/15

26
27
28

Brief amici curiae of Former Appellate Court Jurists, filed on
X

12/7/15
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

w

<1)
DO

1

I.

2

INTRODUCTION WITH FEW INSTANCES OF MALICE

3

EXHIBTED BY NINTH CIRCUIT TOWARDS APPELLANT

4

APPELLANT request disqualification on the grounds that

5

6

impartiality of judges in the NINTH CIRCUIT PANEL might

7
8

reasonably be questioned by an objective observer given the

9
10
ii
12

totality of the circumstances giving rise to this appeal and related
case in Nevada Bankruptcy Court, BK. ADV. Case No. 19-01074
where THREE NNTH CIRCUIT JUDGES ARE DEFENDANTS.

13
14

1.

In the Nevada Case Defendant Judges include

15
16
17
18

i)

Defendant-Judge Consuelo M. Callahan

ii).

Defendant-Judge Edward Leavy

iii).

Defendant-Judge Consuelo M. Callahan

19
20

21

for their conduct in another mortgage fraud related Appeal
pertaining to Appellant's home. These Judges have accepted

22
23

24

every allegation in that case to be true and have been defending
their actions for over one year.

25
26
27

2.

As stated in second Disqualification motion, the Appeal

herein was dismissed by the Clerk for nonpayment of fees

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CM<u

w>

1
2

despite Appellant havi
ving paid the fee TWICE to the District Court

3

Cierk and attaching copies of the checks

4

- j

in Except I Ex 6.

Exhibit 6: Receipt of $503,00 Fee Payment to Nevada
104 - 106

6

Dlstnct Court Re: Appeal to Ninth Circuit

7

2:16-cv-Gi 124-JCM-WJK

in Civil Case

8
9

101| i§
11

CUSTOM Eft‘5 RECEIPT
«r.
V t A ; v'

»lit"*s
UVUITT

HOT
1/tGCiNASIF

asiq36flbgqA

“'t* *—■***

.^ftKESSSS.

12

*,

■

•T_

i*osx<i. moxisy oimfeivtii

13

»e *ntr+i > ‘

14

•t

- .....-wife,'.. 15
16

-- -

Af«sc*-»vjur-'^

**

/:ooaQcaaa sk

. £5

17

£2 2S

18
19

this order, appellant shall have one (inafopportuni^to paylo Ih^dslridcourt S% 00 as^ihe

20

if*?

drr °*

21

SlalM.1
22

npTh^™1

cder’ !hre appeal v,,il1 bs dismissed aulomaticatly by ihe CJeri? under

KtaS

23

24

s:rs5SS»r

25
2611 |mj,30'a ^
27

m<u

28

Q£J
to

"“Stsss^^^ssLzss?ss^

rrs.upr<ir,,"*,o,w'

CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS ^
affidavit/declaration °F iAFFBtLlVYT
’

\V

1

The Clerk's Order above failed to mention that the Payment

2
3

4

Check stated the correct case number as provided. The Clerk
stated the Receipt is for incorrect case number. IT IS NOT

5

6
7

APPELLEE'S JOB TO MAKE SURE THAT THE DISTRICT COURT
CLERK IS DOING HIS/HER JOB. IT IS THE JOB OF CIRCUIT

8

9
10

COURT CLERK TO OVERSEE THE DISTRICT COURT CLERK. Yet
the Appeal was dismissed. Surely this was fraudulent?

ii
12

3.

13

Appellant than filed a motion to reinstate the Appeal after
making a SECOND PAYMENT. The tile of filing in docket is

14
15

122112018 J7 filed Appelant Salma Agha-Khan, M.D. motion to reconsider order of tie CM of die Court filed on 11/012018,
Deficiencies: None. Served on 12212018. [11217834] (CW) [Entered: 03706/201910:37 AM]

16
17

While the actual title on cover was

18
2.H

19
15

DISMISSING APPEAL DESPITE APPELLANT REPEATEDLY

16

PROVIDING PROOF OF REPEAT PAYMENTS MADE TO

17

DISTRICT COURT IS VIOLATION OF APPELLANTS CIVIL

10

RIGHTS SUGGESTING COLLUSION BETWEEN NINTH

19

CIRCUIT AND DEFENDANTS MANDATING RECUSAL

20
21
22
23
24
25

APPELLANT'S MOTION FOR RELIEF FROM CLERK'S ORDER

The copy of second check was included

26
27
<D
OO

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

i

j.

■r
2
3

*

VMTEDSTAn-S
POSTAL
*
»■/•

CUSTOMER’S RE

l ••

«»t! * if. r.'.>4 1 . I A V

/ ^ t: 'J ** o ( v
\N) > r- ^ v- :• v C,_ v *_ v___\
r
•■.,*•->,■*
pi*.,«— *.

■'W^r-,»t

4
5

1

NOT
NEGOTIABLE
• s.

UNITED STATES
POSTAL SERVICE.

2018-U-H

5547556^1^1

1JS311

■ Five huMr«4 Five OaUwE «*4

9

. »•

10

12
13

\

j

i)

j

lT

t- «■-

►

vnun

u

• *,

I*

'-L.

‘i

*bq5jss^_

-a

»v-,

U*~ ‘ '

s

•*7

;a _»— ^y^T^MaSg
-; o x

'

»:ancicnflo: * e»:

tt*t—wbO—

Pr«rf»3i

l « « V kTi '««

r . .

«kvm
mart it*
VQUKHONM

I»( )STAli MONEY ORI)

Amu

11

“ -

tsssu

201%-ll-U

7

f

,.i

M «»,

2547SSacllen

6

8

/

«

\

i • '1

‘

^ \wf -H 51* UN !««*■'•*
’/ .'

• ** v"‘

14
15

4. Appellants UNOPPOSED Motion was kept hanging till April

02,

16
17
18

2019 (over three months) before reinstating the Appeal with
no comment on Appellant's request to recuse Ninth Circuit

19
20
21
22
23
24
25
26

04/02/2019 Q jo
Fled clerk order Peputy Clert:: MF}; On December 4,2018, the court dismissed the appeal for failure to
2 pg,mi4KB prosecute because appelant had not paid the tiling and docketing fees. See 9th Cir. R. 42-1. A review of
toe district court's records reflects that appellant ha3 now paid toe fang and docketing fees tor this appeal.
Homer, appellant erroneously paid the fees for this appeal in District of Nevada civil case No. 2;17-cv02739-GMN-CWH, not toe above-referenced district court docket. The motion to reinstate tins appeal is
granted (Docket Entry No. Q2). The December 4,2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend toe docket to refled that the fees for this appeal have been paid. The Cierk shall
file toe opening brief received on October 25,2018 (Docket Entry No. [10j). The answering brief is due
May 3,2019; and toe opSonal reply brief is due within 21 days after service of the answering brief. The
Clerk shall send a copy of this order to toe district court The district court clerk shall transfer the fee
payment received on November 26,2018 in civil case No. 2:17-cv-02739-GMN-CWH to the abovereferenced district court docket. [11250217] (AF) [Entered: 04/D2/2019 01:20 PM]

27

LO
07
CtO

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
ArrXDAVXT/'DeCLARATXON OP APPELLANT

\

s

1

5. Also the Nevada District Court Docket in underlying case has

2

no mention of Appeal

3

4

only case CLOSED. Interesting

collusion between District Court and Ninth Circuit.

5

CM.nCF - m* - Bmsut VtMifen t)

•fivw, fC:l1 m

6

CLOSED
7

United States District Conrt
District of Nevada (Las Vegas)
CIVIL DOCKET FOE CASE #: 2:16-cv-©H24-JCM-NJK

8

9
10

6.

The only reason the Appeal in this case herein was

ii
12
13

reinstated was because Appellant complained to United States
Attorney General.

14
15
16

7.

In Appeal No. 18-17006, this Court has refused to included

Appellee-Defendants fraudulently excluded from the complaint

17
18
19

by the lower court through removal of page 2 of the complaint.
Appellant's filing to include these Defendants was ignored by the

20

21
22

lower court and Ninth Circuit. Ninth Circuit even changed the title
of Appellant-Plaintiff's filing

23

24
25

26

04/10/2019 JJL Red Appellant Salma Agha-Khan, ID. motion to amend caption. Deficiencies: None. Served on 04/03/2019.
[11259541] (GW) [Entered: 04/10/201901:50 PM)

!

When the title on filing was

27

<x><u

oo

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVrT/DECLARATION OF APPELLANT

3 9

1

« *
■*£»

2

if

DEFENDANTS EXCLUDED FROM THE CASE BY THE L.OWER

3

i?

COURT THROUGH ITS REMOVAL OF PAGE t OF

4

16

APPELLANT'S FILED COMPLAINT DESPITE SUMMONS

5

aa

6

20

APPELLANT'S REQUEST TO INCLUDE APPELLE £j 1

■*

JI S

BEING ISSUED AND SERVED
(Oral hearing requested)

7
8
9

Note: Ninth Circuit knew that Summons were issued for these
Defendants that were served and Summons returned to the

10
ii
12

lower court.
8.

Ninth

Circuit

dismissed

the

Appeal

refusing

to

even

13
14
15

comment on occurrence of such criminal actions that are most
certainly "extra ordinary" that seem perfectly fine to them

16
17
18
19
20
21

stating
11/30/2018 25 Filed order (SIDNEY R. THOMAS, WILLIAM A. FLETCHER and CONSUELO M. CALLAHAN) The motion to stay the
mandate (Docket Entry No. {221} is denied as moot. The mandate has issued. To the extent that appellant seeks a
recall of the mandate, the motion (Docket Entry No. (221) is denied because there are no ‘extraordinary
circumstances' to support such relief. See Calderon v. Thompson, 523 U.S. 538,550 (1998). All other pending
motions are denied as moot No further filings will be entertained in Oris closed case. [11105394] (WL) [Entered:
11/30/2018 03:36 PM]

22
23
24

9.

This Court has previously altered Appellant's filed Excerpt X

in Appeal No. 17-56842 after Appellant raised this issue in Doc #

25
26

24 Pgs 12 - 13. Filed November 06, 2018.

27

1^

<D

an

28

^nj

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

n

1

23

2

24

3

2S

4

Third Is why was Excerpt X Exhibit 62 altered? Was it because
this was a copy of Appellant's Statement of Issues filed by in BAP
Pasadena, disappeared by this very Court after the Clerk stamped

5
6

1

7

2

8

3

9

a

10

it with incorrect date claiming she "did not have the correct date
stamp"? (BAP stamped January 16, 2015, case dismissed February
19, 2015 and Notice of Appeal filed March 05, 2015). (Ex E, F, G)

10. This same circuit has kept Appellant-Plaintiff's Motions

ii
12
13

pending for about two years. See Writ of Mandamus, Case No.
17-71883, against Appellee-Defendant Judge O'Neill's criminal

14
15
16

actions of creating sham cases against Appellee and causing
false arrests deemed "baseless" and "created" by another Judge

17
18

in Central District.

19

©B72D19

20
21

22
23

17-71633 Docket

FILED PETITION FOR WRIT OF MANDAMUS. DOCKETS) CAUSE AND ENTERED APPEARANCES
06/27/2017 0J.
1«pg,3,13MB OF COUNSEL FOR REAL PARTIES IN INTEREST AND PETITIONER IN PRO SE. NOTIFIED REAL
PARTIES IN INTEREST OF RUNG. {1049D951]-[CGURT UPDATE; Attached documents, resent NDA,
06/29/2017 by JJF] <«i) [Entered: 0608/201712:35 PMJ
Received Petitioner Salma Agha-Khan, M.D. addendum to emergency petition for writ of mandamus.
i5pgTs.04KB Served on 06/29/2017 [10493903] (RL) [Entered: 06/30/201710:55 AM]

06/29/2017 0 2

24

25
26

27

0001

on

28

rl

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

U

1
2
3
4

07/240017 0 3
Red order {ALFRED T. GOODEN, Al£X KQZiNSKI and MARSHA S. 8ERZQN) Petitioner has not
1 pg, 329.14 K3 demons/rated Shat this case warrants fhe intervention of this court by means of the extraordinary remedy of
mandamus. See Bauman v. U.S. Did Court, 557 R2d 650 (9ih Cfe 1977). Accordingly, the petion is
denied. No further lags will be entertained in the dosed case. DENIED. [10518270] (ME) [Entered:
07/24/2017 09:58 AM]
03/21/2017 n 4
Red Petitioner Salma Agha-Kharc, M.D. motion to reconsider (document tided: petition for rehearing en
»ipusMS banc). Deficiencies: None, divert on 08/21/2017. [1055319S] (RL) [Entered: 08/22/201710:35 AM]

5
6
7

Filed Petitioner Salma Agha-Khan, M.D. addendum to motion for recansideratjon and exhibits in support
05/03/2018 pc
i745p^5iBM3 (document tided: writ of mancte pe&on for rehearing en banc pursuant to FRAP 35(b) and 18USC
3771(d)(3) based on new actions of respondent judge Lawrence J. ONali). Dated Q4/30/2Q1B J1Q862216]
(RL)JEfitered:DS7M/2Q18 01:53 PM]

8
9
10

Note: The Excerpts disappeared in Appeal 17-56842 by Ninth
Circuit had all case filings and records giving rise to this

ii
12
13

Mandamus. Thus Ninth circuit Panel Judges are well aware of
their illegal actions. Surely these actions are fraudulent?

14
15
16

11. This Court has previously DISAPPEARED Appellant's filed
Excerpts in Appeal No. 17-56842 (Excerpts disappeared included

17
18
19

four copies each of XIII, XIV, XV, XVI, XVII, XVIII). See pgs 2,
20 of Doc # 24, November 06, 2018.

20
21

17

evidence and proof? Is this the reason that supporting Excerpts

1.S

containing proof was removed alter filing despite being mentioned

22
23
24

19

25

20

26

21

and list of exhibits is listed in the brief too)? Why was lack of these

27

22

six excerpts not questioned by this Court? (Ex A, B, C, D)

in the brief repeatedly (about one-third pages of brief reference it

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

cn

OJ
DC
rD

1

And on Pg 20

2
3

4

7 lift is evidence of this behavior that was contained in Excerpts XIII
91 through XVIII, removed by Ninth Circuit Ninth Circuit restricted

5
6
7

12. Appellant's Writ of Mandamus asking this Court to establish
her Nevada residency was denied by this Court when ownership

8

9
10

of property establishes residency. See 18-72001.
13. Appellant's Appeal Case No. 16-15164 for Bankruptcy fraud

11
12
13
14 ■
15
16
17
18
19

was dismissed by Ninth Circuit Panel Judges with Appellant's
alleging that lower Court dropping over twenty defendant-friends
during transfer of case from Bankruptcy to Eastern District. Ninth
Circuit failed to even comment on it. Perhaps this dismissal of
Appellee-Defendant-Friends is routine in Ninth Circuit.
14. Appellant's Appeal Case No. 17-16935 for recovery of

20

21
22
23

24
25

26

property was dismissed by Ninth Circuit ignoring that Appellees
fraud claim on Appellant's home was discharged as unsecure
debt in 2010 yet they foreclosed and sold her home two years
later. Not one discovery was allowed or one hearing conducted.
15. Appellant's Appeal Case No. 15-55976 had raised a very

27
28

O
T—I

serious issue that every single one of her filing in the District
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

O)
Ofl

1

Court was altered. Ninth Circuit did not even raise an eyebrow to

2
3
4

such serious criminal action allegation perhaps because they
were doing the same thing. The case was dismissed without a

5
6
7

single hearing or discovery.

/

16. In Appeal No. 19-60005 two Clerks from Ninth Circuit

8
9
10

refused to believe that Appellant had 14,000 words in her brief
refusing to file the Brief asking that Appellant file a Motion asking

ii
12
13

for permission to file oversized brief when on recounting the
actual word count was less than 14,000 including exemptions.

14
15
16

This case exemplifies Ninth Circuit's efforts in

preventing

Appellant's free access to unbiased courts and interference with

17
18
19

her constitutional right to an unbiased judiciary.
17. This Court violated its duty to report this criminal alteration

20
21
22

of Appellant's filings to higher authorities for investigation and
criminal prosecution of corrupt employees which any "honest"

23
24
25

Judge or Federal Officer would have done. Yet the Ninth Circuit
Panel Judges violated their duty to report criminal on goings in

26
27
28

Ninth circuit brought to their attention because they were the

rH
^—I

<u
DO
ro

perpetrators.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

'uv

1

18.

Ninth Circuit in each and every one of the above Appeals

2
3

4

filed to review the case "de novo" according to their duty, their
job description. The Judges are only Federal Employees paid for

5
6
7

by the public. "Judge is not the Court" People v. Zaiic. 88
III.App.3d 477, 410 N.E.2d 626 (1980).

8

9
10

In all above cases Ninth Circuit colluded with their AppelleeDefendant-Friends to violate 42 U.S. Code §§ 1981, 1982

ii
12
13

causing Deprivation of Civil Rights 42 U.S. Code § 1983 and 42
U.S. Code § 1985. The Ninth Circuit has also been refusing to

14
15
16

follow the law and

report the actions to authorities for

investigation as is their duty according to 42 U.S. Code § 1986.

17
18

19

Ninth Circuit to further violate 28 U.S.C. section 535(b)
(2002) and Federal Whistle Blowers Statute.

20

21
22

Any judge who does not comply with his oath to the
Constitution of the United States wars against that Constitution

23

24
25

and engages in acts in violation of the Supreme Law of the Land,
thus committing treason. Also such Judge is without jurisdiction.

26
27

See In re Sawver. 124 U.S. 200 (1888), U.S. v. Will. 449 U.S.

CM
^--I

<u

28

200, 216, 101 S.Ct. 471, 66 L.Ed.2d 392, 406 (1980); Cohens v.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CUD
(O

1

Virginia. 19 U.S. (6 Wheat) 264, 404, 5 L.Ed 257 (1821). Any

2
3
4

judge or attorney who does not report the above judges for
treason as required by law may themselves be guilty of

5
6
7

misprision of treason, 18 U.S.C. Section 2382.
By blindly affirming lower courts rulings the Ninth Circuit

8
9
10

has also endorsed very obviously forged filings by their friendly
Appellee-Defendants. This seems to be routine "judicial actions"

11
12
13

of Ninth Circuit that have altered and disappeared Appellant's
filings to help their Appellee-Friends (See Appeal No. 17-56842).

14
15
16

Thus the Ninth Circuit contradicted its own prior statement
"Restricting access to the courts is, however, a serious

17
18
19

matter". "The right of access to the courts is a fundamental
right protected by the Constitution." Delew v. Waaner. 143 F.3d

20
21
22

1219, 1222 (9th Cir. 1998). This right is guaranteed under the
First Amendment.

23
24
25

Any judge or attorney who does not report the above
judges for treason as required by law may themselves be guilty

26
27

of misprision of treason, 18 U.S.C. Section 2382.

ro
—I

0)

an

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1

Obviously Ninth Circuit Judges don't think that these laws

2
3
4

apply to them and "No man is above law" is only writing on
pieces of paper to be kept in journals. Yet it is a Court just like

5
6
7

this that FBI had investigated, exposed than tried and indicted
criminal Judges such as these. FBI Press Release: "Public

8
9
10

Corruption: Court Room For Sale. Judge Gets Jail Time In
Racketeering Case" https://www.fbi.aov/news/stories/public-

ii
12

corruption-courtroom-for-salel

13
14
15
16

II.

LEGAL STANDARD FOR DISQUALIFICATION

28 USC 144 - Extra Judicial Sources of Bias and Prejudice

17
18
19

Ninth Circuit has relatedly demonstrated malice, bias and
prejudice towards the Appellant since 2015 (See some examples

20
21
22

listed above). The Ninth Circuit has yet to admit their ties to
their Appellee-Defendant-Friends in Appellant's Appeals rising

23
24
25

out of her Complaints.

Surely Ninth Circuit Judges know that

this disclosure is not discretionary?

26
27

In the matter of Williams vs. Pennsylvania. Certiorari to
a>

28

Supreme Court of Pennsylvania No. 15-5040. Argued February
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
ArriDAVIT/DCCLARATION Or APPELLANT

CtQ

'A

i

29, 2016—Decided June 9, 2016. In the BRIEF OF FORMER

2
3
4

APPELLATE COURT JURISTS AS AMICI CURIAE IN SUPPORT OF
PETITIONER, former appellate judges wrote:

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

"Standard For Determining Whether Recusal Is
Required. The standard for determining whether a judge's
refusal to recuse himself or herself violates due process is
whether the circumstances of the case '"would offer a
possible temptation to the average . . . judge to . . . lead
him not to hold the balance nice, clear and true/" Aetna Life
Ins. Co., 475 U.S. 813, 822 (1986) (quoting Ward v. Village
of Monroeville. 409 U.S. 57, 60 (1972)). The question is not
whether the judge is actually, subjectively biased—though
that is of course sufficient—but whether "the average judge
in his position is 'likely' to be neutral, or whether there is an
unconstitutional 'potential for bias.'" Caperton v. A.T.
Massev Coal Co.. 556 U.S. 868, 881 (2009) (quoting
Mavberrv v. Pennsylvania. 400 U.S. 455, 466 (1971)). This
objective determination involves "'a realistic appraisal of
psychological tendencies and human weakness,' [and
whether] the interest 'poses such a risk of actual bias or
prejudgment that the practice must be forbidden if the
guarantee of due process is to be adequately implemented.'"
(quoting Withrow v. Larkin. 421 U.S. 35, 47 (1975)). Any
potential for bias is unacceptable because in every judicial
proceeding there must not be "even the probability of
unfairness." In re Murchison. 349 U.S. 133, 136 (1955).
"Whenever a party to any proceeding in a district court
makes and files a timely and sufficient affidavit that the
judge before whom the matter is pending has a personal
bias or prejudice either against him or in favor of any
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

LO
t—I

a)
oo
TV

1
2
3

4
5

6
7
8
9

10
11

adverse party, such judge shall proceed no further therein,
but another judge shall be assigned to hear such
proceeding.
The affidavit shall state the facts and the reasons for
the belief that bias or prejudice exists, and shall be filed not
less than ten days before the beginning of the term at which
the proceeding is to be heard, or good cause shall be shown
for failure to file it within such time. A party may file only
one such affidavit in any case. It shall be accompanied by a
certificate of counsel of record stating that it is made in good
faith."
Appellant

has

previously

asked

for

Ninth

circuit's

12
13
14

disqualification with her Affidavit in Appeal herein that was
denied (Doc # 17 herein and in Appeal No. 17-56842 Doc # 23).

15
16

10/31/2018 23 Filed Appellant Salma Agha-Khan, M.D. motion for disqualification of the US Court of Appeals for Hie ninth Circuit.
Deficiencies: None. Served on 10/26/2018. [11069022] (JFF) [Entered: 11/01/2018 02:54 PM]

17
18
19

Appellant once again submits her good faith declaration/
affidavit. Appellant also contends this bias is conscious and

20

21
22

deliberate based upon its ties Ninth to Appellee-Defendants.
In the matter of Williams vs. Pennsylvania. (2015) Justice

23

24
25

26
27
28

Kennedy said:
"Bias is easy to attribute to others and difficult to discern in
oneself." Thus, there must be an "objective standard" that
requires certain judges to recuse regardless of whether they
think they are capable of deciding a particular case
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

LO
\—I
<D
OO
^TQ

'V'0

1
2
3
4
5
6

impartially. The Constitution's due process guarantees, the
Court concludes, establish that "there is an impermissible
risk of actual bias when a judge earlier had significant,
personal involvement as a prosecutor in a critical decision
regarding the defendant's case."
Many Amicus Briefs were filed in this case which detail the

7
8
9

lack of recusal when it is appropriate and the ramifications of
lack of it.

10
ii
12

The Brennan Center's Brief in Support of Petitioner in the
Williams Case: The Brennan Center for Justice filed an amicus

13
14
15

curiae brief in support of Petitioner's argument on Question One.
Amici argued that the Supreme Court of Pennsylvania's lack of a

16
17
18

procedure for an independent review of recusal motions should
be viewed as an additional factor contributing to a violation of

19

Petitioner's right to due process.
20
21

Other Amicus briefs were filed on this issue and on the issue

22

of bias are as follows
23
24
25

Brief amici curiae of Brennan Center for Justice and Justice at
Stake, filed on 12/7/15; Brief amicus curiae of Constitutional

26
27
28

Accountability Center, filed on 12/7/15; Brief amici curiae of The
<D
bO

American Civil Liberties Union, and The ACLU of Pennsylvania.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

nA

1

filed on 12/7/15; Brief amicus curiae of The American Academy of

2
3
4

Appellate Lawyers, filed on 12/7/15: Brief amici curiae of Former
Judges with Prosecutorial Experience, filed on 12/7/15: Brief

5
6
7

amici curiae of The American Bar Association, filed on 12/7/15:
Brief amici curiae of The Ethics Bureau at Yale, filed on 12/7/15

8
9
10

Brief amici curiae of Former Appellate Court Jurists, filed on

12/7/15.

ii

In particular Appellant contends here, just as the FORMER

12
13

APPELLATE COURT JURISTS do in their brief in the Williams case,

14
15
16
17
18
19
20
21

that
"A judge's role as an impartial arbiter is sacrosanct.
The moment a judge learns that he or she may be biased
toward or against a litigant, or that the judge's continued
participation in a proceeding will give rise to even the
potential appearance of bias, he or she should recuse. In
many cases, the potential for bias or its appearance can be
difficult to ascertain."

22
23
24

What is

more

biased

than

the

Ninth

Circuit Judges

themselves refusing to file the Appeal claiming non-payment

25
26
27

despite Appellant providing proof TWICE, of TWO PAYMENTS
made to District Court. It is not Appellant's problem that the

00
OJ

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION Or APPELLANT

X

1

District Court an Ninth Circuit were colluding and playing this

2
3
4

game of "fee not being paid" so that Appeal not get filed. It is
the job of Ninth Circuit to keep District Court in order.

5
6
7

When any officer of the court has committed "fraud upon
the court", the orders and judgment of that court are void, of no

8
9
10

legal force or effect. This fraud by the Court itself constitutes
"intrinsic" and "extrinsic fraud". US Supreme Court stated in

11
12
13

Hazel-Atlas Co. v. Hartford Co. 322 U.S. 328 * 64 S. Ct. 997
(1944) "....fraud here disclosed demands the exercise of the

14
15
16
17
18
19

historic power of equity to set aside fraudulently begotten
judgments".
\

Does any reasonable person think Appellant has any chance
of getting any kind of justice in Ninth Circuit after they have tried

20
21

their utmost to keep Appellants Appeal away from the Court?

22
23
24
25

III. MANDATORY, SELF EXECUTING DISQUALIFICATION
STATUTE, 28 U.S.C § 455

26
27

In view of above actions of Ninth Circuit any reasonable

Ch
rH
<u

28

person would question if Ninth circuit Judges "unbiased" and
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

GO

1

"neutral" status in case herein. Appellant thus asks this court to

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

disqualify itself under the mandatory disqualification statute.
28 U.S. Code § 455 - Disqualification of justice, judge, or
magistrate judge
(a) Any justice, judge, or magistrate judge of the United
States shall disqualify himself in any proceeding in which
his impartiality might reasonably be questioned, (emphasis
added)
(b) He shall also disqualify himself in the following
circumstances:
(1) Where he has a personal bias or prejudice
concerning a party, or personal knowledge of
disputed
evidentiary
facts
concerning
the
proceeding; (emphasis added)
(2) Where in private practice he served as lawyer in the
matter in controversy, or a lawyer with whom he
previously practiced law served during such association as
a lawyer concerning the matter, or the judge or such
lawyer has been a material witness concerning it;
(3) Where he has served in governmental employment
and in such capacity participated as counsel, adviser or
material witness concerning the proceeding or expressed
an opinion concerning the merits of the particular
case in controversy; (emphasis added)
(4) He knows that he, individually or as a fiduciary, or his
spouse or minor child residing in his household, has a
financial interest in the subject matter in controversy or in
a party to the proceeding, or any other interest that could
be substantially affected by the outcome of the
proceeding;

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

o
rsi<u

oo

^ 0

i
2
3
4
5
6
7
8
9
10

(5) He or his spouse, or a person within the third degree
of relationship to either of them, or the spouse of such a
person:
(i) Is a party to the proceeding, or an officer, director,
or trustee of a party;
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that
could be substantially affected by the outcome of the
proceeding;
(iv) Is to the judge's knowledge likely to be a material
witness in the proceeding.

11
12

Because of the reasons listed above, this Court, its Clerks,

13
14
15

Judges and other staff,

must disqualify themselves.

It is

Appellant's position, after years of information and belief, that no

16
17
18

reasonable person would agree that Appellant can receive any
degree of impartiality, and that this Court has dealt Appellant

19
20
21

bias and prejudice of a such a high degree as to make false
excuses to prevent her from filing her Appeal, as well as

22
23
24

criminally alter her filings and disappear other filings to deny her
rights

under the

US

Constitution,

Nevada

and

California

25
26
27

Constitution to endorse frauds and thefts of Appellants properties
rH

worth millions of dollars as well as knowingly and fraudulently

C\l<u

OB

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

3V

i

admit Appellee-Defendants forged documents and filings that do

2
3
4

not even have Affidavit/Declaration of filing attorney because
they know they are committing perjury. These are certainly not

5
6

unbiased actions of a fair judiciary.

7
8
9
10

IV. CODE OF JUDCIAL CONDUCT FOR US JUDGES CAN
RENDER AN ADVISARY OPINION OF APPELLANT'S MOTION

li
12
13

US Judges ethical duties are codified in the Code of Conduct for
United States Judges which is found online at the US Courts

14
15
16
17
18
19
20
21
22
23
24
25
26
27

website. It states particularly:
"The Code of Conduct for United States Judges includes the
ethical canons that apply to federal judges and provides
guidance on their performance of official duties and
engagement in a variety of outside activities.
This Code applies to United States circuit judges,
district judges, Court of International Trade judges, Court of
Federal Claims judges, bankruptcy judges, and magistrate
judges. Certain provisions of this Code apply to special
masters and commissioners as indicated in the "Compliance"
section. The Tax Court, Court of Appeals for Veterans
Claims, and Court of Appeals for the Armed Forces have
adopted this Code.
The Judicial Conference has authorized its Committee
on Codes of Conduct to render advisory opinions about this

CNl

cn<
d

bo
2

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1>

i
2
3
4
5

Code only when requested by a judge to whom this Code
applies.
Requests for opinions and other questions concerning this
Code and its applicability should be addressed to the Chair
of the Committee on Codes of Conduct by email or as
follows:

6
7
8
9
10
11
12
13

Chair, Committee on Codes of Conduct
c/o General Counsel
Administrative Office of the United States Courts
Thurgood Marshall Federal Judiciary Building
One Columbus Circle, N.E.
Washington, D.C. 20544
202-502-1100"
Procedural questions may be addressed to:

14
15
16
17
18
19

Office of the General Counsel
Administrative Office of the United States Courts
Thurgood Marshall Federal Judiciary Building
One Columbus Circle, N.E.
Washington, D.C. 20544
202-502-1100"

20
21
22

Appellant believes any reasonable Judge faced with this
motion should seek guidance from the General Counsel.

23
24
25

Appellant calls into awareness of this Court its high moral
and ethical duties, its very own Cannons (forgotten by Panel).

26
27
28

Canon 1: A Judge Should Uphold the Integrity an
Independence of the Judiciary
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

00

r\i<u

00

i
2
3

4
5

An independent and honorable judiciary is indispensable to
justice in our society. A judge should maintain and enforce
high standards of conduct and should personally observe
those standards, so that the integrity and independence of
the judiciary may be preserved. The provisions of this Code
should be construed and applied to further that objective.

6
7
8

9
10
11
12
13
14
15
16
17
18

Canon 2: A Judge Should Avoid Impropriety and the
Appearance of Impropriety in all Activities
(A) Respect for Law. A judge should respect and comply with
the law and should act at all times in a manner that
promotes public confidence in the integrity and impartiality
of the judiciary.
(B) Outside Influence. A judge should not allow family,
social, political, financial, or other relationships to influence
judicial conduct or judgment. A judge should neither lend
the prestige of the judicial office to advance the private
interests of the judge or others nor convey or permit others
to convey the impression that they are in a special position
to influence the judge. A judge should not testify voluntarily
as a character witness.

19
20
21
22
23
24
25
26
27

Canon 3: A Judge Should Perform the Duties of the
Office Fairly, Impartially and Diligently
The duties of judicial office take precedence over all other
activities. In performing the duties prescribed by law, the
judge should adhere to the following standards:
(A) Adjudicative Responsibilities.
(1) A judge should be faithful to, and maintain professional
competence in, the law and should not be swayed by
partisan interests, public clamor, or fear of criticism.

CM0)

00
cv

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

3

M.

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(2) A judge should hear and decide matters assigned, unless
disqualified, and should maintain order and decorum in all
judicial proceedings.
(3) A judge should be patient, dignified, respectful, and
courteous to litigants, jurors, witnesses, lawyers, and others
with whom the judge deals in an official capacity. A judge
should require similar conduct of those subject to the
judge's control, including lawyers to the extent consistent
with their role in the adversary process.
(4) A judge should accord to every person who has a legal
interest in a proceeding, and that person's lawyer, the full
right to be heard according to law. Except as set out below,
a judge should not initiate, permit, or consider ex parte
communications
or
consider other
communications
concerning a pending or impending matter that are made
outside the presence of the parties or their lawyers. If a
judge receives an unauthorized ex parte communication
bearing on the substance of a matter, the judge should
promptly notify the parties of the subject matter of the
communication and allow the parties an opportunity to
respond, if requested. A judge may:
(a) initiate, permit, or consider ex-parte communications
as authorized by law;
(b) when circumstances require it, permit ex-parte
communication
for scheduling, administrative,
or
emergency purposes, but only if the ex-parte
communication does not address substantive matters and
the judge reasonably believes that no party will gain a
procedural, substantive, or tactical advantage as a result
of the ex-parte communication;
(c) obtain the written advice of a disinterested expert on
the law, but only after giving advance notice to the
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

LO
fN<D

OO

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

parties of the person to be consulted and the subject
matter of the advice and affording the parties reasonable
opportunity to object and respond to the notice and to the
advice received; or
(d) with the consent of the parties, confer separately with
the parties and their counsel in an effort to mediate or
settle pending matters.
(5) A judge should dispose promptly of the business of the
court.
(6) A judge should not make public comment on the merits
of a matter pending or impending in any court. A judge
should require similar restraint by court personnel subject to
the judge's direction and control. The prohibition on public
comment on the merits does not extend to public
statements made in the course of the judge's official duties,
to explanations of court procedures, or to scholarly
presentations made for purposes of legal education.
(B) Administrative Responsibilities.
(1) A judge should diligently discharge administrative
responsibilities,
maintain professional competence in judicial administration,
and facilitate the performance of the administrative
responsibilities of other judges and court personnel.
(2) A judge should not direct court personnel to engage in
conduct on the judge's behalf or as the judge's
representative when that conduct would contravene the
Code if undertaken by the judge.
(3) A judge should exercise the power of appointment fairly
and only on the basis of merit, avoiding unnecessary
appointments, nepotism, and favoritism. A judge should not
approve compensation of appointees beyond the fair value
of services rendered.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

LO
CMOJ

00

3

U

i
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

(4) A judge with supervisory authority over other judges
should take reasonable measures to ensure that they
perform their duties timely and effectively.
(5) A judge should take appropriate action upon learning of
reliable evidence indicating the likelihood that a judge's
conduct contravened this Code or a lawyer violated
applicable rules of professional conduct.
(C) Disqualification.
(1) A judge shall disqualify himself or herself in a proceeding
in which the judge's impartiality might reasonably be
questioned, including but not limited to instances in which:
(a) the judge has a personal bias or prejudice concerning
a party, or personal knowledge of disputed evidentiary
facts concerning the proceeding;
(b) the judge served as a lawyer in the matter in
controversy, or a lawyer with whom the judge previously
practiced law served during such association as a lawyer
concerning the matter, or the judge or lawyer has been a
material witness;
(c) the judge knows that the judge, individually or as a
fiduciary, or the judge's spouse or minor child residing in
the judge's household, has a financial interest in the
subject matter in controversy or in a party to the
proceeding, or any other interest that could be affected
substantially by the outcome of the proceeding;
(d) the judge or the judge's spouse, or a person related to
either within the third degree of relationship, or the
spouse of such a person is:
(i) a party to the proceeding, or an officer, director, or
trustee of a party;
(ii) acting as a lawyer in the proceeding;

r^

CM<u

oo

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

3^

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(iii) known by the judge to have an interest that could
be substantially affected by the outcome of the
proceeding; or
(iv) to the judge's knowledge likely to be a material
witness in the proceeding;
(e) the judge has served in governmental employment
and in that capacity participated as a judge (in a previous
judicial position), counsel, advisor, or material witness
concerning the proceeding or has expressed an opinion
concerning the merits of the particular case in
controversy.
(2) A judge should keep informed about the judge's personal
and fiduciary financial interests and make a reasonable
effort to keep informed about the personal financial interests
of the judge's spouse and minor children residing in the
judge's household.
(3) For the purposes of this section:
(a) the degree of relationship is calculated according to
the civil law system; the following relatives are within the
third degree of relationship: parent, child, grandparent,
grandchild, great grandparent, great grandchild, sister,
brother, aunt, uncle, niece, and nephew; the listed
relatives include whole and half blood relatives and most
step relatives;
(b) "fiduciary" includes such relationships as executor,
administrator, trustee, and guardian;
(c) "financial interest" means ownership of a legal or
equitable interest, however small, or a relationship as
director, advisor, or other active participant in the affairs
of a party, except that:
(i) ownership in a mutual or common investment fund
that holds securities is not a "financial interest" in such
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

00
CN<D

euo

'i?'

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

securities unless the judge participates in the
management of the fund;
(ii) an office in an educational, religious, charitable,
fraternal, or civic organization is not a "financial
interest" in securities held by the organization;
(iii) the proprietary interest of a policyholder in a
mutual insurance company, or a depositor in a mutual
savings association, or a similar proprietary interest, is
a "financial interest" in the organization only if the
outcome of the proceeding could substantially affect
the value of the interest;
(iv) ownership of government securities is a "financial
interest" in the issuer only if the outcome of the
proceeding could substantially affect the value of the
securities;
(d) "proceeding" includes pretrial, trial, appellate review,
or other stages of litigation.
(4) Notwithstanding the preceding provisions of this Canon,
if a judge would be disqualified because of a financial
interest in a party (other than an interest that could be
substantially affected by the outcome), disqualification is not
required if the judge (or the judge's spouse or minor child)
divests the interest that provides the grounds for
disqualification.
(D) Remittal of Disqualification.
Instead of withdrawing from the proceeding, a judge
disqualified by Canon 3C(1) may, except in the
circumstances specifically set out in subsections (a)
through (e), disclose on the record the basis of
disqualification. The judge may participate in the
proceeding if, after that disclosure, the parties and their
lawyers have an opportunity to confer outside the
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CT)
CN0)

DO

1
2
3
4
5

presence of the judge, all agree in writing or on the
record that the judge should not be disqualified, and the
judge is then willing to participate. The agreement should
be incorporated in the record of the proceeding.
Appellant has formed a good faith belief that these Cannons

6
7
8

have been called into question by Ninth Circuit Judges actions.
Plaintiff has suffered at the hands of this Court that have denied

9
10
11

her due process, violated her civil rights, by altering and even
disappearing portions of her filings while refusing to take action

12
13
14

even after it was brought to their attention. In Appeal herein
prevented her access to Court by clearly lying on record

15
16
17

repeatedly that "fee is not paid" despite Appellant repeatedly
providing proof the she had paid it not once but twice. This is

18
19
20

criminal.
It is Plaintiff's position that Ninth Circuit, has been wrong in

21
22
23

its procedural positions denying her due process, preventing her
free access to Courts, obstructed justice by altering and

24
25
26

disappearing her filings to deny justice and prevent her from
recovering her stolen properties with damages accruing on a

27

o

28

QJ
Bfl
03

on
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

i

daily basis. Appellant believes this court cannot be fair and

2
3

4

impartial thus requests disqualification.
This is second motion for Disqualification of Ninth Circuit in

5

6

this Appeal (First was Dc # 17. Filed December 21, 2018)

7
8

V. UNITED STATES SUPREME COURT CASE LAW

9

"DUE PROCESS REQUIRES RECUSAL"

10
li
12
13

United States Supreme Court in Caoerton v. A. T. Massey

Coal Co 556 U.S. 868 129 S.Ct. 2252 (S. Ct. 2009) 173 L.Ed.2a

14
15

16
17
18
19
20
21
22
23
24
25
26

1208. 77 USLW 4456. Stated
due process requires recusal. Pp 2259-2267.
(a)
The Due Process Clause incorporated the commonlaw rule requiring recusal when a judge has "a direct,
personal, substantial, pecuniary interest" in a case,
Tumev v. Ohio. 273 U.S. 510, 523, 47 S.Ct. 437, 71 L.Ed,
749, but this Court has also identified additional instance
which, as an objective matter, require recusal where "the
probability of actual bias on the part of the judge or
decision maker is too high to be constitutionally tolerable"
Withrow v. Larkin 421 U.S. 35, 47, 95 S. Ct. 1456, 43
L.Ed.2d 712........
(b)
Because the objective standards implementing the Due
Process Clause do not require proof of actual bias......"

"Held:

27

0001

00

28

(U

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

VaV

1

jn caperton. Supreme Court also cited other cases where

2

3 "recusal was required" based on "temptation" so as to "lead him
4

not to hold the balance nice, clear and true". Ward v. Monroeville

5 409 U.S. 57, 93 S.Ct. 80, 34 L.Ed.2d 267. Aetna Life Ins. Co. v,
6

7
8 11

g

Lavo/e, 475 U.S. 813, 106 S.Ct. 1580, 89 L.Ed.2d 823.
U. S. Supreme Court in Mathews v. Eldridge 424 U.S. 319

10 96 S.Ct. 893 stated
ii

13
14
15

i6 ||
17
18
19
20
21
22
23
24
25
26
27

"Procedural due process imposes on government decisions
which deprive individuals of "liberty" or "property" interests
within the meaning of the Due Process Clause of the Fifth or
the Fourteenth Amendment."...............
......... "This Court consistently has held that some form of
hearing is required before an individual is finally deprived of
a property interest. Wolfe v. McDonnell, 418 U.S. 539, 557558 (1974). See e.g. Phillips v. Commissioner, 283 U.S.
589, 596-558 (1974). See also Dent v. West Virginia, 129
U.S. 114, 124-125 (1889)."........ "requiring some type of
pretermination hearing as a matter of constitutional
right"........ "The right to be heard before being condemned
to suffer grievous loss of any kind, even though it may not
involve stigma and hardships of a criminal conviction, is a
principle basic to our society." Joint Anti-Fascist Comm. V.
McGrath. 341 U.S. 123, 168 (1951)". Also see Armstrong \a
Manzo. 380 U.S. 545, 552 (1965); Grannis v. Ordean, 234
U.S. 385, 394 (1914).
In Mathews Supreme Court stated Due Process

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CNI

cn

0)
bfl

i
2
3

4
5

"requires consideration of three distinct factors: First, the
private interest that will be affected by the official action,
the risk of an erroneous deprivation of such
Second,
and finally the
interest through the procedures used
Government's interest " See e.g. Goldberg v. Kelly supra,
at 263-271."

6
7
8

9
10
11
12

Further adding
"As we recognized last term in Fusari v. Steinberg, 419 U.S.
379, 369 (1975) "the possible length of wrongful deprivation
of....... benefits [also] is an important factor in accessing the
impact of official action on the private interests"."
Supreme Court in Daniels v. Williams, 474 U.S. 327 (S.Ct.

13
14
15
16
17
18
19
20

21
22

1986).
"By requiring the government to follow appropriate
procedures when its agents decide to "deprive any person of
life, liberty, or property," Due Process Clause promotes
fairness in such decisions, And by barring certain
government actions regardless of the fairness of the
procedures used to implement them, e. g., Rochin, supra, it
serves to prevent governmental power from being "used for
purposes of oppression," Murray's Lessee 332*332__\a
Hoboken Land & Improvement Co.. 18 How 272, 277 (1856)

23

24
25

26
27
28

In Countv of Sacramento v. Lewis Supreme Court stated
"The principal and true meaning of the phrase has never been
more tersely or accurately stated than by Mr. Justice Johnson,
in Bank of Columbia v. Okelv. 4 Wheat. 235—244 [(1819)]:
.... that they were intended to secure the individual from
the arbitrary exercise of the powers of government,
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CO

CO<D

DO

2

til

i

unrestrained by the established principles of private right and

2

distributive justice. t

3

(1884).

4
5
6
7
8
9
10
ii
12
13

n

Hnrterin v. California, 110 U.S. 516, 527

We have emphasized time and again that "the touchstone
of due process is protection of the individual against arbitrary
action of government," Wolff v. McDonnell[, 418 U.S. 539, 558
(1974), whether the fault lies in a denial of fundamental
procedural fairness, see, e.g., Fuentes v. Shevin, 407 U.S.
67, 82 (1972) (the procedural due process guarantee protects
against "arbitrary takings"), or in the exercise of power
without any reasonable justification in the service of a
governmental
objective,
see,
e.g.
legitimate
Daniels V. Williams. 474 U.S., at 331 (the substantive due
process guarantee protects against government power
arbitrarily and oppressively exercised)."

14
15
16

Appellee-Defendants

Judges judged

cases

they

were

defendants in, denying recusal. These illegal non-judicial acts

17
18
19

were supported and endorsed by Ninth Circuit against U. S.
Supreme Court case law. And now THREE NINTH CIRCUIT

20
21
22

JUDGES ARE DEFENDING THEIR ACTIONS FOR OVER ONE YEAR
in Nevada Bankruptcy Adversary Case No. 10-01074. Where

23
24
25

Defendant-Judges have accepted every allegation to be true.
See In Re Murchison. 349 U.S. 133, 75 S.Ct. 623, 99

26
27

L.Ed.942 stated "No man can be a judge in his own case".

cn
0)

tuo
to

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

VI. CONCLUSION

1
2
3

4
5
6
7

How can Ninth Circuit "Hold the balance nice, clear and true
when THREE NINTH CIRCUIT JUDGES ARE DEFENDING THEIR
ACTIONS FOR OVER ONE YEAR? Ninth Circuit is liable to
Appellant for millions of dollars in damages. Surely this is enough

8

9
10
11
12
13
14

grounds for recusal?
Petitioner was actively prevented from filing the Appeal
herein by Ninth Circuit lying repeatedly that "fee was not paid"
despite Appellant repeatedly providing copies of two checks as
proof that fee was paid TWICE. This is criminal as are other

15
16

actions of Ninth Circuit in Appellant's other appeals as listed.

17

Thus far Petitioner has been denied "free unbiased access to
18
19

Courts" prevented from recovering her stolen properties by Ninth

20

Circuit hurriedly dismissing her Appeals refusing to include
21
22

Defendants "dropped" from cases by the lower courts with Ninth

23

24
25

Circuit refusing to even include these Appellees into the case.
Ninth Circuit also criminally altered and disappeared Appellant's

26

filings. Appellant objects to having Ninth Circuit have anything to
27

LO

on

CD
UO

28

do with her matters. This is THIRD MOTION for Recusal.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

ro

i
2

There is absolutely no reason for Ninth Circuit to continue in
their "duty to sit" practice. An abolished doctrine being practiced

3

4
5

in Ninth Circuit to "judge" cases benefiting themselves and their
Appellee-Defendant-Friends denying Appellants civil rights, due

6
7

process and violating United States, Nevada and California

8

Constitutions. Not to mention their actions are treasonous.
9
10
11

Based upon

above actions of Ninth

Circuit Appellant

respectfully requests for the third time in case herein that the

12
13

Ninth Circuit Disqualify and recuse itself from this Appeal so that

14
15
16

the Appeal can get transferred to another Circuit such as the DC

Circuit.

17
18
19

Respectfully submitted:
Dated: October 29, 2020

20

21
22
23

SALMA AGHA-KHAN, M.D.
Appellant-Debtor-Plaintiff

24
25

26

UD
CO

27

<D
bQ

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

i

DECLARATION OF APPELLANT SALMA AGHA-KHAN, MP.

2
3
4
5
6
7
8

I, SALMA AGHA-KHAN, MD., declare as follows:
1.

I am the Appellant-Debtor-Plaintiff in Appeal and underlying

case herein, and have personal knowledge of the of the
following.
2.

There are three Ninth Circuit Judges that are Defendants in

9
10
11

another property case filed by myself in Nevada. Bk. Adv. 1901074. There is absolutely no way Ninth Circuit can "ho9ld the

12
13

balance nice, clear and true.

14
15
16

3.

Have been denied access to Courts by Ninth Circuit

repeatedly when they know very well they have a duty to review

17
18
19

cases de novo.
4.

The Appeal

herein

was

dismissed

by the

Clerk for

20
21
22

nonpayment of fees despite Appellant having paid the fee TWICE
to the District Court Clerk and attaching copies of the checks in

23
'

24
25
26

Except I Ex 6.
Exhibit 6: Receipt of $505.00 Fee Payment to Nevada

104 - 106

District Court Re: Appeal to Ninth Circuit In Civil Case
on

27
28

2:16-cv-0U24OCM-NJK
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

0)

&c

1
tins
r
f£2 t, surrasw.w»<

2
f

3

CUSTOMER S RECEIPT

*

r;tir
Ni. ; -jiMSU:

4

2 5 1 T3A£h2*iS

5

Ft >STAh Mt >XKV * >4U>Kli

I

t V

6

551*7 Jfifib^TS
7
i

8

r

:

i

9

• /'

:
10

I q lhfi 1 ’ 3ft11’

11
12

13
14
15
16
17
18

10/31/2018 J4. Filed clertt order (Deputy Clerk: CO): Appellant’s motion for an extension of time to file the opening brief is granted
[2J. He Clerk shall file the opening brief received on October 25,2018. Appellant's motion for an extension of time to
file the opening brief indudes a statement that she has paid the fees for this appeal. The receipt appellant provides is
for appeal No. 18-16553, not for this appeal. The fees for this appeal remain due. Within 21 days after the date of
this order, appellant shall have one final opportunity to pay to the district court S5O5.0Q as Ore docketing and filing
fees for this appeal and file proof of payment in this court, or file in this court a morion to proceed in forma pauperis.
The filing of a motion to proceed in forma pauperis will automatically stay the briefing schedule under Ninth Circuit
Rule 27-11. If appellant fails to comply with this order, the appeal will be dismissed automatically by the Clerk under
Ninth Circuit Rule 42-1. The Clerk shall serve a Form 4 financial affidavit on appellant The answering brief is due
December 7,2018; and the optional reply brief is due within 21 days after service of the answering brief. [11067485]
I
(CKP) [Entered: 10/31/2018 01:23 PM]

19
20
21

i!
22
23
24

11/01/2018 J5. Filed clerk order (Deputy Clerk: MF): The porfion of the October 31,2018 order addressing the briefing schedule for
this appeal is vacated. The Clerk shall not file the opening brief until the fee status for this appeal is resolved. The
remainder of the briefing schedule will be set if the opening brief is filed. Appellant remains obligated to comply with
the portion of the October 31,2018 order requiring appellant to pay the fees for this appeal or file a motion to
proceed in forma pauperis. [11069015] (CKP) [Entered: 11/01/2018 02:54 PM]

!

12/04/2018 J6. Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant to Ninth
Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated 10/31/2018). This order
!
served on the district court shaft, 21 days after the date of Ore order, act as the mandate of this court. [11108695]
(CKP) [Entered: 12/04/201811:05 AM]

I

;

25
26

27

The Clerk's Order above failed to mention that the Payment
Check stated the correct case number as provided. The Clerk

00

m<u

DO
at

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

i

2

stated the Receipt is for incorrect case number. Surely IT IS NOT
APPELLEE'S JOB TO MAKE SURE THAT THE DISTRICT COURT

3
4
5

CLERK IS DOING HIS/HER JOB. IT IS THE JOB OF CIRCUIT
COURT CLERK TO OVERSEE THE DISTRICT COURT CLERK. Yet

6

7
8

the Appeal was dismissed.
5.

Appellant than filed a motion to reinstate the Appeal after

9
10

making a SECOND PAYMENT. The tile of filing in docket is

11
12

12/21/2818 17 Filed Appellant Salma Agha-Khan, M.D. motion to reconsider order of trie Clerk of the Court filed on 11/01/2018.
Deficiencies: None. Served on 12/21/2016. [11217834] (CW) [Entered: 03/08/201910:37 AM]

13
14

While the actual title on cover was

15

APPELLANT'S MOTION FOR RELIEF FROM CLERK'S ORDER

16

If-

DISMISSING APPEAL DESPITE APPELLANT REPEATEDLY

1$

PROVIDING PROOF OF REPEAT PAYMENTS MADE TO

If

DISTRICT COURT IS VIOLATION OF APPELLANTS CIVIL

Ifl

RIGHTS SUGGESTING COLLUSION BETWEEN NINTH

19

CIRCUIT AND DEFENDANTS MANDATING RECUSAL

17
18
19
20
21
22

Copy of second check was added as exhibit to this motion Doc #

23
24

17 in Appeal herein

25
26

ov

27

m

O)
00

m

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

L,1

1
2

rzri
r^n U.\n> oyrirt •
J-'Oi #/it sf v :ju

3

^ * . < .1 «\" i‘ ~\ £ C £ 5 {* T
: /1

• i-,’ *“*

■J • * » -»

< s

\
.

,-_.

.-■

f-OT
‘JEG0TIA9LE

4

25M75Sa^m
5

i^=g"' (ssfiaswfM^

-rs^V-n-

6

rie-n-u
> \\\ v ■
POSTAL MONEY UUUKK
<■ :; n-n

1

Fiv ■ t'""
i

8
9

v*

i

'^.VU
Ttw

.1

>

IT'*

■ ,

k. i *"

r 10

.roaoDoaoti d*:
li

. f L

. 4b

« » ■» 1 ‘

J

12
13
14

6.

Appellants UNOPPOSED Motion was kept hanging till April

02, 2019 (over three months) before reinstating the Appeal with

15
16
17
18

19
20

21
22
23

no comment on Appellant's request to recuse Ninth Circuit
04/02/2019 Q jo
Red clerk order (Deputy Clerk: MF): On December 4, 2016, the court dismissed this appeal for faSure to
2 pg.mi4 KB prosecute because appeSant bad no! paid the fiSng and docketing fees. See 9th Cir. R. 424. A review of
the district court's records reflects that appellant has row paid fire filing and docketing fees for this appeal.
However, appellant erroneously paid the fees for this appeal in District of Nevada eroi case No. 2:17-cv02739-GW.N-CWH, not the above-referenced district court docket The motion to reinstate this appeal is
granted (Docket Entry No. 02). The December 4,2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend the docket to reflect that the fees for this appeal have teen pad. The Clerk shall
§e fire opening brief received on October 25,2018 (Docket Entry No. (10j). The answering brief is due
May 3,2019; and the optional reply brief is due within 21 days after service of the answering brief. The
Clerk Shall send a ropy of this order b the district court The district court clerk shall transfer the fee
payment received on November 26,2018 in civil case No. 2:17-cv-02739-GMN-CWH to fie abovereferenced district court docket. (11250217] (AF) [Entered: 04/02/2019 01:20 PM)

24
25

26

7.

Also the Nevada District Court Docket in underlying case

has no mention of Appeal - only case CLOSED. Interesting

O

27
28

collusion between District Court and Ninth Circuit.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CL>
QO
tv

S

o

unvie, «;*» m»
1

CU '.CI - nfi -

A >•»»«

CLOSED
2

United States District Court
District of Nevada (Las Vegasl
CIVIL DOCKET FOR CASE #: 2:16-cv-01124-JCM-NJK

3

4
5

6
7

6.

In Appeal No. 18-17006, this Court has refused to included

Appellee-Defendants fraudulently excluded from the complaint

8
9

10

by the lower court through removal of page 2 of the complaint.
Appellant's filing to include these Defendants was ignored by the

11
12
13

lower court and Ninth Circuit. Ninth Circuit even changed the title
of Appellant-Plaintiff's filing

14
15
16
17

0411012019 J! Filed Appelant Salma Agha-Khan, M.D. moion lo amend caption. Deficiencies: None. Served on 04/0312019.
[11259541] (CW) [Entered: 04/10/2019 01:50 PM]
When the title on filing was

18
19
20

21
22

APPELLANT'S REQUEST TO INCLUDE APPELLE#! I

IS

DEFENDANTS EXCLUDED FROM THE CASE BY THE LOWER
COURT THROUGH ITS REMOVAL OF PAGE 2 OF
APPELLANT'S FILED COMPLAINT DESPITE SUMMONS

If.
17
19

BEING ISSUED AND SERVED

23

24
25

jS

j

(Oral hearing requested)

Note: Ninth Circuit knew that Summons were issued for these

26
27

Defendants that were served and Summons returned to the

r-H
OJ
03

28

lower court.

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455? JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

n

7.

i

2
3
4

Ninth

Circuit dismissed the Appeal

refusing to even

comment on occurrence of such criminal actions that are most
certainly "extra ordinary" that seem perfectly fine to them

5
6

7

stating
—1

8
9

11/3012018 03:36 PM]

10

This Court has previously altered Appellant's filed Excerpt X

ii

8.

12

in Appeal No. 17-56842 after Appellant raised this issue in Doc #

13
14

24 Pgs 12 - 13. Filed November 06, 2018.

15

23

16

24

17

2S

18

Third is why was Excerpt X Exhibit 62 altered? Was it because
this was a copy of Appellant's Statement of Issues filed by in BAP
Pasadena, disappeared by this very Court after the Clerk stamped

19

It with incorrect date claiming she “did not have the correct date

20

l

21

2

22

3

23

2

24

stamp"? (BAP stamped January 16, 2015, case dismissed February

9.

19, 2015 and Notice of Appeal filed March 05, 2015). (Ex E, F, G)
This same circuit has kept Appellant-Plaintiff's Motions

25
26

pending for about two years. See Writ of Mandamus, Case No.
CN

27

17-71883, against Appellee-Defendant Judge O'Neill's criminal

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

CD

2an

i
2

actions of creating sham cases against Appellee and causing
false arrests deemed "baseless" and "created" by another Judge

3
4

in Central District.

5

17-71653 Docket

£,r9,'2019
6
06/27/2017 Ojl
7

FILED PETITION FOR WRIT OF MANDAMUS. DOCKETED CAUSE AND BfTERED APPEARANCES

«Jpg,3.13MB

0S/29/2017 by JJF] (HH) [Entered: Qm&lOtf 12:35 PM]
8
9
10
11
12
13
14

j

i

Received Petitioner Salma Agha-Khart, M.D. addendum to emergency petition for writ of mandamus.
J
06/29/2017 Q n
|
i5ra.i«.«Ka Served on DS/29/2017 [10493503] (RL) (entered: 0S/3GZ2D1710:55 AM]
Fned older (ALFRED! GOODWIN, ALEX KOZINSKl and MARSHA S. BER20N) Petitioner has not
!
07/24/2017 Ol
demonstrated dial this case warrants the intervention of this court by means of the extraordinary remedy of *
■ipg.32S.tita
mandamus. See Bauman v. US. Dial. Court, 557F2d 650 (9thC>t-JS^). Ac«x^ngly mepettonidenied. No further filings will be entertained in this closed case. DENIED. [13518270] (ME) [Entered.
07/24/2017 09:58 AM]
Filed Petitioner Salma Acha-Khan, M.D. motion to reconsider (document fitted: pefficn tor:retearing en
08/21/2317 Ol
2aepg,io^sw3 banc). Deficiencies: None. Served on 03/21/2017. [10553199] (RL) [Entered: 08/22/201710:35 AM]
Hied Petitioner Salma Agha-Khan, M.D. addendum to motion for reconsideration and exhibited support
05/03/2018 Q
1745 pg, 52.6 M3

i

(RL) [Entered: 05/01/2018 01:53 PM]

15
16
17

Note: The Excerpts disappeared in Appeal 17-56842 by Ninth
Circuit had all case filings and records giving rise to this

18
19
20

Mandamus. Thus Ninth circuit Panel Judges are well aware of
their illegal actions.

21
22
23

10. This Court has previously DISAPPEARED Appellant's filed
Excerpts in Appeal No. 17-56842 (Excerpts disappeared included

24
25
26

four copies each of XIII, XIV, XV, XVI, XVII, XVIII). See pgs 2,
20 of Doc # 24, November 06, 2018.

27

no
<D
QO
0]

o_

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;

AFFIDAVIT/DECLARATION OF APPELLANT

I

i.

1
2

j evidence and proof? Is this the reason that supporting Excerpts

17

3

18

containing proof was removed after filing despite being mentioned

4

19

in the brief repeatedly (about one-third pages of brief reference it

5

20

6

23

7

22

and list of exhibits is listed in the brief too)? Why was lack of these
six excerpts not questioned by this Court? (Ex A, B, C, D)

8
9
10
11

And on Pg 20
? it is evidence of this behavior that was contained in Excerpts XIII
3 through XVIII, removed by Ninth Circuit. Ninth Circuit restricted

12
13
14

11. Appellant's Writ of Mandamus asking this Court to establish
her Nevada residency was denied by this Court when ownership

15
16
17

of property establishes residency. See 18-72001.
12. Appellant's Appeal Case No. 16-15164 for Bankruptcy fraud

18
19
20

was dismissed by Ninth Circuit Panel Judges with Appellants
alleging that lower Court dropping over twenty defendant-friends

21
22
23

during transfer of case from Bankruptcy to Eastern District . Ninth
Circuit failed to even comment on it. Perhaps this dismissal of I

24
25

Appellee-Defendant-Friends is routine in Ninth Circuit.

26

13. Appellant's Appeal Case No. 17-16935 for recovery of|

27
Q)

28

property was dismissed by Ninth Circuit ignoring that Appellees
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

DO
TO

1 fraud claim on Appellant's home was discharged as unsecure
2

3 debt in 2010 yet they foreclosed and sold her home two years
4 II later. Not one discovery was allowed or one hearing conducted.
5

T4'

7

8

Appellant's Appeal Case No. 15-55976 had raised a very

serious issue that every single one of her filing in the District
Court was altered. Ninth Circuit did not even raise an eyebrow to

9

10 such serious criminal action allegation perhaps because they
ii
12
13
14

were doing the same thing. The case was dismissed without a
single hearing or discovery.
15. In Appeal No. 19-60005 two Clerks from Ninth Circuit

15
16
17

18
19

20

refused to believe that Appellant had 14,000 words in her brief
refusing to file the Brief asking that Appellant file a Motion asking
for permission to file oversized brief when on recounting the
actual word count was less than 14,000 including exemptions.

21

22
23

This case exemplifies Ninth Circuit's efforts in

preventing

Appellant's free access to unbiased courts and interference with

24

25

her constitutional right to an unbiased judiciary.

26

27

16. This Court violated its duty to report this criminal alteration

LO
<u

00

28

of Appellant's filings to higher authorities for investigation and
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

i
2
3
4

criminal prosecution of corrupt employees which any "honest"
Judge or Federal Officer would have done. Yet the Ninth Circuit
Panel Judges violated their duty to report these criminal on

5

goings in Ninth Circuit because they were the perpetrators.
6
7
8

17.

Ninth Circuit in each and every one of the above Appeals

filed to review the case "de novo" according to their duty, their

9
10

job description. The Judges are only Federal Employees paid for

11
12
13
14

by the public. "Judge 5s not the Court"
18. In all above cases Ninth Circuit colluded with their AppelleeDefendant-Friends to violate 42 U.S. Code §§ 1981, 1982

15
16

causing Deprivation of Civil Rights 42 U.S. Code § 1983 and 42

17
18
19
20
21
22

U.S. Code § 1985.
19. The Ninth Circuit has also been refusing to follow the law
and report the actions to authorities for investigation as is their
duty according to 42 U.S. Code § 1986. Ninth Circuit to further

23
24
25

violate 28 U.S.C. section 535(b) (2002) and Federal Whistle
Blowers Statute.

26

to

27

Q)

bo
ro

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

1

2

20. Ninth Circuit has obstructed justice in every way they could
to the extent of altering my filings that provided proof of Ninth

3
4

. 5

Circuit's disappearing filings.
21. Ninth Circuit has violated Judicial Canons and the Oath of

6

7
8
9
10
11

Judges they took.
22. Ninth Circuit has flipped on its own prior statements
"Restricting access to the courts is, however, a serious
matter". "The right of access to the courts is a fundamental

12
13

right protected by the Constitution." De/ew v._WdQnsr, 143 F.3d

14
15
16

1219, 1222 (9th Cir. 1998).
23. Ninth Circuit has violated United States constitution by

17

violating my civil rights knowingly deliberately for personal gains.
18
19

24. A Judge violating the United States Constitution is warring

20
21

22

with the constitution and in fact committing treason.
25. I have made a good faith determination that I will never be

23
24

25

treated fairly or receive any kind of justice in this Circuit that still
practices the abolished "duty to sit" doctrine.

26

27
28

26.

For me to receive any kind of justice this Ninth Circuit must

disqualify itself from my Appeal so that my Appeal may be
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

QJ
00

S"7

i
2
3
4
5

judged on its merits and not judged upon merits of friendships
that Judges have with Appellee-Defendant-Friends mandating
their protection at all costs including denial of Justice.

6

I declare under penalty of perjury under the laws of the

7

United States of America that the foregoing is true and correct

8

and if called to testify in a court of law, I would testify to same.
9
10

Respectfully submitted:

11
12
13

Dated: October 29, 2020
^

——

14
15

SALMA AGHA-KHAN, M.D.
Debtor-Plaintiff-Appellant

16
17
18
19
20
21
22
23
24
25
26

00

27

'vt

CD
BO

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

S''

VIII.CERTIFICATE OF COMPLIANCE

i

2

Certificate of Compliance With Type-Volume Limitation,

3
4

5

Typeface Requirements, and Type Style Requirements
1.

This brief complies with the type-volume limitation of Fed. R.

6

7
8

App. P. 32(a)(7)(B) because:

This brief contains 2,979 words,

excluding the parts of the brief exempted by Fed. R. App. P.

9
10
11

32(a)(7)(B)(iii).
2.

This brief complies with the typeface requirements of Fed. R.

12
13
14

App. P. 32(a)(5) and the type style requirements of Fed. R. App.
P. 32(a)(6) because: this brief is double spaced and has been

15
16

prepared in a proportionally spaced typeface using WORD

17
18
19

software program, and Verdana font size 14.
DATED:

October 29, 2020

20
21
22

23
24

SALMA AGHA-KHAN, M.D.
APPELLANT IN PRO SE

25
26

CD

27

<D
DO
TO

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

PROOF QF SERVICE AMD SERVICE LIST

i
2

I declare that I am a resident of the County of Los Angeles,

3

4

State of California. I am over 18 years of age and a party to the

5

6
7
8

9
10
11

entitled action.
I served the forgoing documents(s) described as: PROOF OF
SERVICE AND SERVICE LIST RE: APPELLANT'S THIRD
MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON
MANDATORY AND SELF-EXECUTING DISQUALIFICATION

12
13
14

STATUTES 28 U.S.C. § § 144 and 455; DECLARATION OF
APPELLANT; on the following person whose address is listed in

15
16

ATTACHED SERVICE LIST by sending a true copy thereof

17

enclosed in a sealed envelope or transmitting, as follows:
18
19

X

(By U.S. Mail) I caused such envelope, with postage thereon

20

fully prepaid, to be placed in the United States mail.
21
22

I declare under penalty of perjury under the laws of the United

23
24
25

States of America.
Executed on October 29, 2020 at Los Angeles, California.

26

o

27

LO0)
00

28

SALMA AGHA-KHAN, MD.
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

L*

i

2
3
4

5
6

7
8
9
10
11
12

APPELLEE-DEFENADNT LIST WITH ADDRESSES
Case No 2:16-cv-01124-JCM-NJK
Salma Agha-Khan v. Pacific Community Mortgage In. et ai
Pacific Community Mortgage Inc.,
Pacific Community Mortgage Inc., its successors and
assignees
Gold Reverse Inc.,
Kurt Kingsolver,
Marilyn Fine
Holley Driggs Walch Fine Wray Puz & Thompson
400 S. Fourth St. 3rd Floor
Las Vegas, NV 89101

T: 702-791-1912
F: 702-791-1912
mfine@nevadafirm.com

13
14
15
16
17

18
19

20
21

Quality Loan Services Corp.,
Ronald Alonzo,
Bee Vang,
Mary Jane Same
Kristin A. Schuler-Hintz, Esq
McCarthy & Holthus LLP
9516 west Sahara #200
La Vegas, NV 89117
T: 702-685-0329
F: 866-339-5691
FDCNV@mccarthvholthus.com

22
23
24

25

Agents for Quality Loan Services Corp
Bobbie Irias/Xrlas,
Address Unknown, Claiming to be employed by Quality Loan
Services Corp

26
27

rH
LO<u

American Securities Company of Nevada,
Does not exist

00

28
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY .
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

y{

1
2
3

4
5

6
7
8

9
10

Mortgage Electronic Registration Systems, Inc.
Theodore Schultz, Vice President of MERS, Inc
Aurora Loan Services,
Aurora Loan Services, LLC.,
Trisha McMullin, agent for Aurora Loan Services;
Colt B. Dodrill
Wolfe & Wyman LLP
6757 Spencer Street
Las Vegas, NV 89119
T: 702-476-0100
F: 702-476-0101
rhdodrill@wolfewvman.com

11
12
13
14
15
16
17
18

Service! ink,
Serviceiink-Irvine,
Fidelity National Title
Marni Rubin Watkins
Fidelity National Law Group
8363 W. Sunset Road, Suite 120
Henderson, NV 89113
T: 702-667-3000
F: 702-697-2020
Marni.watkins@fnf.com

19
20

21
22
23

24
25

26
27
28

Steven Joe,
Michael McNeill,
Juliann McNeil,
Ogonna M. Brown
Andrea M. Gandara
Holley, Driggs, Walch, Fine, Wray, Puzey & Thompson
400 South Fourth Street, Third Floor
Las Vegas, NV 89101
T: none provided
F: none provided
Qatamoh@nevadafirm.com
aaandara@nevadafirm.com
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

j

<N
LD0>

bfi

b

Welts Fargo Bank, N.A.,
3 Wells Fargo Financial National Bank,
4 Robin E. Perkins, Esq.
5 Margaret G. Foley, Esq.
Snell & Wilmer LLP
6 3883 Howard Hughes Parkway, Ste 1100
7 Las Vegas, NV 89169
8 T: 702-784-5200
g F: 702-784-5252
9 rperkins@swlaw.com
10 mfolev@swlaw.com
11 Alayne M. Opie, Esq.
3773 Howard Hughes Parkway, Suite 400N
12 Las Vegas, NV 89169

13 T: 702-792-3773
14 F: 702-792-9002
15 hundicki@atlaw.com
1 II opiea@atlaw.com
16

Noble Title,
, Aaron David Lovaas
18
Kristan Elizabeth Lehtinen
19 Global Business Lawyers - Lovaas & Lehtinen, P.C.
20 5586 South Fort Apache Road, Suite 110
Las Vegas, NV 89148

17

21 T: 702-388-1011
22 F: 702-387-1011

23 | aaron@alobalbusinesslawyersusa.com
kristan@alobalbusinesslawversusa.com
24

25
26

27
28

William Go
Prudential Americana Group,
Darren J. Welsh
6765 S. Eastern Ave, Suite 200
Las Vegas, NV 89119
APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY .
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

m
LOO)

tic
ro

>

1 T: 702-733-9310
2

F: 702-862-4576
riarrenw@3mericanaqrp.com
Christopher 3. Flaharty
4 II Nichole R. Flaharty,
^ i=1 .
.
M
Christopher J. Flaharty, and Nichole R. Flaharty, as
5
Trustees of the Flaharty Family Trusty
6
!:!aharty Family Trust,
7
Carleton R. Burch
Sue Trazig Cavaco
8
Anderson McPharlin & Conners LLP
9
601 S. Seventh Street
10
Las Vegas, NV 89101
T: 702-479-1010
11
F: 702-479-1025
12
rrh@amciaw.com
13
qfr@amclaw.com
and Todd W. Prail
14
Hutchinson & Steffen, LLC
15
Peccole Professional Park
16
10080 W. Alta Drive, Suite 200
Las Vegas, NV 89145
17
j T: 702-385-2500
18
F: 702-385-2086
19
fprall@hutchleqal.com
20

21
22
23

24
25

26

LO(D

27

&0

m

28

APPELLANT'S THIRD MOTION TO DISQUALIFY NINTH CIRCUIT BASED UPON MANDATORY
AND SELF-EXECUTING DISQUALIFICATION STATUTES 28 U.S.C. § § 144 and 455; JUDICIAL!
CODES OF CONDUCT AND ETHICS AS WELL AS JUDICIAL CANONS;
AFFIDAVIT/DECLARATION OF APPELLANT

.
l

EXHIBIT B
Petitioner’s Second Filing DESTROYED by Ninth Circuit,
titled
Motion

“Appellant’s Opposition to Appellees
for Summary Affirmance”

Ex I: California Secretary of State showing
“Lender” Pacific Community Mortgage had
ceased to exist about 10 years earlier
Ex II: Face sheet of Deed of Trust with
Recorder’s Memo “Poor Record Due to
Quality of Original Document”
Ex III: Unsigned CLARIFICATION of Deed of Trust
(App. Ex II, III; Ex B, J of Complaint)

Filed: November 03, 2020

65-150

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

V.

PUBLIC 1NF0RMAT;0? t UN. t

X

^
ffl

2029 NOV-3 PH5'-: ^

Ninth Circuit Case No. 18-15202
1

Originating US District Court Case No. 2:16-cv-0112%^MJ)JJK

2 I!

DOCKETED___ _

Q

3

dSTF

4

IN THE UNITED STATES COURT OF APPEALS

im

H

5

FOR THE NINTH CIRCUIT
6
7

SALMA AGHA-KHAN,-MtDtj
8

II Plaintiff-Appellant
9
V.

10

Pacific Community Mortgage, In., et al.
ii

Defendant-Respondent
12
13

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE
14

ELECTRONIC REGISTRATION SYSTEMS, INC., THEODORE
15

SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION
16

FOR SUMMARY AFFIRMANCE FILED CONCURRENTLY WITH
17

THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION
18

BASED UPON MANDATORY, SELF-EXECUTING STATUTES 28
19

U.S.C. § § 144 and 455
20

(Oral hearing requested)
21
22
23

24

SALMA AGHA-KHAN, M.D.
3751 Motor Ave #34727
Lds Angeles, CA 90034

\.V*

949-332-0330
25

salmahaaha@aol.com
vH
<D
OO

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;
-V

ra
o.

1

TABLE OF CONTENTS

2
3
4

I.

INTRODUCTION WITH BARE FACTS

2

A. SAID LOAN WAS PROVIDED BY NON-EXISTING

5
6
7

LENDER/COMPANY

2

B. SEC REPORTED LOAN AS PAID IN FULL WITHIN

8
9
10

FEW MONTHS OF ORIGINATION

3

C. DEED OF TRUST WAS REJECTED BY CLARK COUNTY

ii
12
13

RECORDER FOLLOWED BY FILING OF UNSIGNED COPY...4
D. NEVADA LAW REQUIRES VALID ASSIGNMENT MADE

14
15
16

BEFORE CUT-OFF-DATE AND NOT AFTER LOAN IS
PAID OFF IN FULL

6

17
18
19

E. APPELLEE MERS WAS NOT REGISTERED TO DO
BUSINESS IN NEVADA ON SAID DATES

6

20
21
22

F. NON-EXISTING APPELLEE PCM RECORDED FORGED
TITLE DOCUMENTS SIX YEARS AFTER LOAN WAS

23
24
25

PAID OFF IN FULL

7

G. APPELLEE THEODORE SCHULTZ IS A WELL RECOGNIZED

26
27

ROBO-SIGNER

8

28
a)
oo
TO

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

H. APPELLEE THEO SCHULTZ IS ALSO VP OF MANY OTHER

2

CORPORATIONS INCLUDING APPELLEE AURORA

3

4

9

I. APPELLEE TRISHA MCMULLIN PARTNERED WITH

5

APPELLEE SCHULTZ IN ISSUING, SIGNING AND

6
7

RECORDING FORGED TITLE DOCUMENTS

9

8

J. APPELLEES PERPETRATED BANKRUPTCY FRAUD,

9
.10

FRAUD UPON THE COURT AND PERJURY IN

ii

APPELLANT'S BANKRUPTCY

12
13

10

K. APPELLEE-DEFENDANT ATTORNEYS DD NOT EVEN

14

ATTACH A DECLARATION TO THEIR FILINGS KNOWING

15
16

THEY WERE COMMITTING FRAUD AND PERJURY

10

17

L. LOWER COURT PREVENTED APPELLANT FROM

18
19

AMENDING HER COMPLAINT TO ADD DEFENDANTS......10

20

21
22

II.

STAN DAN RDS OF REVIEW

11

A. CLEARLY ERRONEOUS

11

B. ABUSE OF DISCRETION

12

23

24
25

C. DENIAL OF LEAVE TO AMEND TO PRO SE LITIGANT......13

26
27
28

D. CONSTITUTIONALITY

14

E. DISMISSAL OF §1983 CLAIMS

14

\o
a)

OjO

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

III. ARGUMENT

15

2

A. A CONTRACT REQUIRES TWO IDENTIFIABLE PARTIES TO

3
4

BE VALID: A NON-EXISTING ENTITY CANNOT SIGN

5

CONTRACTS THUS DEED OF TRUST IS VOID ABIINIYIO....15

6
7

B. ALL RECORDINGS ON APPELLANT'S HOME SIX YEARS

8

AFTER LOAN WAS FULLY PAID OFF ARE VOID

9
10

16

C. APPELLEE-DEFENDANTS DID NOT MEET THE

ii

HEAVY BURDEN FOR THE COURT TO GRANT THEM

12
13

SUMMARY JUDGMENT

18

IV.

DE NOVO STANDARD REVIEW IS MANDATED

17

V.

NINTH CIRCUIT STANDARDS FOR CASES ALLEGING

14
15
16
17

SEC FRAUD WERE NOT FOLLOWED BY THE

18

DISTRICT COURT

19

25

20
21
22

VI.

CLOUD ON TITLE PRECLUDED TRANSFERS/SALES ETC.
UNIFORM FRAUDULENT TRANSFER ACT ("UFTA")

27

23
24
25

VII. APPELLANT WAS DENIED HER CONTSTITUTIONAL RIGHT
OF DUE PROCESS BY THE LOWER COURT

28

26
27
28

VIII. CONCLUSION
DECLARATION OF SALMA AGHA-KHAN, MD

32
35
a>

2bo
APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

CERTIFICATE OF COMPLIANCE

40

CERTIFICATE OF SERVICE

41

APPELLE-DEFENDANT LIST

42

2
3

4
5

6

Statutes, US Constitution, Case Law and Publications

i - XII

7
8

9
10

STATUTES AND US CONSTITUTION
28 U.S.C. § 455.

1

28 U.S.C. § 144

1

ii
. 12
13

Perjury

10

Bankruptcy Fraud

10

14
15
16

Civil Rights

13, 30, 31

17
18
19

Constitutional Rights
Due Process

14, 31
18, 28, 29, 30

20

21
22

Rule 8

20

Rule 12(b)(6)

21

Bank Fraud

25

Wire Fraud

25

TILA

25

Respa

25

23

24
25

26
27
28

"1°
>
a>

Q0
TO

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

UFTA

27

Civ. Code, § 3439.04, subd. (a)[ (1) ]

27

2
3
4
5
6
7

CASE LAW

8
9
10

Page 6
Pascillas v. HSBC Bank USA 127 Nev. Adv. Op. No. 39 (July 7,

ii
12
13

2011)
Ibanez v. US Bank Massachusetts Supreme Court

14
15
16

Page 8
In Re MERS (9th Cir).

17
18
19

Page 10
Gerber v. Hickman. 291 F.3d 617, 623 (9th Cir. 2002) (en banc).

20
21
22

Page 11
Concrete Pipe and Prods, v. Construction Laborers Pension Trust,

23
24
25

508 U.S. 602, 623 (1993).
Page 12

26
27
28

In wood Laboratories, Inc, v. Ives Laboratories, Inc.. 456 U.S.
844, 855 (1982).

11
>0)

00
^03

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Cooter & Gel! v. Hartmarx Coro. .496 U.S. 384, 400 (1990).

2
3
4

Alexander v. Fulton County. 207 F.3d 1303, 1326 (11th Cir.
2000).

5
6
7

Horton v. Reliance Standard Life Ins. Co.. 141 F.3d 1038, 1040

(11th Cir. 1998).

8
9
10

Media Services Group v. Bav Cities Communications. Inc.. 237

F.3d 1326, 1329 (11th Cir. 2001).

ii
12
13

Page 13
Lucas v. Dep't of Corn, 66 F.3d 245, 248 (9th Cir. 1995)

14
15
16

Flowers v. First Hawaiian Bank. 295 F.3d 966, 976 (9th Cir.
2002)

17
18
19

ChapoeL 232 F.3d at 725-26.
Chodos v. West Publishing Co., 292 F.3d 992, 1003 (9th Cir.

20
21
22

2002).
Gerber v. Hickman, 291 F.3d 617, 623 (9th Cir. 2002) (en banc).

23
24
25

Page 14
AE ex rel. Hernandez, 666 F.3d at 636;

26
27
28

Thinket Ink Info. Res.r Inc, v. Sun Microsystems, Inc., 368 F.3d
ypy

1053, 1061 (9th Cir. 2004).

>CD

bo

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Wriaht v. Incline Village Gen. Improvement Dist., 665 F.3d 1128,

2
3

4

1133 (9th Cir. 2011);
Cogswell v. City of Seattle, 347 F.3d 809, 813 (9th Cir. 2003);

5

6
7

Valeria v. Davis. 307 F.3d 1036, 1038 (9th Cir. 2002).
Watson v. Weeks. 436 F.3d 1152, 1157 (9th Cir. 2006);

8

9
10

Kirtlev v. Rainev. 326 F.3d 1088, 1092 (9th Cir. 2003);

Knox v. Davis. 260 F.3d 1009, 1012 (9th Cir. 2001);

ii
12
13

Zimmerman v. City of Oakland. 255 F.3d 734, 737 (9th Cir.

2001).

14
15
16

Bardzik v. County of Orange, 635 F.3d 1138, 1144 (9th Cir.

2011);

17
18
19

Webb v. Sloan. 330 F.3d 1158, 1163 n.4 (9th Cir. 2003);
Cortez v. Countv of Los Angeles, 294 F.3d 1186, 1188 (9th Cir.

20

21
22

2002).
Page 18

23

24
25

Taxpayers Watchdog, Inc, v. Stanley. 819 F.2d 294, 297-298,
(D.C. Cir., 1987), (per curiam)

26
27
28

Page 19
Sills v. Bureau of Prisons. 761 F.2d 792 (D.C. Cir. 1985).

>at

00

m

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Page 20

2
3

4

Ashcroft v. Iabal. 129 S. Ct. 1937, 1949 (2009)).
United States v. Hooton. 693 F.2d 857, 858 (9th Cir. 1982)

5

6
7

Page 21
Tellabs, Inc, v. Makor Issues & Rights, Ltd., 551 322, 127 S.Ct.

8

9
10

2499, 168 L.Ed.2d 179 (2007)
Page 22

ii
12
13

Freeman v. DirecTV, Inc., 457 F.3d 1001, 1004 (9th Cir. 2006).
Aoveman v. INS. 296 F.3d 871, 876 (9th Cir. 2002),

14
15
16

Stilwell v. Smith & Nephew, Inc.. 482 F.3d 1187, 1193 (9th Cir.
2007);

17
18
19

United States v. Waites. 198 F.3d 1123, 1126 (9th Cir. 2000).
Lawrence v. Deo't of Interior. 525 F.3d 916, 920 (9th Cir.

20

21
22

2008);
Lewis v. United States. 641 F.3d 1.174, 1176 (9th Cir. 2011).

23

24
25

Page 23
Barrientos v. Wells Fargo Bank, N.A.. 633 F.3d 1186, 1188 (9th

26
27
28

Cir. 2011);
Ditto v. McCurdy. 510 F.3d 1070, 1075 (9th Cir. 2007);

><u

DO

co

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Rabkin v. Oregon Health Sciences Univ.. 350 F.3d 967, 971 (9th

2
3
4

Cir. 2003)
Branch Banking & Tr. Co. v. D.M.S.I.. LLC. 871 F.3d 751, 759

5

6
7

(9th Cir. 2017);
Mull for Mull v. Motion Picture Indus. Health Plan, 865 F.3d 1207,

8

9
10

1209 (9th Cir. 2017);
Szaier v. City of Los

Angeles. 632 F.3d 607, 610 (9th Cir.

ii
12
13

2011);
Universal Health Servs.. Inc, v. Thompson. 363 F.3d 1013, 1019

14
15
16

(9th Cir. 2004).
Page 24

17
18

19

Frudden v. Pilling. 877 F.3d 821, 828 (9th Cir. 2017);
Olsen v. Idaho State Bd. of Medicine. 363 F.3d 916, 922 (9th Cir.

20

21
22

2004).[123]
Balint v. Carson Citv. 180 F.3d 1047, 1054 (9th Cir. 1999).

23

24
25

Simo v. Union of Needle trades. 322 F.3d 602, 610 (9th Cir.
2003).

26

/////
27
28

/////

X
<1)
(20
H3

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Page 25

2
3

4

Khoia v. Orexiaen Therapeutics, Inc.. 899 F. 3d 988 (9th Cir.

2018)

5

6
7

Page 26
In re Riael Pharm.. Inc. Sec. Litia.. 697 F.3d 869. 876 (9th Cir.

8

9
10

2012^ ;
Hsu v. Puma Biotechnology. Inc.. 213 F.Supp.3d 1275. 1281-82

ii
12
13

fC.D. Cal. 2016)
Ashcroft v. labal. 556 U.S. 662. 678. 129 S.Ct. 1937. 173

14
15
16

L-.Ed.2d 868 ^2009^)
Bell Atl. Com, v. Twomblv. 550 U.S. 544. 556. 127 S.Ct. 1955.

17
18

19

167 L.Ed.2d 929 f2007^
Page 27

20

21
22

In Re: MERS (Ninth Circuit)
State v. Maberv Ranch Co.. 165 P 3d 211, 277 (Ariz. Ct. App

23

24
25

2007)
Page 28

26
27
28

Bevilacaua v. Rodriguez. 2011 WL 4908845 (Mass 2011)

III/

1b
X<D
d0

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Page 29

2
3
4

Carev v. Piohus. 435 U.S. 247, 259 (1978).
Mathews v. Eldridae. 424 U.S. 319, 344 (1976).

5
6
7

Fuentes v. Shevin. 407 U.S. 67, 81 (1972).
Carev v. Piohus. 435 U.S. 247, 266-67 (1978);

8
9
10

Marshall v. Jerrico, Inc.. 446 U.S. 238, 242 (1980);
Nelson v. Adams. 529 U.S. 460 (2000).

ii
12
13

Daniels v. Williams. 474 U.S. 327 (S.Ct. 1986).
Rochin, supra,

14
15
16

Page 30
Murray's Lessee 332*332 v. Hoboken Land & Improvement Co..

17
18
19

18 How 272, 277 (1856)
Countv of Sacramento v. Lewis Supreme Court

20
21
22

Jones v. Flowers. 547 U.S. 220, 235 (2006).
Wolff v. McDonnell,

418

U.S.

539,

558

(1974),

23
24
25

Fuentes v. Shevin. 407 U.S. 67, 82 (1972)
Daniels v. Williams. 474 U.S., at 331

26
27
28

Delew v. Waoner. 143 F.3d 1219, 1222 (9th Cir. 1998).
Hurtado v. California, 110 U.S. 516, 527 (1884).

V
x

(D
M

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

1

Lewa v. National Default Servicing Inc. Nevada Supreme Court

2
3

4

Bank of Columbia v. Okelv. 4 Wheat. 235—244 [(1819)]
Page 31

5

6
7

Delew v. Waaner. 143 F.3d 1219, 1222 (9th Cir. 1998).
Page 32

8

9
10

Kester v. Citimortaaae. Ninth Circuit Memorandum decision on
Appeal No 16-15774 (2017)

ii
12
13
14
15
16

MISCELLANEOUS PUBLICATIONS
Page 8

17
18

19

Williams & Mary Law Review Volume 53 (2011-12). Issue 1,
Article 4.

20

21
22

Page 21
https://www.lexisnexis.com/lawschool/resources/p/casebrief-

23

24

tellabs-inc-v-makor-issues-riahts-ltd.aspx

25

26
27
28

X<1>
00

APPELLANT'S OPPOSITION TO APPELLEES MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH SECOND MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED
UPON MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455

I.

1

This is case of real estate theft of Appellant's real property

2
3

INTRODUCTION WITH BARE FACTS

worth over one million US dollars, located at 1967 Cherry Creek

4
5
6
7

Circle Las Vegas, NV, perpetrated through mortgage fraud where
A.

Said "loan" was provided by non-existing company,

Appellee PACIFIC COMMUNITY MORTGAGE "PCM", purported to

8
9
10
li

have lent money to the Appellant when Appellee PCM had ceased
to exist for about TEN YEARS BEFORE. Such a contract could never
have existed because non-existing entities cannot enter into

12
13
14
15

contracts. Thus "evidence" presented to Court were merely pieces
of paper. See California Secretary of State Records for Business
Search (Complaint Pg 16; ECF 26.1 herein) (Ex I)

16
ii

74.

12

Business Search online from the California Secretary of State.

13

Entity Name:

14

Entity Number:
Date Filed:

17

The following is a true and correct screenshot of the California

18

19
20

Status:

15

Jurisdiction:
Entity Address:
Entity City, State, Zip:
Agent for Service of
Process:
Agent Address:
Agent City, State, Zip:

21
16
22

17

23

18

24

19

PACIFIC COMMUNITY MORTGAGE
COMPANY
Cl670354
08/02/1990
FTB SUSPENDED
CALIFORNIA
2608 VAN GOGH DRIVE
MODESTO CA 95356
DALE F. MURATORE
2608 VAN GOGH DRIVE
MODESTO CA 95356

I
25

CMa)
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

2oo

As stated by Appellant in Appeal herein. See Statement of

i
2

issues

3

is

4

16

5

17

6
7

IB
19

1.

Did the District Court err or abuse discretion in dismissing

with prejudice Appellant's entire complaint for recovery of
property where illegal transfers were made by parties that lacked
standing to do so when Deed of Trust was void as the Lender

20
8
21

Defendant Pacific Community Mortgage Inc. ("PCM") was a non­

9
22

existing entity?

10
11

And again Pg 11

12

10
13

11

14

12

15

13

16

14

17

15

18

16

19

17
18

20
19
21

Appellant in August 2004 obtained a loan on subject property
- Deed of Trust recorded September OB, 2004 with Defendant
Pacific Community Mortgage Inc. listed as the lender. Unknown to
Plaintiff, Defendant Pacific Community Mortgage Inc. ("PCMI"), a
California Corporation, had ceased to exist in early 1990's prior to
its fraudulent Deed of Trust ("DOT") execution recorded in Nevada
Clark County in 2004. A non-existing entity cannot enter into
contracts. The contract was thus void and no Borrower Lender

20
22
21

relationship was established. The "loan" amounted to an

23
24
25

B.

SEC reported "loan" as paid off in full within few

months of origination. If for one second this Court thinks the

co
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULUN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

<D
OO

i
2
3

Appellee PCM did exist and it did enter into contract with Appellant
and dd transfer the said loan non-existing to SARM Trust where
who ever they were, they "sold" the loan so that is paid off in SEC

4
5

filings within a few months. Pg 11 Appeal herein

6

22

7

23

8

24

9
10

25

anonymous "gift" Yet the loan was assigned by non-existing PCMI
to SARM and fully paid by December 2004 according to SEC
records (Exc III - pg 17 - 21)

(Complaint Pg 9; Exhibit 26.1 herein)

ii

1 almost two months after the loan's inception, In November 2004, not listed
12
13

2 in title.

The SARM Trust has filed documents with the US Securities and

3 Exchange Commission, ("SEC') under penalty of petjury, stating specifically

14
t1

that it paid off Plaintiff's loan in full,

15

Thus non-existing PCM perpetrated further frauds in SEC.

16
17
18

C.

Deed of Trust was rejected by Clark County Recorder

with UNSIGNED subsequent recording

19
20

euvs> K»

21
Gnae#;
22
23

WtflTtttirrxnif*

tLmmavamn mbw

24
AMpw t*u u»tCe* iteefOaibttj
11

25

Q\

»1E© OV TRUST
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

cu
oo

03
Cl

i
2

so that an unsigned "Clarification" was filed instead (Ex II, III)
PIN #: 164-02-218-001
After Recording Return To:
PACIFIC COMMUNITY MORTGAGE INC

3
4

2099 S STATE COLLEGE BLVD 600
ANAHEIM, CA 92806

5

Grantee:
PACIFIC COMMUNITY MORTGAGE INC. A
CALIFORNIA CORPORATION
BtVD 600

6

Mail Tax Statement To:

7

***This copy is being attached for clarification purposes only.***

8
(Space Above This Line For Recording Dotal
XRfljj

9

LQKM *i
HIM-.

10

04080067
100121700040800671

DEED OF TRUST

ii

clarification

12
13
14

BY SIGNING BELOW, Borrower accepts and agrees to the terms tmA amnam contained in dm
Security Instrument m& m any Rider executed fey Stlnmr and recorded with it.
•*

7 SOWWbr

aiaxA g. xaxfi -

date

-

15

*

16

clarification

17
18

Adjflstabtesfte^^ ^EL0W’ B^rfr0WCF a«epts and egrets to the terms and covenants contained inrsMs

19
20

- BORROWER - SALMA B.. KHAN - 1>AT£ -

21

GlARIftCATiOh

22
23

BY SIGNING BELOW. Borrower aeeepls and agrees to the terms and prov isions contained fn this BUD Rider.

24
^BORROWER - SALMA H, KHAN <- BATE 25

"V

LO
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

OJ
BO

i
2

D. Nevada Law requires valid Assignment made BEFORE
CUT-OFF DATE of Trust not after loan is paid off. Brief Pg 40.

3

u

4

12

5

Nevada Supreme Court in Pasillas v. HSBC Bank USA 127

13

Nev, Adv, Op. No, 39 (July 7, 2011) discussed and endorsed the

14

Massachusetts Supreme Judicial Court's ruling in Ibanez v US

6
15
i

Bank: ”We agree with the rationale that valid assignments

16
8
9

17
38

are needed when the beneficiary of a deed of trust seeks to
foreclose on a property.” (emphasis added)

10

Assignment was recorded SIX YEARS AFTER LOAN WAS

ii
12

PAID OFF IN FULL and FIFTEEN YEARS AFTER PCM ceased to exist

13

E.

Appellee MERS was not Registered to do business in

14
15
16

Nevada on said dates that the Appeal Pg 40
5

17

6

18

7

19

6

20

9

21

10

22
23

11

According to Nevada laws Appeflee MERS had to be registered
in Nevada to do business in Nevada. Appellee MERS registered to
do business in Nevada on October 27, 2009 while Appellant's DOT
was recorded on September 08, 2004. MERS Corp was never
registered to do business in Nevada violating NRS 645F.

Surely Nevada Judges knew their own States laws. See next page

24
25

<£>a>
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN’S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

oo

i
2
3

F.

Non-existing Appellee PCM

recorded forged title

documents SIX YEARS AFTER loan was paid off in full within
months of origination. See Appeal Brief Pg 27.

4
5
6

13

Thus since PCMI did not exist and did not have any interests

14

or assets to transfer or assign. The Appellees recorded forged and

IS
7

void Corporate Assignment of Deed of Trust in 2010, 6 years after

16
8
17

purchase of home in 2004 (PCMI now defunct for over 15 years).

9
10
11

The fraud, forged, "Assignment" was recorded by Appellee
MERS as "Nominee" for Appellee PCM that had ceased to exist

12

FIFTEEN YEARS EARLIER. See on next page
13
14
15

MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC. AS NOMINEE FOR
PACIFIC COMMUNITY MORTGAGE, INC,, A CALIFORNIA CORPORATION ITS
SUCCESSORS AND ASSIGNS
On April 19th. 2010

16
17
18

B:
THEODORE SCHULTZ, Vice-President

19
20
21
22
23
24

STATE OF Nebraska
COUNTY OF Scotts Bluff
On April 1901,20t 0, before me, LINDA D. PARKS* a Notary Public In and for Scotia Bluff In the
State of Nebraska, personally appeared THEODORE SCHULTZ, Vice-President, personally
known to me (or proved to me m the basis ofsatisfactory evidence) to be the porson(s) whoso
name(s) Is/are subscribed to the within instrument and acknowledged to me that he/she/they
executed the same in his/her/thcb authorized capacity, and that by his/her/their signature on the
instrument die pcrson(s), or the entity upon behalf ofwhich die pcisan(s) acted, executed the
instrument.

25

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CD
QO

The above "Assignment" of non-existing Deed of Trust

i
2
3

recorded six years after "loan" origination; six years after loan
was paid off in full; and FIFTEEN YEARS AFTER PCM ceased to

4
5

exist.
The forged recording was signed by Appellee Schultz was

6
7

stated to be Vice President of MERS, when he was not even a

8

9
10
11

MERS employee as MERS does not have any employees - a well
established fact in legally. See Williams & Marv Law Review
Volume 53 (2011-12). Issue 1, Article 4. In Re MERS (9th Cir).

12
13
14
15
16

G.

Appellee Schultz is a well recognized Robo-signer. See

sample signatures of this "MERS VP" (ECF 41 Pg 30-31)
TO

ra HOLD mm Itatpt* IM* mtS mo ta MC ptftt mm IS* wmt tomrm tow.
mmm*t toMKMpivapanitfcit

MONTOAOB IMtCWOHC HOHrmMIO* ITI1WIMC.
OMkUUB
' < *-v

r «

17
18
19

!

. <

MOtTUM.* tlFCTMJNIC HhCtiTHAHON RYNTTVS. INC. At NOMNEE 1X1*11WST
MAOWIS HN.NMn**-fO*fOWATlCH, AN AHVOKA CQWOTAttQKITS MLCtS*** AND
ASSIGNS

20

21

' $TOFforeclojureftoud ton

-.■I

4U.O-

*r imJj

Titr

ins saxOILT*, vies

nunintsT

22
23

24
25

WCNTtac* 5ieCTO5MC«*0«WADe*l SWMWI. rtC-ASMOMMS »fl ttMWCUSftMWOM.
COR*WTrWfTB8ueCtS*3MVCIAS9ltH*
OamrumytlUMIB

THEaoaflE afHULtl'. VCC VwEBDSNT***»*.

9^

STOPForeclosureFraud^
AURORA LOAN SERVICES LUC

ana

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

00a>

oo
m

1
2
3

**

* ♦

■3f CORPORATE^
HATS
*

ft

6

THEODORE **THEOw SCHULTZ CORPORATE BANK TITLES
Fcmrt oaJO Otfote 20!’0, T?|>: imiflimwt af(teed ofn»t,

ofnunnate. aiiiwalwnswridii^

firMjnsliOTilM; ofarizMa. imdiwM'flinJ. toHrimMlianV.. khmari tafias, MT.RR MOITOAGE

ft*3a*s«aS»6as. __ _ ELECTRONIC RIG15TRATIQX SYSTD1S IKC.. rations hccif fading. Nttofca. nicaacfe fcviatiil who

<F} I—- sfencr. safcfectkm ofmoitena. seeeis bluff, thco stmttz. tlicodoft slate, dee president

4
5

Talcgowd j STOP FQRECLQSl'REJEEAIIB ________________

H.

Appellee "Theo" Schultz is also VP of many other

corporations including Appellee Aurora.

7
8

9
10
11
12
13

Mf« Seihnlll Mill Mi SlilOiS
InaeoBniyitwymi.
Vic* Pmidtat of:

Bills. Time

Oxuiaerrta (iff pail «rii«iBM iKflHJ 149(1 feiliy

MORTGAGE ELECTROMC REGISTRATION SYSTEMS INC,.
Awora Loan Servicing.
Hciiseboldliank
DfchiouOiie Mongpgf Corapan?.
Nations Heoie Finding.
nmHMoiyRnii ofAoHma,
Pimmde Fittmtcbl
First M*p» Fioandal
LetmwnBwftws

THEODORE "THEO" SCHULTZ

14

I.

15

Schultz in issuing, signing and recording of forged title

Appellee Trisha McMullin partnered with Appellee

16

documents on Plaintiffs property including Trustee Deed upon
17
18

Sale

during

Plaintiff's

Bankruptcy

after

recording

a

fraud

19

Certificate stating Appellant had waived foreclosure mediation.

20

Can any reasonable person believe that Appellant will waive good21
22
23

bye to her home with $500,000.00 in equity just as she was filing
Bankruptcy?

24

Appellee's Linkedin Profile states she worked for Aurora Bank
25

FSB for 8 years and 4 months but does not state her connection
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

V)

cr>
QJ

OD

w

i
2
3

with Appellee Quality Loan et. al. whose umbrella she was hiding
under while stealing Appellant's home.

J.

Appellee's perpetrated Bankruptcy Fraud, Fraud Upon

4
5
6
7

the Court and Perjury in Appellant's Bankruptcy by not
becoming a Creditor and failing to file a Claim yet asking for relief
by submitting forged title documents including an unsigned Deed

8
9
10
11

of Trust for "loan" extended by non-existing Appellee PCM.
K.

Appellee-Defendant attorneys did not even attach a

declaration to their filings knowing they were committing

12
13

fraud and perjury.
Defendant-Appellee's attorneys failed to file declarations as

14
15

to the true nature of what they were filings.

16
17
18

L.

Lower Court prevented Appellant from amending her

complaint to add Defendants.

19

The court's denial of leave to amend the complaint to add
20
21
22

additional civil rights claims is reviewed for an abuse of discretion.
See Gerber v. Hickman. 291 F.3d 617, 623 (9th Cir. 2002) (en

23

banc).
24
25

The above facts are bare bone of the reality. Any reasonable

9^

o

person can see how the Appellees had an enterprise to steal
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

T—I

a;
U)
ro

Cl.

i
2
3

innocent citizens properties colluding with Judges, when it is clear
that none of these Appellees had any legal claim on Appellant's
home, over one million dollar property stolen by them.

4

Surely lower Court and now the Ninth Circuit Judges can see

5
6
7

these criminal acts and refer them for investigation by ordering
discovery at the very least. It is incredible this Court did not come

8
9

to this conclusion within days of this Appeal being field?
How is this Court not recursed itself when two motions for

10
11

their recusal were fled by Appellant and despite three Ninth Circuit

12
13
14
15

Judges defending their actions in related Nevada District case, Bk.
Adv. 19-01074. Perhaps Kamala Harris is needed in White House
for Ninth Circuit Judges to open their eyes.

16
17
18

II. THE STANDARDS OF REVIEW

19

This court reviews District Court under various standards.
20
21
22

A.

Clearly Erroneous: "Review under the clearly erroneous

standard is significantly deferential." Concrete Pipe and Prods, v.

23

Construction Laborers Pension Trust 508 U.S. 602, 623 (1993).
24
25

The appellate court must accept the trial court's findings unless

2*
n

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

QO
J

CL

i
2
3

it's left with the "definite and firm conviction that a mistake has
been committed." Inwood Laboratories. Inc, v. Ives Laboratories,

Inc.. 456 U.S. 844, 855 (1982).

4
5
6
7

B. Abuse of Discretion: Under this standard, an appellate court
will "uphold any district court determination that falls within a
permissible range of permissible conclusions." Cooter & Gell v.

8
9
10
11

Hartmarx Com. .496 U.S. 384, 400 (1990). Under this standard,
the court of appeals must affirm unless it determines that "the
district court has made a clear error of judgment, or has applied

12
13
14

an incorrect legal standard." Alexander v. Fulton County, 207 F.3d

1303, 1326 (11th Cir. 2000).

15

The important distinction between review of factual issues

16
17

and review of legal issues is applicable here.
Conclusions of law receive de novo review. Horton v. Reliance

18
19

Standard Life Ins. Co.. 141 F.3d 1038, 1040 (11th Cir. 1998).
20
21
22

Findings of fact are upheld unless clearly erroneous. Media
Services Group v. Bav Cities Communications. Inc.. 237 F.3d

23

1326, 1329 (11th Cir. 2001).
24
25

/////
CM
*—I
O)

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

ao

i
2
3

C.

Denial of Leave to Amend to a Pro Se Litigant: Dismissal

of a pro se complaint without leave to amend is proper only if it is
clear that deficiencies of complaint could not be cured by

4
5
6
7

amendment. Lucas v. Dep't of Corn, 66 F.3d 245, 248 (9th Cir.
1995); see also Flowers v. First Hawaiian Bank. 295 F.3d 966, 976
(9th Cir. 2002) (noting that court is cautious in approving a district

8
9
10
11

court's decision to deny pro se litigant leave to amend).
"A district court acts within its discretion to deny leave to
amend when amendment would be futile, when it would cause

12
13
14
15

undue prejudice to the defendant, or when it is sought in bad
faith." Chappei. 232 F.3d at 725-26. The discretion is particularly
broad where a Plaintiff-Appellant has previously been permitted

16
17
18

leave to amend.

See Chodos v. West Publishing Co., 292 F.3d

992, 1003 (9th Cir. 2002).

19

The court's denial of leave to amend the complaint to add
20
21
22

additional civil rights claims is reviewed for an abuse of discretion.
See Gerber v. Hickman, 291 F.3d 617, 623 (9th Cir. 2002) (en

23

banc).
F{0

24
25

Dismissal of a complaint without leave to amend is improper
m
unless it is clear, upon de novo review that the complaint could
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

cu

DO
TO

i
2
3

not be saved by any amendment. See AE ex ret. Hernandez, 666
F.3d at 636; Thinket Ink Info. Res., Inc, v. Sun Microsystems, Inc.,
368 F.3d 1053, 1061 (9th Cir. 2004).

4
5
6
7

D. Constitutionality: A district court's determinations on mixed
questions of law and fact that implicate constitutional rights are
reviewed

de

novo.

See

Wright v.

Incline

Village

Gen.

8
9
10
li

Improvement Dist.. 665 F.3d 1128, 1133 (9th Cir. 2011);
Cooswell v. City of Seattle, 347 F.3d 809, 813 (9th Cir. 2003);
Valeria v. Davis. 307 F.3d 1036, 1038 (9th Cir. 2002).

12
13
14

E: Dismissal of §1983 Claims: A court's decision to dismiss a §
1983 action pursuant to Rule 12(b)(6) is reviewed de novo. See

15

Watson v. Weeks. 436 F.3d 1152, 1157 (9th Cir. 2006); Kirtlev v.
16
17
18

Rainev, 326 F.3d 1088, 1092 (9th Cir. 2003); Knox v. Davis, 260
F.3d 1009, 1012 (9th Cir. 2001); Zimmerman v. City of Oakland,

19

255 F.3d 734, 737 (9th Cir. 2001).
20
21
22

23

The court's decision whether a party is immune from a § 1983
action is reviewed de novo. See Bardzik v. County of Orange. 635

F.3d 1138, 1144 (9th Cir. 2011); Webb v. Sloan. 330 F.3d 1158,

24
25

1163 n.4 (9th Cir. 2003); Cortez v. County of Los Angeles, 294
F.3d 1186, 1188 (9th Cir. 2002).
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

a>
60
ns

Appellant seeks a full review under all the above standards.

i
2
3

III. ARGUMENT

4
5
6
7

A. A CONTRACT REQUIRES TWO IDENTIFIABLE PARTIES TO
BE

VALID:

A

NON-EXISTING

ENTITY

CANNOT

SIGN

CONTRACTS THUS DEED OF TRUST IS VOID ABINITIO

8
9
10
11

Non-existent Appellee-Defendant PCM cannot enter into
contracts, sign documents, lend money, have assets, transfer
assets it cannot have, or have beneficiaries, etc. Appellee-

12
13
14
15

Defendant PCM had ceased to exist in California, its state of
origination about ten years prior to their contracting with Appellant
thus the unsigned Deed of Trust.

16
17
18

Thus if Appellee-Defendant dd not exist at the time of its
signing the fraudulent "loan" contract then surely it could not have

19

existed to "Assign" it to anyone six years later.
20
21
22

Since Appellee-Defendant PCM never existed it could never
be registered in Nevada. Therefore they had no interest, no

23

assignees to assign anything to or anything that could be sold. If
24
25

C\^

this court finds to the contrary, then any interest was sold into
SARM Trust is reported as paid off in SEC filings (ECF # 26.1).
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

LO
*—I
cu

00

1
2
3

B.

ALL RECORDINGS ON APPELLANT'S HOME BEGINING

SIX YEARS AFTER LOAN WAS FULLY PAID OFF ARE VOID.
All recording on Appellant's home beginning 2010, SIX YEARS

4

5

6
7

AFTER LOAN WAS PAID OFF in 2004 are void. These include:
a. Notice of Breach and Default and Election to Sell recorded as
Instrument No. 201001130003207 on January 13, 2010;

8

9

ofTrusT Breach ond Defau,t and of Election to Cause Sale of Real Properly Under Deed

10
11
12
13
14

8

CALIFORNIA CORPORATION,'3M<3|!S^mINf "h*
oi°°CLARK<Coun^1 Nevadase^’
*** °f*al Recofrfs in the Office of the Reorder
oririna, Sn
SSe*^?***.! N?TFLS> TOR the

15

When unsigned "Clarification" of Deed of Trust reads (Ex II, III)

16

(B) “Borrower” is

SALMA H. KHAN, AN UNMARRIED WOMAN

17
18
19

. Borrower is the trustor under this Security Instrument.
(C) “MERS” is Mortgage Electronic Registration Systems, Inc. MERS is a separate corporation that is acting
solely as a nominee for Lender and Lender’s successors and assigns. MERS is the mortgagee under this
Security Instrument. MERS is organized and existing under the laws of Delaware, and has an address and
telephone number of P. O. Box 2026, Flint, MI 48501-2026, tel. (888) 679-MERS.
(D) “Lender” is PACIFIC COMMUNITY MORTGAGE, INC.,A CALIFORNIA CORPORATION

20

21
22

Lender is a CORPORATION
CALIFORNIA
. Lender's address is
600, ANAHEIM, CA 92806
Lender is the beneficiary under this Security Instrument.
(E) “Trustee” is FIDELITY NATIONAL TITLE

■ organized and existing under the laws of
2099 S.

STATE COLLEGE BLVD.

#

23

24

***Thl.» copy in bsias cttachnd for clarltleation purpoweO only.
jSpace Abo-Vc THis Line For Record

O

4>arai

25

OtOeOOfi7
*. DO 3.21T DO o 410•&CHKT X

DEED OF TRUST
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

X—I
OJ
QO
to
Cl.

i
2
3

b. An Assignment of the Pacific Deed of Trust to Aurora Loan
Services was recorded as Instrument No. 201005040000897 on
May 4, 2010; SIX YEARS too late Robo-signed Mary Jane Same

4
5
6
7

c. Certificate
Appellant

Re:

Foreclosure Mediation fraudulently stating

had

waived

mediation.

Instrument

No.

201005040000642 on May 04, 2010.

8
9

d. Appellee MERS "corporate Assignment of Deed of Trust"

10

Instrument No. 201005040000897 on May 04, 2010. Robo-

li

signed by Appellee Theodore Schultz.

12
13
14
15

e. Notice of Trustee's Sale under Pacific Deed of Trust recorded as
Instrument No. 201005140000152 on May 14, 2010. Robosigned by Ronald Alonzo.

16
17
18

f. Trustees

Deed

Upon

Sale

recorded

as

Instrument

No.

201009130001756 on September 13, 2010. robo-signed by

19

Appellee Bee Wang.
20
21
22

All above fraudulent recordings should have been cancelled
instruments. The Appellee-Defendants know this fact along with

23

lower Court Judges and Ninth Circuit Judges.
24
25

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

a)
OD
m

1
2
3

C.

APPELLEE-DEFENDANTS DID NOT MEET THE HEAVY

BURDEN FOR THE DISTRICT COURT TO GRANT THEM
SUMMARY JUDGMENT

4
5
6
7

On a motion for summary disposition, the standard is not
whether appellant is wrong or right on the issues, it is whether
plaintiff's arguments are so insubstantial or frivolous so that

8
9
10
11

plaintiff should be denied his due process right to appeal and to
brief the merits of his arguments and have them heard and
decided by a merits panel. In Taxpayers Watchdog. Inc. v.

12
13
14
15

Stanley. 819 F.2d 294, 297-298, (D.C. Cir., 1987), the D.C. Circuit
addressed the standard for summary disposition and stated in
relevant part as follows:

16
17
18

"A party seeking summary disposition bears the heavy burden of
establishing that the merits of his case are so clear that expedited

19

action is justified." Taxpayers Watchdog. Inc, v. Stanley. 819 F.2d
20
21
22

294, 297 (D.C. Cir. 1987) (per curiam).
Before summarily affirming a district court's ruling, "this

23

court must conclude that no benefit will be gained from further
24
25

briefing and argument of the issues presented." Id. at 297-98.
00
T—I
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULUN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

aj
00
to

Q.

i
2
3

Because the appellant's right to proceed is "so clear/' the merits
of the case must be "given the fullest consideration necessary to
a just determination." Sills v. Bureau of Prisons. 761 F.2d 792

4
5
6
7

(D.C. Cir. 1985).
A non-existing company cannot enter into contracts, have
assets, transfer those assets or have beneficiaries. Furthermore

8
9
10
11

once a loan is paid off, there is no mortgage nor can there be any
foreclosure. Appellees cannot have it both ways.
Appellant has alleged very serious wrongs, including the use,

12
13
14
15

filing and recording of fraudulent documents in a courts of law,
and in Clark County Nevada Recorder's office. The law as to
pleading requires the lower court to accept these allegations as

16
17
18

true, allow discovery and let the case move forward instead of
dismissing it outright even refusing to allow Plaintiff to add

19

defendants.
20
21
22

In ruling on a motion to dismiss (summary judgment is so
treated) the court must accept the non- moving party's allegations

23

as true and usually may not consider extrinsic evidence. Flowever,
24
25

any party may request that the court take judicial notice of certain

cr>
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CD
00
TO
cl

i
2
3

facts not set out in the pleadings. To survive a motion to dismiss,
a complaint must contain sufficient facts to state a claim to relief
that is plausible on its face (see Ashcroft v. Iqbal. 129 S. Ct. 1937,

4
5
6
7

1949 (2009)).
Appellant plead this fraud in detail. She was only required to
set forth a plain and simple statement.

8
9
10
11
12
13
14
15

Rule 8. General Rules of Pleading
(a) Claim for Relief. A pleading that states a claim for relief
must contain:
(1) a short and plain statement of the grounds for the court's
jurisdiction, unless the court already has jurisdiction and the
claim needs no new jurisdictional support;
(2) a short and plain statement of the claim showing that
the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include relief
in the alternative or different types of relief.

16
17
18

Also Summary affirmance is inappropriate at this stage of the
appeal. In this Circuit, motions to affirm are granted "only where

19

it is manifest that the questions on which the decision of the cause
20
21
22

depends are so unsubstantial as not to need further argument."
United States v. Hooton. 693 F.2d 857, 858 (9th Cir. 1982).

23

What is indeed appropriate is to cancel all fraud instruments
24
25

recorded against Appellant's home, immediately return Appellant's

o
rsi
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ* AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

<u
oo

03
Q_

i
2

home to her and continue the case for damages against Appellees
allowing discovery prohibited in lower court.

3
4
5
6
7

IV. DE NOVO STANDARD REVIEW IS MANDATED
The United States Supreme Court stated in Tellabs, Inc, v.
Makor Issues & Rights. Ltd.. 551 322, 127 S.Ct. 2499, 168 L.Ed.2d

8
9
10
11

179 (2007) that, in assessing securities fraud claims, "courts must
consider the complaint in its entirety, as well as other sources
courts ordinarily examine when ruling on Rule 12(b)(6) motions

12
13
14
15

to dismiss,

in

particular, documents incorporated

into the

complaint by reference, and matters of which a court may take
judicial notice."

ii

16
17
18

httPs://www.lexisnexis.com/lawschool/resources/p/casebrieftellabs-inc-v-makor-issues-riahts-ltd.aspx

19

Part of this appeal is the district court's grant of summary
20
21
22

judgment by treating the motions to dismiss as such disallowing
discovery and without a single hearing when fraud was the first

23

cause of action. Also the allegations specifically stated in the
24
25

complaint that the Lender did not exist in California, its state or
CM
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CL)
QO

m

i
2
3

origination, for over ten years before "contracting" with Appellant
to sign the Deed of Trust and never existed in Nevada (appellee
Doc # 26-1 Ex I, J). Yet this lender, Appellee-Defendant PCM

4
5
6
7

transferred its signed Deed of Trust to SARM Trust. The SEC filings
show loan as paid off. Is this not a Securities Fraud? (See Pg 8 9 of Complaint - Appellees Doc # 26, Ex 1 Pg 12 - 13)

8
9

i
2

10
3
11

almost two months after the loan's inception, in November 2004, not listed
The SARM Trust has filed documents with the US Securities and
In title.
Exchange Commission, ("SEC) under penalty of perjury, stating specifically
that It paid off Plaintiff's loan in full.

12
13
14

The appellate court must consider the matter anew, as if no
decision previously had been rendered. See Freeman v. DirecTV,

15

Inc.. 457 F.3d

1001,

1004 (9th Cir. 2006).

Review

is

16
17
18

"independent," see Aaveman v. INS. 296 F.3d 871, 876 (9th Cir.
2002), or "plenary," see Stilwell v. Smith & Nephew. Inc.. 482

19

F.3d 1187, 1193 (9th Cir. 2007); United States v. Waites. 198
20
21
22

F.3d 1123, 1126 (9th Cir. 2000).
De novo review means that this court views the case from

23

the same position as the district court.

Lawrence v. Dep't of

24
25

Interior. 525 F.3d 916, 920 (9th Cir. 2008); see also Lewis v.

<\\

C\l

United States. 641 F.3d 1174, 1176 (9th Cir. 2011).
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

r\Jcu

oD
to

i
2
3

No deference is given to the district court. See Barrientos v.
Wells Fargo Bank. N.A.. 633 F.3d 1186, 1188 (9th Cir. 2011); Ditto

v. McCurdy. 510 F.3d 1070, 1075 (9th Cir. 2007); Rabkin v.

4
5
6
7

Oregon Health Sciences Univ., 350 F.3d 967, 971 (9th Cir. 2003)
"When de novo review is compelled, no form of
appellate deference is acceptable."

8
9
10
11

De novo review is well settled as it applies to Summary
Judgment. A district court's decision to grant partially grant or
deny summary judgment or a summary adjudication motion is

12
13
14
15

reviewed de novo.

Branch Banking & Tr. Co. v. D.M.S.I., LLC.

871 F.3d 751, 759 (9th Cir. 2017); Mull for Mull v. Motion Picture
Indus. Health Plan. 865 F.3d 1207, 1209 (9th Cir. 2017); Szaier

16
17
18

v. City of Los

Angeles, 632 F.3d 607, 610 (9th Cir. 2011);

Universal Health Servs.. Inc, v. Thompson, 363 F.3d 1013, 1019

19

(9th Cir. 2004).
20
21
22

On review, the appellate court must determine, viewing the
evidence in the light most favorable to the nonmoving party,

23

whether there are any genuine issues of material fact and whether
24
25

\°

JZ>

the district court correctly applied the relevant substantive law.

00
rsj
a>

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

QO

m

i
2
3

Frudden v. Pilling, 877 F.3d 821, 828 (9th Cir. 2017); Olsen v.
Idaho State Bd. of Medicine. 363 F.3d 916, 922 (9th Cir.

2004).[123]

4
5
6
7

The court must not weigh the evidence or determine the truth
of the matter but only determine whether there is a genuine issue
for trial.

Balint v. Carson Citv. 180 F.3d 1047, 1054 (9th Cir.

8
9
10
11

1999). Summary judgment is not proper if material factual issues
exist for trial.

Simo v. Union of Needle trades. 322 F.3d 602, 610

(9th Cir. 2003).

12
13
14
15

Appellant-Plaintiff had alleged all elements of mortgage fraud
with specificity in the complaint including
1. Non-existing Lender could not enter into contracts so that

16
17
18

Deed of Trust was void and unenforceable
2. Loan was immediately transferred to SARM Trust and paid off

19

so how can any one try and collect the "loan" or foreclose?
20
21
22

3. Appellee-Defendants perpetrated Bankruptcy fraud obtaining
relief by presenting forged title documents

23

4. Appellant's home was an asset without loan as not on
24
25

V

Appellee had filed a claim in Bankruptcy
CM

<L>

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

DO
03
CL

i
2
3

5. Appellee-Defendants had recorded forged robo-signed on
Appellant's home
6. Each robo-signer was identified with specificity

4
5
6
7

7. Appellee-Defendants were not registered to do business in
Nevada on specific dates as required by Nevada laws
8. Appellee-Defendants lack of standing

8
9
10

9. Appellant-Plaintiff's standing to challenge the "foreclosure"
staged to steal her home

11

10.

Bank Fraud, Wire Fraud, TILA, Respa violations

11.

Distinct palpable injury suffered by Appellant-Plaintiff

12
13
14
15

because of these Defendants actions that pushed her into
Bankruptcy.

16
17.
18

12.

Injury is continuing and damages accruing on daily

basis.

19
20
21
22

V. NINTH CIRCUIT STANDARDS FOR CASES ALLEGING SEC
FRAUD WERE NOT FOLLOWED BY DISTRICT COURT

23

In Khoia v. Orexiaen Therapeutics, Inc.. 899 F. 3d 988 (9th
24
25

\O

Cir. 2018) this court expressed its concern for exactly what
LO
CM
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

0>
DO
nj
Q_

i
2
3

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

happened here to Plaintiff - dismissal of case without discovery,
without leave to amend complaint and without a single hearing.
"Yet the unscrupulous use of extrinsic documents to resolve
competing theories against the complaint risks premature
dismissals of plausible claims that may turn out to be valid
after discovery. This risk is especially significant in SEC fraud
matters, where there is already a heightened pleading
standard, and the defendants possess materials to which the
plaintiffs do not yet have access. In re Riael Pharm., Inc. Sec.
Litio.. 697 F.3d 869. 876 (9th Cir. 2012^ ; Hsu v. Puma
Biotechnology, Inc., 213 F.Supp.3d 1275. 1281-82 (C.D. Cal.
2016^ These
cases
describe
"practical
reality"
of
"inappropriate efforts by defendants" in SEC matters to
"expand courts' consideration of extrinsic evidence at the
motion to dismiss stage," which is "particularly troubling in
the common situation of asymmetry, where a defendant
starts off with sole possession of the information about the
alleged wrongdoing" . If defendants are permitted to present
their own version of the facts at the pleading stage and district
courts accept those facts as uncontroverted and true it
becomes near impossible for even the most aggrieved plaintiff
to demonstrate a sufficiently "plausible" claim for
relief. Ashcroft v. Igbal. 556 U.S. 662. 678, 129 S.Ct. 1937.
173 L.Ed.2d 868 (2009^) (citing Bell Atl. Coro,
y.
Twomblv. 550 U.S. 544. 556. 127 S.Ct. 1955. 167 L.Ed.2d

929 (2007^"

22
23

There were genuine issues of fact for trial so that Appellant's

24

stolen property by Appellee-Defendants got returned to her.

\°

7

25

CM
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

<1>
U0

CD
Q_

i
2
3

Appellees took advantage of Appellee-Defendant PCM's nonexisting status and its transference of loan into SARM Trust so that
the ghost loan was paid off almost immediately. It is this SEC

4
5
6
7

Fraud that brought our country into 2008 mortgage crises. But
instead of exposing these criminals the District Court awarded
them.

8
9
10
li

VI. CLOUD ON TITLE PRECLUDED TRANSFERS/SALES ETC.

UNIFORM FRAUDULENT TRANSFER ACT ("UFTA")

12
13
14

Under the Uniform Fraudulent Transfer Act ("UFTA"), a
transfer is fraudulent, both as to present and future creditors, if

15

itis made 'with actual intent to hinder, delay, or defraud any
16
17
18

creditor of the debtor/ (Civ. Code, § 3439.04, subd. (a)[ (1) ].)
Where the Statute of Limitations is seven years.

19

Foreclosed September 2012, Complaint filed May 2016. This
20
21
22

is well within the limitation period not taking into account

her

Bankruptcy which would toll the statutes till 2017. But also

23

according to the Ninth Circuit statement in In Re: MERS
X

24
25

"a continuous wrong is not subject to statute of
limitation as long as the cloud to title remains. State v.
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

\°

Csl(LI

DO
CQ

i

Maberv Ranch Co.. 165 P 3d 211, 277 (Ariz. Ct. App 2007)".
(emphasis added).

2
3

In Bevilacqua v. Rodriguez. 2011 WL 4908845 (Mass 2011)

4
5
6
7

"A lender who does not follow proper procedures to
foreclose cannot pass good title to a subsequent
purchaser" (emphasis added).
In case herein foreclosing Appellee Aurora was not the

8

"Lender". The "Lender" was a non-existent company that could not
9
10
11

enter into contracts so that the DOT was void and unenforceable.
Also all transfers were made SIX YEARS AFTER LOAN WAS PAID

12

OFF IN FULL All ignored by lower Court violating Plaintiffs civil
13
14

rights and denying her due process, equal protection.

15
16

VII. APPELLANT WAS DENIED HER CONTSTITUTIONAL
17
18
19

RIGHT OF DUE PROCESS BY THE LOWER COURT
The District Court's failure to allow discovery, allow amending

20

of complaint or hold a hearing is contrary to US Supreme Court
21
22
23

rulings on due process.
"Procedural due process rules are meant to protect persons

24

s'
\

not from the deprivation, but from the mistaken or unjustified
25

00
CM
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

QJ
DO
CD
Q.

i
2
3

deprivation of life, liberty, or property." Carev v. Piohus. 435 U.S.

247, 259 (1978).
"Procedural due process rules are shaped by the risk of error

4
5
6
7

inherent in the truth-finding process as applied to the generality
of cases." Mathews v. Eldridae. 424 U.S. 319, 344 (1976). Thus,
the required elements of due process are those that "minimize

8
9
10
11

substantively unfair or mistaken deprivations" by enabling persons
to contest the basis upon which a state proposes to deprive them
of protected interests. Fuentes v. Shevin. 407 U.S. 67, 81 (1972).

12
13
14
15

The U S Supreme Court has also stressed the dignitary
importance of procedural rights, the worth of being able to defend
one's interests even if one cannot change the result. Carev v.

16
17
18

Piohus. 435 U.S. 247, 266-67 (1978); Marshall v. Jerrico, Inc..
446 U.S. 238, 242 (1980); Nelson v. Adams. 529 U.S. 460 (2000).

19

Supreme Court in Daniels v. Williams. 474 U.S. 327 (S.Ct. 1986).
20
21
22
23
24
25

"By requiring the government to follow appropriate
procedures when its agents decide to "deprive any person of
life, liberty, or property," Due Process Clause promotes
fairness in such decisions. And by barring certain government
actions regardless of the fairness of the procedures used to
implement them, e. g.f Rochin. supra, it serves to prevent
governmental power from being "used for purposes of
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

.o'0

CT>
CMa>

do

TO

i

oppression," Murray's Lessee 332*332 v. Hoboken Land &
Improvement Co.. 18 How 272, 277 (1856)

2
3
4
5
6
7
8

In County of Sacramento v. Lewis Supreme Court stated
"The principal and true meaning of the phrase has never been
more tersely or accurately stated than by Mr. Justice Johnson,
in Bank of Columbia v. Okelv, 4 Wheat. 235—244 [(1819)]:
'....... that they were intended to secure the individual from the
arbitrary exercise of the powers of government, unrestrained
by the established principles of private right and distributive
justice/ " Hurtado v. California, 110 U.S. 516, 527 (1884).

9

10
11
12
13
14
15
16
17
18

We have emphasized time and again that "the touchstone of
due process is protection of the individual against arbitrary
action of government." Wolff v. McDonnell, 418 U.S. 539, 558
(1974), whether the fault lies in a denial of fundamental
procedural fairness, see, e.g., Fuentes v. Shevin. 407 U.S. 67,
82 (1972) (the procedural due process guarantee protects
against "arbitrary takings"), or in the exercise of power without
any reasonable justification in the service of a legitimate
governmental objective, see, e.g., Daniels v. Williams. 474
U.S., at 331 (the substantive due process guarantee protects
against government power arbitrarily and oppressively
exercised)."

19
20

"Some form of hearing is required before an individual is finally
21
22
23

deprived of a property interest." Jones v. Flowers. 547 U.S. 220,
235 (2006).

24

The "right to a tribunal free of bias and prejudice" when Ninth

\°1

25

Circuit has stated "The right of access to the courts is a
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

o
OO

cu

QO
(O
Q_

i
2

fundamental right protected by the Constitution." Delew v.
Wagner, 143 F.3d 1219, 1222 (9th Cir. 1998).

3

All were ignored by the District Court that dismissed the case

4
5
6
7

knowing that the Deed of Trust upon which all Defendants were
basing their claims was invalid as the "Lender" did not exist any
where for about ten years rendering that document meaningless,

8
9
10

void and unenforceable. Also the "Original" recording was rejected
by Recorders Office and unsigned copy was then recorded.

11

IOTP ®PO

Man fit
12

n-.

13
Lm Kcw kutrMut (uuj

S?*' fasts

14
15

DIED Of TRUST

16

Unsigned "Clarification" missing even Notary signature and seal.
17

CLARIFICATION

18
19
20
21

..n
,
BELOW, Borrower accepts and agrees to the trams and covenants contained in this
Adjustable Rate Rider.

- BORROWER - SALMA H. KHAN - DATE--

22

CLARIFICATION

23
24

BY SIGNING BELOW, Borrower accepts and agrees to the terms and covenants contained in this
Security Instrument and in any Rider executed by Borrower and recorded with it.

oSr
\

25

» SOUfOTER - SXUHUK B, RBXH - OWE -

m
aj

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

oo

to
Q.

[Space Below This Line For Aek.t>ovvkti;;ia<mtl
1

STATE OF KEVADA
COUNIT OF CLARK

2

This instrumesii was acknowledged before me on

3

4
NoSflTy Public

5
6
1

TMe (and Rank)
OiEVABA-S»cSe FB3fl^F»iirtk,vjst.'Fr(sM!(*M»t UKIFODM INSTRUMENT
atmihau
(Po&iStflipo&Mf

Fans jn» *jW

eS33£7wix

8

CLARIFICATION

9
10
11

BY SIGNING BELOW, Sorrower accepts and agrees to ihc icrms and preuisicmeGmaSIt thisPUD Rider.

■* HOHROkfER - -SALMA H .■ fQiA}?"-""mK""'-

12
13
14
15

OLAfiiRGATfON

eeoewl?
1 f Lendcricxcrcises this opdffii, Lender shall give Borrower nonce of acceleration. Tlie itoifee
provide
e penod of not less than 30 days from the date the notice is given in accordance with Section IS within winch
Betrower must (ray all sms secured by this Security Jnstmuiein, If Boitower Mis to pay these mnttS prior to the
expifMlets «f Ms period, Render may invoke any remedies permitted by this Security InsiruracsB without farther
notice ardemand on Borrower,

16
17
18

BY SIGHING BELOW, Borrower accepts and agrees to file terms arid covenants contained in this
addendum,
- BORROWER - SAIKA II. KHAN - BAYS -

19

(Ex II, II). Surely acceptance of unsigned DOT is illegal.
20

21
22

VIII. CONCLUSION

23

In Kester v.

Citimortaaae.

Ninth Circuit Memorandum

24
25

decision on Appeal No 16-15774 (2017) stated

\°

A
CM
CO

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

01
OD
TO

i
2
3

"The plaintiff must have (1) suffered an injury in fact, (2) that
is fairly traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable judicial
decision."

4
5

Appellant has been suffering distinct palpable injury since

6

2004 caused by Appellee Aurora et. al. fraudulently becoming self
7
8
9

proclaimed lien holder knowing no valid Deed of Trust existed as
"LENDER" did not exist. Yet Appellees collected over $5,000.00

10

per month as mortgage, forcing Appellant into Bankruptcy than
ii
12
13

enrolling Appellant in during Bankruptcy for a loan they never had
to foreclose with pending loan modification.

14

Appellees recorded forged title documents signed by robo15
16
17

signers to sell Appellant's home to illegitimate "buyers" Appellees
McNeill's and Flaharty's who surely did their due diligence and

18

knew they were buying stolen goods. As did the Appellee banks as
19
20
21

all had a duty to review the chain of title for authenticity knew
they were laundering stolen property and must now face the law.

22

Ninth Circuit has a chance to fix the wrong unless they decide
23
24
25

to recuse themselves as they cannot "hold the balance nice, clean
and true" when three of their own Judges are defending their
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

\[V
co
mai

QO

gs

i
2
3

actions for over one year in Appellant's related case, Nevada Bk.
Adv. 19-01074. If Ninth Circuit cannot do so then it must recuse
itself in response to THIRD Disqualification motion.

4
5
6
7

Because of the foregoing, Appellant asks this court deny
Appellees Motion for Summery Affirmance and perform a de novo
review so that my stolen property may be returned to myself with

8
9
10

award for damages against the Appellees that are nothing but
habitual thieves.

11
12
13
14

RESPECTFULLY SUBMITTED:
Date: October 29, 2020

15
16
17
18
19

SALMA AGHA-KHAN, M.D.
APPELLANT IN PRO SE

20
21
22
23
24

\W

25

m
a>

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

QO
to
CL

1
2
3

DECLARATION/AFFIDAVIT OF SALMA AGHA-KHAN, MD.
I SALMA AGHA-KHAN, MD declare as follows:
1. I am the Plaintiff in this action and make the following

4
5
6
7

declaration based upon my personal knowledge and if called to
testify I would testify as follows:
2.

The opposition herein is supported by many facts and law.

3.

My over one million dollar property was stolen by Defendants

8
9
10
11

basing their claim on a fraud loan n 2004 where the "Lender" DID
NOT EXIST (Ex I) and the loan was PAID OFF IN FULL IN SEC

12
13
14

FILINGS few months later.
4.

Appellee Aurora took advantage of the fact that did know the

15

above facts and stepped in to collect mortgage from me for over
16
17
18

$5,000.00 per month.
5.

Appellees pushed me into Bankruptcy n 2010.

6.

Appellees realizing that I would soon discover the true facts,

19
20
21
22

started recording forged Assignments, transfers etc. signed by
well established robo-signers.

23

7.

Appellee Aurora et. al never became a Creditor in my

24
25

Bankruptcy yet asked for Relief by filing forged title documents. It

\'
LO
00
<u

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

00
n)

i
2
3

is very sad that the Bankruptcy Judge and my then attorney were
not well versed in Appellees criminal actions to realize the frauds
and forgery and perjury committed by Appellees to deny the

4
5
6
7

fraudulent relief requested.
Appellees then fraudulently "sold' my home to illegal and

8.

illegitimate "buyers" who in turn made yet another sale.

8
9
10
11

All Appellee buyers knew they were buying stolen goods as it

9.

is very obvious from title recordings.
10.

It is unbelievable that lower Court Judge was blinded to the

12
13
14
15

readily apparent facts perhaps for personal gains.
11.

Lower Court Judges definitely knew the truth as Discovery

was not allowed thus deviating from the standard.

16
17
18

12.

Lower Court

Judges dismissed the case without a single

hearing violating all laws.

19

13. The Exhibits attached to the District Court Complaint were
20
21
22

attached by Appellees ECF 26-1 as follows
A. GRANT, BARGAIN SALE DEED recorded July 30, 2004

23

between Salma H. Khan and Builder Coleman-Toll Limited
24
25

Partnership (property was paid for cash $964,102.00 + tax

$4,918.95) Inst. No. 20040730-0001902.
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULUN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

m

<D
OO

w

i
2
3

B. Unsigned Clarification of DEED OF TRUST as the first version
was unacceptable by Nevada Clark County. "Lender" being
Appellee-Defendant Aurora that was extinct for over ten years.

4
5
6
7

Inst.

No.

20040908-0003081.

Incredible

how

Recorder

accepted an unsigned document.
C. Six years later NOTICE OF BREACH AND DEFAULT AND

8
'9
10
11

ELECTION TO CAUSE SALE OF REAL PROPERTY UNDER DEED
. OF TRUST by Appellee Quality Loan Services for Appellee
MERS an "nominee" for extinct Appellee PCM. Inst. No. 2010

12
13
14

D. Six years later SUBSTITUTION OF TRUSTEE Inst.

No.

201002050001754. By

15
16
17
18
19

WHEREAS, SALMA H. KHAN, AN UNMARRIED WOMAN was the original Trustor,
FIDELITY NATIONAL TITLE was the original Trustee, and MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS INC., AS NOMINEE FOR PACIFIC COMMUNITY MORTGAGE,
INC,, A CALIFORNIA CORPORATION was the original Beneficiary under that certain Deed
of Trust dated S/18/2004 and recorded on 9/8/2004 as Instrument No. 20040908-0003081, in
E. Six years later CORPORATE ASSIGNMET OF DEED OF TRUST

20

Inst. No. 201005040000877
21
22
23
24
25

Date of Assignment; April 19th, 2010
Assignor: MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC. AS NOMINEE
FOR PACIFIC COMMUNITY MORTGAGE, INC., A CALIFORNIA CORPORATION ITS
SUCCESSORS AND ASSIGNS at 3300 S. W. 347TI AVENUE, SUITE 101, OCALA, FL 34474
Assignee: AURORA LOAN SERVICES LLC at 2617 COLLEGE PARK, SCOTrSBLUFF, NE
69361
no
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CD
QO
TO

i
2
3
4

F. CERTIFICATE as to Appellant gifting her million dollar home
to Appellee Quality Loan et,. al. Inst. No. 201005040000642
No request for mediation was made or the Grantor has waived mediation, As a result no
mediation is required in this matter. The Beneficiary may proceed with the foreclosure
process.

5

G. NOTICE OF TRUSTEE SALE by Appellee Servicelink and
6
7
8

Quality Loan et. al. with Appellant still being "trustor" Inst.

No. 201005140000152

9
10
li
12
13

BENEFICIARY MAY ELECT TO BID LESS THAN THE TOTAL AMOUNT DUE.
Trustotfs):
SALMA H. KHAN, AN UNMARRIED WOMAN
Recorded:
9/8/2004 a$ Instrument No. 20040908-0003081 m book XXX,
page XXX of Official Records in die office of the Recorder of
CLARK County, Nevada;

H.TRUSTEES DEED UPON SALE by Appellee Quality Loan et. al.

14
15

and Appellee McNeill et. al. Inst. No. 201009130001756

16

during Appellant's Bankruptcy after obtaining fraud relief but

17

failing to file a claim.

18
19
20.
21

I. Nevada Secretary of State printout showing no record
of Appellee Pacific Community Mortgage ever existing.
J. California Secretary of State printout showing Appellee

22
23
24

Pacific Community Mortgage to have been extinct ten
years ago. (Ex I)

25

00

00<v
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

bo

I
i
2
3

14. A reasonable person needs one glance at California Secretary
of State that Appellee PCM ceased to exist about TEN YEARS
PRIOR TO BECOMING A LENDER to establish the truth. (EX I)

4
5
6
7

15. A reasonable person does not need the added void recording
of Deed of Trust with unsigned "Clarification". (Ex III)
16. Appellant is hoping that the Ninth Circuit will not try to push

8
9
10
11

the case to the same Judges who are Defending their actions in
related Appeal for over one year.
17. Appellant is hoping that her THIRD Motion for disqualification

12
13
14
15

of Ninth Circuit will perhaps make Judges follow the law instead of
increasing their liability for protecting frauds perpetrated by
others.

16
17
18

I declare under the laws of the United States of America and
the laws of both the State of Nevada and the State of California

19

that the above is true and correct and if called to testify in a Court
20
21
22

of Law I would testify to same.
Dated: October 29, 2029

23
24

SALMA AGHA-KHAN, M.D.

\lW

25

PLAINTIFF IN PRO SE
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;
V

CT)

m<u

CIO
03
CL.

CERTIFICATE OF COMPLIANCE

1
2
3

Certificate of Compliance With Type-Volume Limitation,
Typeface Requirements, and Type Style Requirements

4
5
6
7

1.

This brief complies with the type-volume limitation of Fed. R.

App. P. 32(a)(7)(B) because:

This brief contains 2,973 words,

excluding the parts of the brief exempted by Fed. R. App. P.

8
9
10
11

32(a)(7)(B)(iii).
2.

This brief complies with the typeface requirements of Fed. R.

App. P. 32(a)(5) and the type style requirements of Fed. R. App.

12
13
14

P. 32(a)(6) because: this brief is double spaced and has been
prepared in a proportionally spaced typeface using WORD software

15

program, and Verdana font size 14.
16
17

DATED:

October 29, 2020

18
19
20

SALMA AGHA-KHAN, M.D.
APPELLANT IN PRO SE

21
22
23
24

\

a

25

o
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ. AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

<U
QD
^0

CERTIFICATE OF SERVICE

1
2

I declare that I am a resident of the County of Los Angeles, State

3

of California. I am over 18 years of age and a party to the entitled

4

action.

5

I served the forgoing documents(s) described as: APPELLANT'S

6

OPPOSITION

7

REGISTRATION SYSTEMS, INC., THEODORE SCHULTZ, AND

8

TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY

9

AFFIRMANCE FILED CONCURRENTLY WITH THIRD MOTION

10

FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON

11

MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § §

12

144 and 455; AFFIDAVIT/DECLARATION OF APPELLANT

13

on the following person whose address is listed in ATTACHED

14

SERVICE LIST by sending a true copy thereof enclosed in a sealed

15

envelope or transmitting, as follows:

16

X

TO

APPELLEES MORTGAGE

ELECTRONIC

(By Mail) I caused such envelope to USPS mail service with

17

fees prepaid, with instructions that it be delivered to the

18

addressees.

19
20

I declare under penalty of perjury under the laws of the United

21

States of America. Executed on October 29, 2020 at Los Angeles,

22

California.

23

24
25

<2LS
SALMA AGHA-KHAN, MD.
T—I
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CD
QO
CO
Q.

1
2
3
4
5
6
7
8
9
10
11

SERVICE LIST
Case No 2:16-cv-01124-JCM-NJK
Salma Agha-Khan v. Pacific Community Mortgage In. et al
Pacific Community Mortgage Inc.,
Pacific Community Mortgage Inc., its successors and
assignees
Gold Reverse Inc.,
Kurt Kingsolver,
Marilyn Fine
Holley Driggs Walch Fine Wray Puz & Thompson
400 S. Fourth St. 3rd Floor
Las Vegas, NV 89101

T: 702-791-1912
F: 702-791-1912
mfine@nevadafirm.com

12
13
14
15
16
17
18
19

Quality Loan Services Corp.,
Ronald Alonzo,
Bee Vang,
Mary Jane Same
Kristin A. Schuler-Hintz, Esq
McCarthy & Holthus LLP
9516 west Sahara #200
La Vegas, NV 89117
T: 702-685-0329
F: 866-339-5691
FDCNV@mccarthvholthus.com

20
21
22
23
24
25

Agents for Quality Loan Services Corp
Bobbie Irias/Irlas,
Address Unknown, Claiming to be employed by Quality Loan
Services Corp
American Securities Company of Nevada,
Does not exist

I
Csl

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

CD
BO

m

i
2
3

4
5

6

Mortgage Electronic Registration Systems, Inc.
Theodore Schultz, Vice President of MERS, Inc
Aurora Loan Services,
Aurora Loan Services, LLC.,
Trisha McMullin, agent for Aurora Loan Services;
Colt B. Dodrill
Wolfe & Wyman LLP
6757 Spencer Street
Las Vegas, NV 89119

7

T: 702-476-0100
F: 702-476-0101

8

cbdodrill@wolfewvman.com

9

10
11
12
13
14
15

Servicelink,
Servicelink-Irvine,
Fidelity National Title
Marni Rubin Watkins
Fidelity National Law Group
8363 W. Sunset Road, Suite 120
Henderson, NV 89113
T: 702-667-3000
F: 702-697-2020
Marni.watkins@fnf.com

l

16
17
18
19
20

21
22
.

23

24

Steven Joe,
Michael McNeill,
Juliann McNeil,
Ogonna M. Brown
Andrea M. Gandara
Holley, Driggs, Walch, Fine, Wray, Puzey & Thompson
400 South Fourth Street, Third Floor
Las Vegas, NV 89101
T: none provided
F: none provided
oatamoh@nevadafirm.com
aQandara@nevadafirm.com

25

m
a>
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

Q0
to

Cl.

i
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
. 17
18
19

Wells Fargo Bank, N.A.,
Wells Fargo Financial National Bank,
Robin E. Perkins, Esq.
Margaret G. Foley, Esq.
Snell & Wilmer LLP
3883 Howard Hughes Parkway, Ste 1100
Las Vegas, NV 89169
T: 702-784-5200
F: 702-784-5252
rperkins@swlaw.com
mfoley@swlaw.com
Alayne M. Opie, Esq.
3773 Howard Hughes Parkway, Suite 400N
Las Vegas, NV 89169

T: 702-792-3773
F: 702-792-9002
bundicki@atlaw.com
opiea@Qtlaw.com
Noble Title,
Aaron David Lovaas
Kristan Elizabeth Lehtinen
Global Business Lawyers - Lovaas & Lehtinen, P.C.
5586 South Fort Apache Road, Suite 110
Las Vegas, NV 89148
T: 702-388-1011
F: 702-387-1011
aaron@qlobalbusinesslawversusa.com
kristan@Qlobalbusinesslawversusa.com

20
21
22
23
24
25

William Go
Prudential Americana Group,
Darren J. Welsh
6765 S. Eastern Ave, Suite 200
Las Vegas, NV 89119
T: 702-733-9310
F: 702-862-4576
darrenw@americanaarp.com
APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

\
\

a>
oo
to
Q_

•%

i
2
3
4
5

Christopher J. Flaharty
Nichole R. Flaharty,
Christopher J. Flaharty, and Nichole R. Flaharty, as
Trustees of the Flaharty Family Trust;
Flaharty Family Trust,
Carleton R. Burch
Sue Trazig Cavaco
Anderson McPharlin & Conners LLP

6

601 S. Seventh Street

7

Las Vegas, NV 89101

8
9
10
11
12
13
14
15
16
17
18

T: 702-479-1010
F: 702-479-1025
crb@amclaw.com
stc@amclaw.com
and Todd W. Prall
Hutchinson & Steffen, LLC
Peccole Professional Park
10080 W. Alta Drive, Suite 200
Las Vegas, NV 89145
T: 702-385-2500
F: 702-385-2086
tprall@hutchleaal.com
Office of the United States Attorney General
Department of Justice

441, 1100 South 4th St NW,
Washington, DC 20001

19

Department of Justice - Civil Rights Division
20
21

441, 1100 South 4th St NW,
Washington, DC 20001

22
23
24

Vv

25

LO
CL)

APPELLANT'S OPPOSITION TO APPELLEES MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,
THEODORE SCHULTZ, AND TRISHA MCMULLIN'S RENEWED MOTION FOR SUMMARY AFFIRMANCE FILED
CONCURRENTLY WITH THIRD MOTION FOR NINTH CIRCUIT DISQUALIFICATION BASED UPON
MANDATORY, SELF-EXECUTING STATUTES 28 U.S.C. § § 144 and 455;

QO
CO
O.

Exhibit I
California Secretary of State showing
“Lender” Pacific Community Mortgage
had ceased to exist about 10 years prior
to signing Deed of Trust in 2004.
(See Appeal Excerpt II, III and
Complaint Exhibit J)

\

EXHIBIT J of Complaint (Exc II, III)

■f i
J
1
.
f-r
*

I
'¥
.1 i

i

[-

J

i .

4

I

I
1

■A

3

J ?

' •]

■s

1

-

i

I :

!

?

:

;

M

¥
iii ■15'

;
■j

'~>i 1
S'

a!

ii
e
*

)
J

s-

I

3

8
/■

£
■;

%

ni
!

i
3

j

Ml

i

«-

I

c =*-

' T»1

3

m
.i
3

y!

•; j

- 2 f
Sf

I

1
1
•>

ft'

«
b

35

i

2

i

S

a

S.
ac
5--£ <.-■

■ ff
~ s i4*“

« N

KT*

i

. i rsr

;¥
%
1

■••■Si

f-

■ I:
■a;

Si

I

i is;
I la

■1 ii
:

\

j

r

■j
;

i i
;
.
r.i
'!V

i

Si

<

/•j

I

ii

;

i

>i

■‘■I

:
i

i

t

■

1

I

'

.

I
c,

ii

H

i

\

•
B

!

r.-r

11

■■

j

'I
4
I
Ii
p
ii
■ii
8 is'

s

!i5 ai glP»*•<
r.g< i: ¥s.:.j
Jllffi
&
IS
■3!
a
[Jai ■aB
y

V
I
ii
i

I?
13*'
%
If
i1&

Yw

*

o

'b

20040908-0003081
wwv/wtuw I

Fee: $59.00

09/08/2004 13:21:15
T20040095936
«eq; FIDELITY NflTIONRL TITLE
Frances Oeane
N/C: $25.01
Clark County Recorder Pgs: 46

fW'- (^-0d-9/g-'C^[

PIN 4:164-02-218-001

After Recording Return To:
PACIFIC COMJNITY MORTCACE INC.
2099 S STATE COLLEGE BLVD 600
ANAHEIM, CA 92806
Grantee:
PACIFIC COMMUNITY MORTGAGE INC. A
CALIFORNIA CORPORATION
2099 S. STATE COLLEGE BLVD 600
ANAHEIM, CA 92806
Mail Tax Statement To:

■IGOftMrSMnflO
FOOftKBCOBBMKTO

{Space AboveTkij Line for Recording Dats|
KHAN
MIN:

*

0408006*7
100131*700049800671

DEED OF TRUST
DEFINITIONS
Words used in multiple sections of this document are defined below and other words are defined in Sections 3.11,
13, 18. 20 and 21. Certain rules regarding the usage of words used in this document are also provided in Section
16.
(A) “Security Instrument" means this document which is dated AUGUST 18, 2004
together with all Riders to this document.
(8) “Borrower" is
SALMA H. KHAN, AN UNMARRIED WOMAN
. Borrower is the trustor under this Security Instrument.
(C) “MERS" is Mortgage Electronic Registration Systems, inc. MERS is a separate corporation that is acting
solely as a nominee for Lender and Lender’s successors and assigns. MERS is the mortgagee under this
Security Instrument. MERS is organized and existing under the laws of Delaware, and has an address and
telephone number of P. O. Box 2026, Flint, Ml 48501-2026, tei. (888) 679-MERS.
(D) “Lender" is PACIFIC COMMUNITY MORTGAGE, INC., A CALIFORNIA CORPORATION
Lender is a CORPORATION
organized and existing under the laws of
CALIFORNIA
. Lender’s address is
2099 S. STATE COLLEGE BLVD. 4
600, ANAHEIM, CA 92806
Lender is the beneficiary under this Security Instrument.
(E) “Trustee*’ is FIDELITY NATIONAL TITLE
(F) “Note" means the promissory note signed by Borrower and dated AUGUST 18, 2004
The Note states that Borrower owes Lender
SIX HUNDRED FIFTEEN THOUSAND AND 00/100
Dollars(U.S. $ 615,000.00 ) plus interest. Borrower has promised to pay this debt in regular Periodic
Payments and to pay the debt in full not later than SEPTEMBER 1, 2034
pG> U^"I'erty" meanS thc P,0Perty *Et is described below under the heeding “Transfer of Rights in the
(H) “Loan” means the debt evidenced by the Note, plus interest, any prepayment charges and late charges due
under Ihe Note, and alt sums due under this Security Instrument, plus interest.
NEVAIM-Siugle rVnily-Funoit Mjc/Frtddic Mic UNIFORM INSTRUMENT
DOCUKNVl
/Huge l of12 pages)

form 30191411

oocutt.-vz.vrx OS/J0/2C53

\3
\

Exhibit II
Face sheet of REJECTED Deed of Trust
signed by non-existing Lender Pacific
Community Mortgage with Recorder’s Memo
“Poor Record Due to Quality of Original
Document”
(See Appeal Excerpt II, III and
Complaint Exhibit B)

\v1

Exhibit III
Unsigned CLARIFICATION of Deed of Trust.
(See Appeal Excerpt II, III and
Complaint Exhibit B)

n

is

PIN #:164-02-218-001
After Recording Return To:

PACIFIC COMMUNITY MORTGAGE INC.
2099 S STATE COLLEGE BLVD 600
ANAHEIM, CA 92806
Grantee:
PACIFIC COMMUNITY MORTGAGE INC. A
CALIFORNIA CORPORATION
2099 S. STATE COLLEGE BLVD 600
ANAHEIM, CA 92806
Mail Tax Statement To:

***This copy is being attached for clarification purposes only.***

(Space Above This Line For Recording Data|
KHAN
LOAN #;
MIN:

04080067
100121700040800671

DEED OF TRUST
DEFINITIONS
Words used in multiple sections of this document are defined below and other words are defined in Sections 3,11,
13, 18, 20 and 21. Certain rules regarding the usage of words used in this document are also provided in Section
16.
(A) “Security Instrument” means this document, which is dated AUGUST 18, 2004
together with all Riders to this document.
(B) “Borrower” is
SALMA H. KHAN, AN UNMARRIED WOMAN
. Borrower is the trustor under this Security Instrument.
(C) “MERS” is Mortgage Electronic Registration Systems, Inc. MERS is a separate corporation that is acting
solely as a nominee for Lender and Lender’s successors and assigns. MERS is the mortgagee under this
Security Instrument. MERS is organized and existing under the laws of Delaware, and has an address and
telephone number of P. O. Box 2026, Flint, Ml 48501-2026, tel. (888) 679-MERS.

(D) “Lender” is

PACIFIC COMMUNITY MORTGAGE, INC., A CALIFORNIA CORPORATION

Lender is a CORPORATION
■ organized and existing under the laws of
CALIFORNIA
2099 S. STATE COLLEGE BLVD. #
. Lender's address is
600, ANAHEIM, CA 92806
Lender is the beneficiary under this Security Instrument.
(E) “Trustee” is FIDELITY NATIONAL TITLE
(F) “Note” means the promissory note signed by Borrower and dated
AUGUST 18, 2004
The Note states that Borrower owes Lender

SIX HUNDRED FIFTEEN THOUSAND AND 00/100
Dollars(U.S. S 615,000.00
) plus interest. Borrower has promised to pay this debt in regular Periodic
SEPTEMBER 1, 2034
Payments and to pay the debt in full not later than
(G) “Property” means the property that is described below under the heading “Transfer of Rights in the
Property.”
(H) “Loan” means the debt evidenced by the Note, plus interest, any prepayment charges and late charges due
under the Note, and all sums due under this Security Instrument, plus interest.
NtVADA—Single Faniiiy-fnnnie Mae/Freddie Mac UNIFORM INSTRUMENT
DOCUKNVI
(Page I of 12 pages)

OOCUKNVT - VTX

Form 3029 1/01

09/20/2003

<vsr

\

CLARIFICATION
04080067

(I) “Riders” means all Riders to this Security Instrument that are executed by Borrower. The following Riders are
to be executed by Borrower [check box as applicable]:
(2 Adjustable Rate Rider
I | Condominium Rider
fxl Second Home Rider
0 Balloon Rider
0 Biweekly Payment Rider
fxl Planned Unit Development Rider
Q 1-4 Family Rider
0 Other(s) [specify] PREPAY, ADDEND'>UM TO ADJ.
(.1) “Applicable Law” means all controlling applicable federal, state and local statutes, regulations, ordinances
and administrative rules and orders (that have the effect of law) as well as all applicable final, non-appealable
judicial opinions.
(K) “Community Association Dues, Fees, and Assessments” means all dues, fees, assessments and other
charges that are imposed on Borrower or the Property by a condominium association, homeowners association or
similar organization.
(L) “Electronic Funds Transfer” means any transfer of funds, other than a transaction originated by check,
draft, or similar paper instrument, which is initiated through an electronic terminal, telephonic instrument,
computer, or magnetic tape so as to order, instruct, or authorize a financial institution to debit or credit an account.
Such term includes, but is not limited to, point-of-sale transfers, automated teller machine transactions, transfers
initiated by telephone, wire transfers, and automated clearinghouse transfers.
(M) “Escrow Items” means those items that are described in Section 3.
(N) “Miscellaneous Proceeds” means any compensation, settlement, award of damages, or proceeds paid by any
third party (other than insurance proceeds paid under the coverages described in Section 5) for: (i) damage to, or
destruction of, the Property; (ii) condemnation or other taking of all or any part of the Property; (iii) conveyance
in lieu of condemnation; or (iv) misrepresentations of, or omissions as to, the value and/or condition of the
Property.
(O) “Mortgage Insurance” means insurance protecting Lender against the nonpayment of, or default on, the
Loan.
(P) “Periodic Payment” means the regularly scheduled amount due for (i) principal and interest under the Mote,
plus (ii) any amounts under Section 3 of this Security Instrument.
(Q) “RESPA” means the Real Estate Settlement Procedures Act (12 U.S.C. §2601 et seq.) and its implementing
regulation, Regulation X (24 C.F.R. Part 3500), as they might be amended from time to time, or any additional or
successor legislation or regulation that governs the same subject matter. As used in this Security Instrument,
“RESPA” refers to all requirements and restrictions that are imposed in regard to a “federally related mortgage
loan” even if the Loan does not qualify as a “federally related mortgage loan” under RESPA.
(R) “Successor in Interest of Borrower” means any party that has taken title to the Property, whether or not that
party has assumed Borrower’s obligations under the Note and/or this Security Instrument.
TRANSFER OF RIGHTS IN THE PROPERTY
The beneficiary of this Security Instrument is MERS (solely as nominee for Lender and Lender’s successors and
assigns) and the successors and assigns of MERS.This Security Instrument secures to Lender: (i) the repayment of
the Loan, and all renewals, extensions and modifications of the Note; and (ii) the performance of Borrower’s
covenants and agreements under this Security Instrument and the Note. For this purpose, Borrower irrevocably
grants and conveys to Trustee, in trust, with power of sale, the following described property located in the
COUNTY
of CLARK
(Type of Recording Jurisdiction)
(Name of Recording Jurisdiction)
LOT 9 IN BLOCK 6 OF RED ROCK COUNTRY CLUB AT SUMMERLIN UNIT 24, AS SHOWN BY MAP
THEREOF ON FILE IN BOOK 107 OF PLATS, PAGE 71 IN THE OFFICE OF THE COUNTY RECORDER
OF CLARK COUNTY, NEVADA.
AN EASEMENT FOR INGRESS AND EGRESS OVER AND ACROSS THE PRIVATE STREETS AND COMMON
ELEMENTS AS SHOWN AND DELINEATED ON SAID MAP.

NEVADA—Single l amily-Fannie Mae/Freddie Mac UNIFORM INSTRUMENT
GOCIJKNV2
(Page 2 of 12 pages)
DOCUKNV2.VTX

Form 3029 1/01

08/20/2003

\

'V'

CLARIFICATION

040800

which currently has the address of
LAS VEGAS
[City]

1967 CHERRY CREEK CIRLCE
(Street]
.Nevada 89135
(Zip Code]

(“Property Address”).

TOGETHER WITH all the improvements now or hereafter erected on the property, and all easements,
appurtenances, and fixtures now or hereafter a part of the property. All replacements and additions shall also be
covered by this Security Instrument. All of die foregoing is referred to in this Security Instrument as the
“Property." Borrower understands and agrees that MERS holds only legal title to the interests granted by
Borrower in this Security Instrument, but, if necessary to comply with law or custom, MERS (as nominee for
Lender and Lender s successors and assigns) has the right: to exercise any or all of those interests, including, but
not limited to, the right to foreclose and sell the Property; and to take any action required of Lender including, but
not limited to, releasing and canceling this Security Instrument.
BORROWER COVENANTS that Borrower is lawfully seised of the estate hereby conveyed and has the
right to grant and convey the Property and that the Property is unencumbered, except for encumbrances of record.
Borrower warrants and will defend generally the title to the Property against all claims and demands, subject to
any encumbrances of record.
THIS SECURITY INSTRUMENT combines uniform covenants for national use and non-uniform
covenants with limited variations by jurisdiction to constitute a uniform security instrument covering real
property.
UNIFORM COVENANTS. Borrower and Lender covenant and agree as follows:
1. Payment of Principal, Interest, Escrow Items, Prepayment Charges, and Late Charges. Borrower
shall pay when due the principal of, and interest on, the debt evidenced by the Note and any prepayment charges
and late charges due under the Note. Borrower shall also pay funds for Escrow Items pursuant to Section 3.
Payments due under the Note and this Security Instrument shall be made in U.S. currency. However, if any check
or other instrument received by Lender as payment under the Note or this Security Instrument is returned to
Lender unpaid, Lender may require that any or all subsequent payments due under the Note and this Security
Instalment be made in one or more of the following forms, as selected by Lender: (a) cash; (b) money order; (c)
certified check, bank check, treasurer’s check or cashier’s check, provided any such check is drawn upon an
institution whose deposits are insured by a federal agency, instrumentality, or entity; or (d) Electronic Funds
Transfer.
Payments are deemed received by Lender when received at the location designated in the Note or at such
other location as may be designated by Lender in accordance with the notice provisions in Section 15. Lender may
return any payment or partial payment if the payment or partial payments are insufficient to bring the Loan
current. Lender may accept any payment or partial payment insufficient to bring the Loan current, without waiver
of any rights hereunder or prejudice to its rights to refuse such payment or partial payments in the future, but
Lender is not obligated to apply such payments at the time such payments are accepted. If each Periodic Payment
is applied as of its scheduled due date, then Lender need not pay interest on unapplied funds. Lender may hold
such unapplied funds until Borrower makes payment to bring the Loan current. If Borrower does not do so within
a reasonable period of time, Lender shall either apply such funds or return them to Borrower. If not applied
earlier, such funds will be applied to the outstanding principal balance under the Note immediately prior to
foreclosure. No offset or claim which Borrower might have now or in the future against Lender shall relieve
Borrower from making payments due under the Note and this Security Instrument or performing the covenants
and agreements secured by this Security Instrument.
2. Application of Payments or Proceeds. Except as otherwise described in this Section 2, all payments
accepted and applied by Lender shall be applied in the following order of priority: (a) interest due under the Note;
(b) principal due under the Note; (c) amounts due under Section 3. Such payments shall be applied to each
Periodic Payment in the order in which it became due. Any remaining amounts shall be applied first to late
c^ges, second to any other amounts due under this Security Instrument, and then to reduce the principal balance
If Lender receives a payment from Borrower for a delinquent Periodic Payment which includes a
sufficient amount to pay any late charge due, the payment may be applied to the delinquent payment and the late
charge. If more than one Periodic Payment is outstanding, Lender may apply any payment received from
NEVADA-Single I'amily-Fannie Mae/Frcddie Mac UNIFORM INSTRUMENT
DOCUKNVS
(Page 3 of 12 pages)

OOCWOfV3.VTX

08/20/2003

Form 3029 1/01

•

@lAQff!CAT]Q%
04080067

Borrower to the repayment of the Periodic Payments if, and to the extent that, each payment can be paid in full.
To the extent that any excess exists after the payment is applied to the full payment of one or more Periodic
Payments, such excess may be applied to any late charges due. Voluntary prepayments shall be applied first to
any prepayment charges and then as described in the Note.
Any application of payments, insurance proceeds, or Miscellaneous Proceeds to principal due under the
Note shall not extend or postpone the due date, or change the amount, of the Periodic Payments.
3. Funds for Escrow Items. Borrower shall pay to Lender on the day Periodic Payments are due under
the Note, until the Note is paid in full, a sum (the “Funds”) to provide for payment of amounts due for: (a) taxes
and assessments and other items which can attain priority over this Security Instrument as a lien or encumbrance
on the Property; (b) leasehold payments or ground rents on the Property, if any; (c) premiums for any and all
insurance required by Lender under Section 5; and (d) Mortgage Insurance premiums, if any, or any sums payable
by Borrower to Lender in lieu of the payment of Mortgage Insurance premiums in accordance with the provisions
of Section 10. These items are called “Escrow Items.” At origination or at any time during the term of the Loan,
Lender may require that Community Association Dues, Fees, and Assessments, if any, be escrowed by Borrower,
and such dues, fees and assessments shall be an Escrow Item. Borrower shall promptly furnish to Lender all
notices of amounts to be paid under this Section. Borrower shall pay Lender the Funds for Escrow Items unless
Lender waives Borrower’s obligation to pay the Funds for any or all Escrow Items. Lender may waive Borrower’s
obligation to pay to Lender Funds for any or all Escrow Items at any time. Any such waiver may only be in
writing. In the event of such waiver, Borrower shall pay directly, when and where payable, the amounts due for
any Escrow Items for which payment of Funds has been waived by Lender and, if Lender requires, shall furnish to
Lender receipts evidencing such payment within such time period as Lender may require. Borrower’s obligation ,
to make such payments and to provide receipts shall for all purposes be deemed to be a covenant and agreement
contained in this Security Instrument, as the phrase “covenant and agreement” is used in Section 9. If Borrower is
obligated to pay Escrow Items directly, pursuant to a waiver, and Borrower fails to pay the amount due for an
Escrow Item, Lender may exercise its rights under Section 9 and pay such amount and Borrower shall then be
obligated under Section 9 to repay to Lender any such amount. Lender may revoke the waiver as to any or all
Escrow Items at any time by a notice given in accordance with Section 15 and, upon such revocation, Borrower
shall pay to Lender all Funds, and in such amounts, that are then required under this Section 3.
Lender may, at any time, collect and hold Funds in an amount (a) sufficient to permit Lender to apply the
Funds at the time specified under RESPA, and (b) not to exceed the maximum amount a lender can require under
RESPA. Lender shall estimate the amount of Funds due on the basis of current data and reasonable estimates of
expenditures of future Escrow Items or otherwise in accordance with Applicable Law.
The Funds shall be held in an institution whose deposits are insured by a federal agency, instrumentality,
or entity (including Lender, if Lender is an institution whose deposits are so insured) or in any Federal Home
Loan Bank. Lender shall apply the Funds to pay the Escrow Items no later than the time specified under RESPA.
Lender shall not charge Borrower for holding and applying the Funds, annually analyzing the escrow account, or
verifying the Escrow Items, unless Lender pays Borrower interest on the Funds and Applicable Law permits
Lender to make such a charge. Unless an agreement is made in writing or Applicable Law requires interest to be
paid on the Funds, Lender shall not be required to pay Borrower any interest or earnings on the Funds. Borrower
and Lender can agree in writing, however, that interest shall be paid on the Funds. Lender shall give to Borrower,
without charge, an annual accounting of the Funds as required by RESPA.
If there is a surplus of Funds held in escrow, as defined under RESPA, Lender shall account to Borrower
for the excess funds in accordance with RESPA. If there is a shortage of Funds held in escrow, as defined under
RESPA, Lender shall notify Borrower as required by RESPA, and Borrower shall pay to Lender the amount
necessary to make up the shortage in accordance with RESPA, but in no more than 12 monthly payments. If there
is a deficiency of Funds held in escrow, as defined under RESPA, Lender shall notify Borrower as required by
RESPA, and Borrower shall pay to Lender the amount necessary to make up the deficiency in accordance with
RESPA, but in no more than 12 monthly payments.
Upon payment in full of all sums secured by this Security Instrument, Lender shall promptly refund to
Borrower any Funds held by Lender.
4. Charges; Liens. Borrower shall pay all taxes, assessments, charges, fines, and impositions attributable
to the Property which can attain priority over this Security Instrument, leasehold payments or ground rents on the
Property, if any, and Community Association Dues, Fees, and Assessments, if any. To the extent that these items
are Escrow Items, Borrower shall pay them in the manner provided in Section 3.
NEVADA-Single Family-Fannie Mae/Freddie Mac UNIFORM INSTRUMENT
DOCUKNV4
(Page 4 of 12 pages)
DCCUKNV4.VTX

08/20/2003

Form 3029 1/01

CLARiftCAr/CW
04080067

Borrower shall promptly discharge any lien which has priority over this Security Instrument unless
Borrower: (a) agrees in writing to the payment of the obligation secured by the lien in a manner acceptable to
Lender, but only so long as Borrower is performing such agreement; (b) contests the lien in good faith by, or
defends against enforcement of the lien in, legal proceedings which in Lender’s opinion operate to prevent the
enforcement of the lien while those proceedings are pending, but only until such proceedings arc concluded; or(c)
secures from the holder of the lien an agreement satisfactory to Lender subordinating the lien to this Security
Instrument. If Lender determines that any part of the Property is subject to a lien which can attain priority over
this Security Instrument, Lender may give Borrower a notice identifying the lien. Within 10 days of the date on
which that notice is given, Borrower shall satisfy the lien or take one or more of the actions set forth above in this
Section 4.
Lender may require Borrower to pay a one-time charge for a real estate tax verification and/or reporting
service used by Lender in connection with this Loan.
5. Property Insurance. Borrower shall keep the improvements now existing or hereafter erected on the
Property insured against loss by fire, hazards included within the term “extended coverage,” and any other
hazards including, but not limited to, earthquakes and floods, for which Lender requires insurance. This insurance
shall be maintained in the amounts (including deductible levels) and for the periods that Lender requires. What
Lender requires pursuant to the preceding sentences can change during the term of the Loan. The insurance carrier
providing the insurance shall be chosen by Borrower subject to Lender’s right to disapprove Borrower’s choice,
which right shall not be exercised unreasonably. Lender may require Borrower to pay, in connection with this
Loan, either: (a) a one-time charge for flood zone determination, certification and tracking services; or (b) a one­
time charge for flood zone determination and certification services and subsequent charges each time remappings
or similar changes occur which reasonably might affect such determination or certification. Borrower shall also be
responsible for the payment of any fees imposed by the Federal Emergency Management Agency in connection
with the review of any flood zone determination resulting from an objection by Borrower.
If Borrower fails to maintain any of the coverages described above, Lender may obtain insurance
coverage, at Lender’s option and Borrower’s expense. Lender is under no obligation to purchase any particular
type or amount of coverage. Therefore, such coverage shall cover Lender, but might or might not protect
Borrower, Borrower’s equity in the Property, or the contents of the Property, against any risk, hazard or liability
and might provide greater or lesser coverage than was previously in effect. Borrower acknowledges that the cost
of the insurance coverage so obtained might significantly exceed the cost of insurance that Borrower could have
obtained. Any amounts disbursed by Lender under this Section 5 shall become additional debt of Borrower
secured by this Security Instrument. These amounts shall bear interest at the Note rate from the date of
disbursement and shall be payable, with such interest, upon notice from Lender to Borrower requesting payment.
All insurance policies required by Lender and renewals of such policies shall be subject to Lender’s right
to disapprove such policies, shall include a standard mortgage clause, and shall name Lender as mortgagee and/or
as an additional loss payee. Lender shall have the right to hold the policies and renewal certificates. If Lender
requires, Borrower shall promptly give to Lender all receipts of paid premiums and renewal notices. If Borrower
obtains any form of insurance coverage, not otherwise required by Lender, for damage to, or destruction of, the
Property, such policy shall include a standard mortgage clause and shall name Lender as mortgagee and/or as an
additional loss payee.
In the event of loss, Borrower shall give prompt notice to the insurance carrier and Lender. Lender may
make proof of loss if not made promptly by Borrower. Unless Lender and Borrower otherwise agree in writing,
any insurance proceeds, whether or not the underlying insurance was required by Lender, shall be applied to
restoration or repair of the Property, if the restoration or repair is economically feasible and Lender’s security is
not lessened. During such repair and restoration period, Lender shall have the right to hold such insurance
proceeds until Lender has had an opportunity to inspect such Property to ensure the work has been completed to
Lender’s satisfaction, provided that such inspection shall be undertaken promptly. Lender may disburse proceeds
for the repairs and restoration iri a single payment or in a series of progress payments as the work is completed.
Unless an agreement is made in writing or Applicable Law requires interest to be paid on such insurance
proceeds, Lender shall not be required to pay Borrower any interest Or earnings on such proceeds. Fees for public
adjusters, or other third parties, retained by Borrower shall not be paid out of the insurance proceeds and shall be
the sole obligation of Borrower. If the restoration or repair is not economically feasible or Lender’s security
would be lessened, the insurance proceeds shall be applied to the sums secured by this Security Instrument,
whether or not then due, with the excess, if any, paid to Borrower. Such insurance proceeds shall be applied in the
order provided for in Section 2.'
NEVADA-Single Family-Fannie Mae/Frcddle Mac UNIFORM INSTRUMENT
Form 3029 1/01
DQCUKNVS

OCCUXWV5.VTX

08/20/2003

(Page 5 of 12 pages)

Clarification

04080067

If Borrower abandons the Property, Lender may file, negotiate and settle any available insurance claim
and related matters. If Borrower does not respond w'ithin 30. days to a notice from Lender that the insurance
carrier has offered to.settle a claim, then Lender may negotiate and settle the claim. The 30-day period will begin
when the. notice is given. In either event, or if Lender acquires the Property under Section 22 or otherwise,
Borrower hereby assigns, to Lender (a) Borrower’s rights to any insurance proceeds in an amount not to exceed
the amounts unpaid under the Note or this Security Instrument, and (b) any other of Borrower’s rights (other than
the right to any refund of unearned premiums paid by Borrower) under all insurance policies covering the
Property, insofar as such rights are applicable to the coverage of the Property. Lender may use the insurance
proceeds either to repair or restore the Property or to pay amounts unpaid under the Note or this Security
Instrument, whether or not then due.
6. Occupancy. Borrower shall occupy, establish, and use the Property as Borrower’s principal residence
within 60 days after the execution of this Security Instrument and shall continue to occupy the Property as
Borrower’s principal residence for at least one year after the date of occupancy, unless Lender otherwise agrees in
writing, which consent shall not be unreasonably withheld, or unless extenuating circumstances exist which are
beyond Borrower’s control.
7. Preservation, Maintenance and Protection of the Property; Inspections. Borrower shall not
destroy, damage or impair the Property, allow the Property to deteriorate or commit waste on the Property.
Whether or not Borrower is residing in the property, Borrower shall maintain the Property in order to prevent the
Property from deteriorating or decreasing in value due to its condition. Unless it is determined pursuant to Section
5 that repair or restoration is not economically feasible, Borrower shall promptly repair the Property if damaged to
avoid further deterioration or damage. If insurance or condemnation proceeds are paid in connection with damage
to, or the taking of, the Property, Borrower shall be responsible for repairing or restoring the Property only if
Lender has released proceeds for such purposes. Lender may disburse proceeds for the repairs and restoration in a
single payment or in a series of progress payments as the work is completed. If the insurance or condemnation
proceeds are not sufficient to repair or restore the Property, Borrower is not relieved of Borrower’s obligation for
the completion of such repair or restoration.
Lender or its agent may make reasonable entries upon and inspections of the Property. If it has
reasonable cause, Lender may inspect the interior of the improvements on the Property. Lender shall give
Borrower notice at the time of or prior to such an interior inspection specifying such reasonable cause.
8. Borrower's Loan Application. Borrower shall be in default if, during the Loan application process,
Borrower or any persons or entities acting at the direction of Borrower or with Borrower’s knowledge or consent
gave materially false, misleading, or inaccurate information or statements to Lender (or failed to provide Lender
with material information) in connection with the Loan. Material representations include, but are not limited to,
representations concerning Borrower’s occupancy of the Property as Borrower’s principal residence.
9. Protection of Lender’s Interest in the Property and Rights Under this Security Instrument. If (a)
Borrower fails to perform the covenants and agreements contained in this Security Instrument, (b) there is a legal
proceeding that might significantly affect Lender’s interest in the Property and/or rights under this Security
Instrument (such as a proceeding in bankruptcy, probate, for condemnation or forfeiture, for enforcement of a lien
which may attain priority over this Security Instrument or to enforce laws or regulations), or (c) Borrower has
abandoned the Property, then Lender may do and pay for whatever is reasonable or appropriate to protect
Lender’s interest in the Property and rights under this Security Instrument, including protecting and/or assessing
the value of the Property, and securing and/or repairing the Property. Lender’s actions can include, but are not
limited to: (a) paying any sums secured by a lien which has priority over this Security Instrument; (b) appearing in
court; and (c) paying reasonable attorneys’ fees to protect its interest in the Property and/or rights under this
Security Instrument, including its secured position in a bankruptcy proceeding. Securing the Property includes,
but is not limited to, entering the Property to make repairs, change locks, replace or board up doors and windows,
drain water from pipes, eliminate building or other code violations or dangerous conditions, and have utilities
turned on or off. Although Lender may take action under this Section 9, Lender does not have to do so and is not
under any duty or obligation to do so. It is agreed that Lender incurs no liability for not taking any or all actions
authorized under this Section 9.
Any amounts disbursed by Lender under this Section 9 shall become additional debt of Borrower secured
by this Security Instrument. These amounts shall bear interest at the Note rate from the date of disbursement and
shall be payable, with such interest, upon notice from Lender to Borrower requesting payment.
If this Security' Instrument is on a leasehold, Borrower shall comply with all the provisions of the lease.
Borrower shall not surrender the leasehold estate and interests herein conveyed or terminate or cancel the ground
NEVADA-Singlc Family-Fannic Mac/Frcddie Mac UNIFORM INSTRUMENT
Form 30291/01
DOCUKNVS
(Page 6 of 12 pages)

DOOJKNV6.VTX

08/20/2003

W-MlFICATlOy
04080067

lease. Borrower shall not, without the express written consent of Lender, alter or amend the ground lease. If
Borrower acquires fee title to the Property* the leasehold and the fee title shall not merge unless Lender agrees to
the merger in writing.
10, Mortgage Insurance. If Lender required Mortgage Insurance as a condition of making the Loan,
Borrower shall pay the premiums required to maintain the Mortgage Insurance in effect. If, for any reason, the
Mortgage Insurance coverage required by Lender ceases to be available from the mortgage insurer that previously
provided such insurance and Borrower was required to make separately designated payments toward the
premiums for Mortgage Insurance, Borrower shall pay the premiums required to obtain coverage substantially
equivalent to the Mortgage Insurance previously in effect, at a cost substantially equivalent to the cost to
Borrower of the Mortgage Insurance previously in effect, from an alternate mortgage insurer selected by Lender.
If substantially equivalent Mortgage Insurance coverage is not available, Borrower shall continue to pay to Lender
the amount of the separately designated payments that were due when the insurance coverage ceased to be in
effect. Lender will accept, use and retain these payments as a non-refundable loss reserve in lieu of Mortgage
Insurance. Such loss reserve shall be non-refundable, notwithstanding the fact that the Loan is ultimately paid in
full, and Lender shall not be required to pay Borrower any interest or earnings on such loss reserve. Lender can no
longer require loss reserve payments if Mortgage Insurance coverage (in the amount and for the period that
Lender requires) provided by an insurer selected by Lender again becomes available, is obtained, and Lender
requires separately designated payments toward the premiums for Mortgage Insurance. If Lender required
Mortgage Insurance as a condition of making the Loan and Borrower was required to make separately designated
payments toward the premiums for Mortgage Insurance, Borrower shall pay the premiums required to maintain
Mortgage Insurance in effect, or to provide a non-refundable loss reserve, until Lender's requirement for
Mortgage Insurance ends in accordance with any written agreement between Bon-ower and Lender providing for
such termination or until termination is required by Applicable Law. Nothing in this Section 10 affects Borrower’s
obligation to pay interest at the rate provided in the Note.
Mortgage Insurance reimburses Lender (or any entity that purchases the Note) for certain losses it may
incur if Borrower does not repay the Loan as agreed. Borrower is not a party to the Mortgage Insurance.
Mortgage insurers evaluate their total risk on all such insurance in force from time to time, and may enter
into agreements with other parties that share or modify their risk, or reduce losses. These agreements are on terms
and conditions that are satisfactory to the mortgage insurer and the other party (or parties) to these agreements.
These agreements may require the mortgage insurer to make payments using any source of funds that the
mortgage insurer may have available (which may include funds obtained from Mortgage Insurance premiums).
As a result of these agreements, Lender, any purchaser of the Note, another insurer, any reinsurer, any
other entity, or any affiliate of any of the foregoing, may receive (directly or indirectly) amounts that derive from
(or might be characterized as) a portion of Borrower’s payments for Mortgage Insurance, in exchange for sharing
or modifying the mortgage insurer’s risk, or reducing losses. If such agreement provides that an affiliate of Lender
takes a share of the insurer s risk in exchange for a share of the premiums paid to the insurer, the arrangement is
often termed “captive reinsurance.” Further;
(a) Any such agreements will not affect the amounts that Borrower has agreed to pay for Mortgage
Insurance, or any other terms of the Loan. Such agreements will not increase the amount Borrower will
owe for Mortgage Insurance, and they will not entitle Borrower to any refund.
(b) Any such agreements will not affect the rights Borrower has - if any - with respect to the
Mortgage Insurance under the Homeowners Protection Act of 1098 or any other law. These rights may
include the right to receive certain disclosures, to request and obtain cancellation of the Mortgage
Insurance, to have the Mortgage Insurance terminated automatically, and/or to receive a refund of any
Mortgage Insurance premiums that were unearned at the time of such cancellation or termination.
11. Assignment of Miscellaneous Proceeds; Forfeiture. All Miscellaneous Proceeds are hereby
assigned to and shall be paid to Lender.
If the Property is damaged, such Miscellaneous Proceeds shall be applied to restoration or repair of the
Property, if the restoration or repair is economically feasible and Lender’s security is not lessened. During such
repair and restoration period, Lender shall have the right to hold such Miscellaneous Proceeds until Lender has
had an opportunity to inspect such Property to ensure the work has been completed to Lender’s satisfaction,
provided that such inspection shall be undertaken promptly. Lender may pay for the repairs and restoration in a
single disbursement or in a series of progress payments as the work is completed. Unless an agreement is made in
writing or Applicable Law requires interest to be paid on such Miscellaneous Proceeds, Lender shall not be
required to pay Borrower any interest or earnings on such Miscellaneous Proceeds. If the restoration or repair is
NEVADA—Single Family-Fannie Mae/Frcddie Mac UNIFORM INSTRUMENT
Form 3029 1/01
oocuknv;
(Page 7 of 12 pages)
DOCUIOJV7. VTX 09/20/2003

CLARIFICATION

04080067

not economically feasible or Lender’s security would be lessened, the Miscellaneous Proceeds shall be applied to
the sums secured by this Security Instrument, whether or not then due, with the excess, if any, paid to Borrower
Such Miscellaneous Proceeds shall be applied in the order provided for in Section 2.
' In the event of a total taking, destruction, or loss in value of the Property, the Miscellanedus Proceeds
shall be applied to the sums secured by this Security Instrument, whether or not then due, with the excess if any
paid to Borrower.
.
’
In the event of a partial taking, destruction, or loss in value of the Property in which the fair market value
of the Property immediately before the partial taking, destruction, or loss in value is equal to or greater than the
amount of the sums secured by this Security Instrument immediately before the partial taking, destruction, or loss
in value, unless Borrower and Lender otherwise agree in writing, the sums secured by this Security Instrument
shall be reduced by the amount of the Miscellaneous Proceeds multiplied by the following fraction: (a) the total
amount of the sums secured immediately before the partial taking, destruction, or loss in value divided by (b) the
fair market value of the Property immediately before the partial taking, destruction, or loss in value. Any balance
shall be paid to Borrower.
In the event of a partial taking, destruction, or loss in value of the Property in which the fair market value
of the Property immediately before the partial taking, destruction, or loss in value is less than the amount of the
sums secured immediately before the partial taking, destruction, or loss in value, unless Borrower and Lender
otherwise agree in writing, the Miscellaneous Proceeds shall be applied to the sums secured by this Security
Instrument whether or not the sums are then due.
If the Property is abandoned by Bon-ower, or if, after notice by Lender to Borrower that the Opposing
Party (as defined in the next sentence) offers to make an award to settle a claim for damages, Borrower fails to
respond to Lender within 30 days after the date the notice is given. Lender is authorized to collect and apply the
Miscellaneous Proceeds either to restoration or repair of the Property or to the sums secured by this Security
Instrument, whether or not then due. “Opposing Party” means the third party that owes Borrower Miscellaneous
Proceeds or the party against whom Borrower has a right of action in regard to Miscellaneous Proceeds.
t Borrower shall be in default if any action or proceeding, whether civil or criminal, is begun that, in
Lender’s judgment, could result in forfeiture of the Property or other material impairment of Lender’s interest in
the Property or rights under this Security Instrument. Borrower can cure such a default and, if acceleration has
occuiTed, reinstate as provided in Section 19, by causing the action or proceeding to be dismissed with a ruling
that, in Lender s judgment, precludes forfeiture of the Property or other material impairment of Lender’s interest
in the Property or rights under this Security Instrument. The proceeds of any award or claim for damages that are
attributable to the impairment of Lender’s interest in the Property are hereby assigned and shall be paid to Lender.
All Miscellaneous Proceeds that are not applied to restoration or repair of the Property shall be applied in
the order provided for in Section 2.
12. Borrower Not Released; Forbearance By Lender Not a Waiver. Extension of the time for
payment or modification of amortization of the sums secured by this Security Instrument granted by Lender to
Borrower or any Successor in Interest of Borrower shall not operate to release the liability of Borrower or any
Successors in Interest of Borrower. Lender shall not be required to commence proceedings against any Successor
in Interest of Borrower or to refuse to extend time for payment or otherwise modify amortization of the sums
secured by this Security Instrument by reason of any demand made by the original Borrower or any Successors in
Interest of Borrower. Any forbearance by Lender in exercising any right or remedy including, without limitation,
Lender’s acceptance of payments from third persons, entities or Successors in Interest of Borrower or in amounts
less than the amount then due, shall not be a waiver of or preclude the exercise of any right or remedy.
13. Joint and Several Liability; Co-signers; Successors and Assigns Bound. Borrower covenants and
agrees that Borrower s obligations and liability shall be joint and several. However, any Borrower who co-signs
this Security Instrument but does not execute the Note (a “co-signer”): (a) is co-signing this Security Instrument
only to mortgage, grant and convey the co-signer’s interest in the Property under the terms of this Security
Instrument, (b) is not personally obligated to pay the sums secured by this Security Instrument; and (c) agrees that
Lender and any other Borrower can agree to extend, modify, forbear or make any accommodations with regard to
the terms of this Security Instrument or the Note without the co-signer’s consent.
Subject to the provisions of Section 18, any Successor in Interest of Borrower who assumes Borrower’s
obligations under this Security Instrument in writing, and is approved by Lender, shall obtain all of Borrower’s
rights and benefits under this Security instrument. Borrower shall not be released from Borrower’s obligations
and liability under this Security Instrument unless Lender agrees to such release in writing. The covenants and
NEVADA-Single Family-Fannie Mac/Freddic Mac UNIFORM INSTRUMENT
(Page 8 of12 pages)

DOCUKNV3
DOCUXHV8.VTX

Form 3029 1/01

08/20/2003

/

-7
'1
\

&.AHiftCATIOH
04080067

agreements of this Security instrument shall bind (except as provided in Section 20) and benefit the successors
and assigns of Lender.
14. Loan Charges. Lender may charge Borrower fees for services performed in connection with
Borrower’s default, for the purpose of protecting Lender’s interest in the Property and rights under this Security
Instrument, including, but not limited to, attorneys’ fees, property inspection and valuation fees. In regard to any
other fees, the absence of express authority in this Security Instrument to charge a specific fee to Borrower shall
not be construed as a prohibition on the charging of such fee. Lender may not charge fees that are expressly
prohibited by this Security Instrument or by Applicable Law.
If the Loan is subject to a law which sets maximum loan charges, and that law is finally interpreted so
that the interest or other loan charges collected or to be collected in connection with the Loan exceed the
permitted limits, then: (a) any such loan charge shall be reduced by the amount necessary to reduce the charge to
the permitted limit; and (b) any sums already collected from Borrower which exceeded permitted limits will be
refunded to Borrower. Lender may choose to make this refund by reducing the principal owed under the Note or
by making a direct payment to Borrower. If a refund reduces principal, the reduction will be treated as a partial
prepayment without any prepayment charge (whether or not a prepayment charge is provided for under the Note).
Borrower’s acceptance of any such refund made by direct payment to Borrower will constitute a waiver of any
right of action Borrower might have arising out of such overcharge.
15. Notices. All notices given by Borrower or Lender in connection with this Security Instrument must
be in writing. Any notice to Borrower in connection with this Security Instrument shall be deemed to have been
given to Borrower when mailed by first class mail or when actually delivered to Borrower’s notice address if sent
by other means. Notice to any one Borrower shall constitute notice to all Borrowers unless Applicable Law
expressly requires otherwise. The notice address shall be the Property Address unless Borrower has designated a
substitute notice address by notice to Lender. Borrower shall promptly notify Lender of Borrower’s change of
address. If Lender specifies a procedure for reporting Borrower’s change of address, then Borrower shall only
report a change of address through that specified procedure. There may be only one designated notice address
under this Security Instrument at any one time. Any notice to Lender shall be given by delivering it or by mailing
it by first class mail to Lender’s address stated herein unless Lender has designated another address by notice to
Borrower. Any notice in connection with this Security Instrument shall not be deemed to have been given to
Lender until actually received by Lender. If any notice required by this Security Instrument is also required under
Applicable Law, the Applicable Law requirement will satisfy the corresponding requirement under this Security
Instrument.
16. Governing Law; Severability; Rules of Construction. This Security Instrument shall be governed
by federal law and the law of the jurisdiction in which the Property is located. All rights and obligations contained
in this Security Instrument are subject to any requirements and limitations of Applicable Law. Applicable Law
might explicitly or implicitly allow the parties to agree by contract or it might be silent, but such silence shall not
be construed as a prohibition against agreement by contract. In the event that any provision or clause of this
Security Instrument or the Note conflicts with Applicable Law, such conflict shall not affect other provisions of
this Security
Instrument or the Note which can be given effect without the conflicting provision.
As used in this Security Instrument: (a) words of the masculine gender shall mean and include
corresponding neuter words or words of the feminine gender; (b) words in the singular shall mean and include the
plural and vice versa; and (c) the word “may” gives sole discretion without any obligation to take any action.
17. Borrower’s Copy. Borrower shall be given one copy of the Note and of this Security Instrument.
18. Transfer of the Property or a Beneficial Interest in Borrower. As used in this Section 18,
“Interest in the Property” means any legal or beneficial interest in the Property, including, but not limited to, those
beneficial interests transferred in a bond for deed, contract for deed, installment sales contract or escrow
agreement, the intent of which is the transfer of title by Borrower at a future date to a purchaser.
If all or any part of the Property or any Interest in the Property is sold or transferred (or if Borrower is
not a natural person and a beneficial interest in Borrower is sold or transferred) without Lender’s prior written
consent, Lender may require immediate payment in full of all sums secured by this Security Instrument. However,
this option shall not be exercised by Lender if such exercise is prohibited by Applicable Law.
If Lender exercises this option, Lender shall give Borrower notice of acceleration. The notice shall
provide a period of not less than 30 days from the date the notice is given in accordance with Section 15 within
which Borrower must pay all sums secured by this Security Instrument. If Borrower fails to pay these sums prior
NEVADA-Single Family-Fannie Mae/Freddie Mac UNIFORM INSTRUMENT
DOCUKNV9
(Page 9 of/ 2 pages)

OOCUKNV9.VTX

Form 3029 I/O!

00/20/2003

\'7

omsoGLARIFICATION
”ay inv<,k'anyremedte pm"imd by ,hls s"uri,y !nsM WM°“
^.Borrower’s Right to Reinstate After Acceleration. If Borrower meets certain conditions, Borrower
shall have the right to have enforcement of this Security Instrument discontinued at any time prior to the earliest
ot: (a; five days before sale of the Property pursuant to any power of sale contained in this Security Instrument'
(b) such other period as Applicable Law might specify for the lamination of Borrower’s right to reinstate; or (c)
entry of a judgment enforcing this Security Instrument. Those conditions are that Borrower: (a) pays Lender all
sums which then would be due under this Security Instrument and the Note as if no acceleration had occurred' (b)
cures any default of any other covenants or agreements; (c) pays all expenses incurred in enforcing this Security
Instrument, including, but not limited to, reasonable attorneys’ fees, property inspection and valuation fees, and
o er ees incurred for the purpose of protecting Lender’s interest in the Property and rights under this Security
Instrument; and (d) takes such action as Lender may reasonably require to assure that Lender’s interest in the
Property and rights under this Security Instrument, and Borrower’s obligation to pay the sums secured by this
Security Instrument, shall continue unchanged. Lender may require that Borrower pay such reinstatement sums
and expenses in one or more of the following forms, as selected by Lender: (a) cash; (b) money order; (c) certified
check, bank check, treasurer’s check or cashier’s check, provided any such check is drawn upon an institution
whose deposits are insured by a federal agency, instrumentality or entity; or (d) Electronic Funds Transfer Upon
reinstatement by Borrower, this Security Instrument and obligations secured hereby shall remain fully effective as
if no acceleration had occurred. However, this right to reinstate shall not apply in the case of acceleration under
Section 18.
2°. Sale of Note; Change of Loan Servicer; Notice of Grievance. The Note or a partial interest in the
Note (together with this Security Instrument) can be sold one or more times without prior notice to Borrower. A
sa!e might result in a change in the entity (known as the “Loan Servicer") that collects Periodic Payments due
under the Note and this Security Instrument and performs other mortgage loan servicing obligations under the
Note, this Security Instrument, and Applicable Law. There also might be one or more changes of the Loan
Servicer unrelated to a sale of the Note. If there is a change of the Loan Servicer, Borrower will be given written
notice of the change which will state the name and address of the new Loan Servicer, the address to which
payments should be made and any other information RESPA requires in connection with a notice of transfer of
servicing. If the Note is sold and thereafter the Loan is serviced by a Loan Servicer other than the purchaser of the
Note, the mortgage loan servicing obligations to Borrower will remain with the Loan Servicer or be transferred to
a successor Loan Servicer and are not assumed by the Note purchaser unless otherwise provided by the Note
purchaser.
•
j ^ r*her Borrower nor Lender may commence, join, or be joined to any judicial action (as either an
individual litigant or the member of a class) that arises from the other party’s actions pursuant to this Security
Instrument or that alleges that the other party has breached any provision of, or any duty owed by reason of this
Security Instrument, until such Borrower or Lender has notified the other party (with such notice given in
compliance with the requirements of Section 15) of such alleged breach and afforded the other party hereto a
reasonable period after the giving of such notice to take corrective action. If Applicable Law provides a lime
period which must elapse before certain action can be taken, that time period will be deemed to be reasonable for
purposes of this paragraph The notice of acceleration and opportunity to cure given to Borrower pursuant to
Section 22 and the notice of acceleration given to Borrower pursuant to Section 18 shall be deemed to satisfy the
notice and opportunity to take corrective action provisions of th is Section 20.
, - , 21' H«ardous Substances. As used in this Section 21: (a) “Hazardous Substances” are those substances
defined as toxic or hazardous substances, pollutants, or wastes by Environmental Law and the following
substances: gasoline, kerosene, other flammable or toxic petroleum products, toxic pesticides and herbicides,
volatile solvents, materials containing asbestos or formaldehyde, and radioactive materials; (b) “Environmental
Law means federal laws and laws of the jurisdiction where the Property is located that relate to health, safety or
environmental protection; (c) “Environmental Cleanup" includes any response action, remedial action, or removal
action as defined in Eny.ronmental Law; and (d) an “Environmental Condition” means a condition that can cause,
contribute to, or otherwise trigger an Environmental Cleanup.
Borrower shall not cause or permit the presence, use, disposal, storage, or release of any Hazardous
Substances, or threaten to release any Hazardous Substances, on or in the Property. Borrower shall not do nor
ai ow anyone else to do, anything affecting the Property (a) that is in violation of any Environmental Law, (b)
which creates an Environmental Condition, or (c) which, due to the presence, use, or release of a Hazardous
Substance, creates a condition that adversely affects the value of the Property. The preceding two sentences shall
NEVADA—Singlc Family-Fannie Mae/Freddie Mac UNIFORM INSTRUMENT
(Page !0 of 12 pages)
08/20/2003

DOCUKNVIO

Form 3029 l/0t

DOCUKKVA.VTX

A

GLARifiCATlOH
.

an

04080067

*

use> or storage on the Property of small quantities of Hazardous Substances that are

“ n'a",enan“of ,hc p,ope,,y (i“'udin&

l

Substance or Environmental Law of which Borrower has actual knowledge, (b) any Environmental Condition
SuLlnrp
Im,ted .t0:
leak,n8. discharge, release or threat of release of any Hazardous
id (Kaly D°nd,tl°n “used by the Presence> use or Please of a Hazardous Substance which adversely
a^ nrivare'"^0^?! Pr0perty' Ifforro'fr Iearns> or is notified by any governmental or regulatory authority, or
any private party, that any removal or other remediation of any Hazardous Substance affecting the Property is
necessary, Borrower shall promptly take all necessary remedial actions in accordance with Environmental Law.
Nothing herein shall create any obligation on Lender for an Environmental Cleanup.
NON-UNIFORM COVENANTS. Borrower and Lender further covenant and agree as follows:

“he JiehuEL a cn”°!ieet
r
i"f<>r,n B°rr0wer of the ri8ht
reinstate after acceleration and
the right to bring a court action to assert the non-existence of a default or any other defense of Borrower to
acceleration and sale. If the default is not cured on or before the date specified in the notice, Lender at its
na™t"df 7h
demand’ may invoke the P°wer of sale, including the right to accelerate full
coH^t allex^nc«°-e’
other remedies permitted by Applicable Law. Lender shall be entitled to
collect all expenses incurred m pursuing the remedies provided in this Section 22, including, but not limited
to, reasonable attorneys fees and costs of title evidence.
ff Lender iavokcs the Power of sale, Lender shall execute or cause Trustee to execute written notice
of the occurrence of an event of default and of Lenders’ election to cause the Property to be sold, and shall
n°f T f° ^ recorded ,n. each county in which ar>y Part of the Property is located. Lender shall
Annii,X! .
V r as P.yesoribed by Applicable Law to Borrower and to the persons prescribed by
Ann
1L
T*
? 3,1 g,ve pub,ic notice of sale *° the persons and in the manner prescribed by
cAPpl’Cab'e Law‘ After the t,me squired by Applicable Law, Trustee, without demand on Borrower, shall
sell the Property at public auction to the highest bidder at the time and place and under the terms
designated in the notice of sale in one or more parcels and in any order Trustee determines. Trustee may
postpone sa'e of all or any parcel of the Property by public announcement at the time and place of any
previously scheduled sale. Lender or its designee may purchase the Property at any sale.
Trustee shall deliver to the purchaser Trustee’s deed conveying the Property without any covenant
°rJmplied: Thc recita,s in the Trus‘ee’s deed shall be prima facie evidence of the
o the statements made therein. 1 rustee shall apply the proceeds of the sale in the following order: (a)
a expenses of the sale, including, but not limited to, reasonable Trustee’s and attorneys’ fees; (b) to all
sums secured by this Security Instrument; and (c) any excess to the person or persons legally entitled to it
T ■ . ,
reconveyance. Upon payment of all sums secured by this Security Instrument, Lender shall request
Trustee to reconvey the Property and shall surrender this Security Instrument and all notes evidencingdebt
nr ncrl^ L 'SneCUn^ !?Strp™nt
Trustee shall reconvey the Property without warranty to the person
person or neSiys » fr “ f
^
°^persons sha11 Pay anV recordation costs. Lender may charge such
person or persons a fee for reconveying the Property, but only if the fee is paid to a third party (such as the
Tmstee) for services rendered and the charging of the fee is permitted under Applicable Law.
■ „
, Substltu,c Trustee. Lender at its option, may from time to time remove Trustee and appoint a
successor trustee to any Trustee appointed hereunder. Without conveyance of the Property, the successor trustee
shall succeed to all the title, power and duties conferred upon Trustee herein and by Applicable Law
25. Assumption Fee. If there is an assumption of this loan, Lender may charge an assumption fee of U S
$

NEVADA--Single Pami'ly-Fiinnie Mne/Frcddie Mac UNIFORM INSTRUMENT
(Page U of 12 pages)

DOClIKNVIc
OOOJftWVB.VTX 08/20/2003

Form 3029 1/01

%

\^7
\

CLARIFICATION
c
„ PY. SIGNING BELOW, Borrower accepts and agrees to the terms and covenants contained in this
security Instrument and m any Rider executed by Borrower and recorded with it.
7 BORROWER - SALMA H. KHAN - DATE

jSpace Below This Line For Acknowledgment]
STATE OF NEVADA
COUNTY OF CLARK

This instrument was acknowledged before me on
by

Notary Public

Title (and Rank)
NEVADA-Single Family-Fannic Mae/Freddie Mac UNIFORM INSTRUMENT
(Page 12 of 12 pages)
08/20/2003

DOCUKNVI2
DOCUKNVC.VTX

Form 3029 1/01

CLARIFICATION

ADJUSTABLE RATE RIDER
(LIBOR Six-Month Index (As Published In The Wall Street Jaurnaiy-Ratc Gaps)
THIS ADJUSTABLE RATE RIDER is made this 18TH
day of AUGUST, 2004
and is incorporated into and shall be deemed to amend and supplement the Mortgage, Deed of Trust, or Security
Deed (the “Security Instrument”) of the same date given by the undersigned (“Borrower”) to secure Borrower’s
Adjustable Rate Note (the “Note”) to PACIFIC COMMUNITY MORTGAGE INC. A CALIFORNIA
CORPORATION
(“Lender”) of the same date and covering the property described in the Security Instrument and located at:
1967 CHERRY CREEK CIRLCE IAS VEGAS, NV 89135

[Property Address)
THE NOTE CONTAINS PROVISIONS ALLOWING FOR CHANGES IN THE
INTEREST RATE AND THE MONTHLY PAYMENT. THE NOTE LIMITS THE
AMOUNT BORROWER’S INTEREST RATE CAN CHANGE AT ANY ONE TIME AND
THE MAXIMUM RATE BORROWER MUST PAY.
ADDITIONAL COVENANTS. In addition to the covenants and agreements made in the Security
Instrument, Borrower and Lender further covenant and agree as followsA. INTEREST RATE AND MONTHLY PAYMENT CHANGES
The Note provides for an initial interest rate of
5.000
%. The Note provides for
changes in the interest rate and the monthly payments, as follows:
4. INTEREST RATE AND MONTHLY PAYMENT CHANGES
(A) Change Dates
The interest rate I will pay may change on the first day of
SEPTEMBER, 2007
and on that day
every
6
month thereafter. Each date on which my interest rate could change is called a “Change
Date.”
(B) The Index
MULTISTATE ADJUSTABLE RATE RIDER - I.IBOR SIX-MONTH INDEX (as published in THE WALL STREET JOURNAL
(page 1 of 3)
Single Family Fannie Mae Uniform Instrument
11/20/2000

DOCUATOCI
OOGUARX1.VTX

FORM 3138 01/01

O
\

CLARIFICATION

Beginning with the first Change Date, my interest rate will be based on an Index. The “Index” is the
average of interbank offered rates for six month U.S. dollar-denominated deposits in the London market “LIBOR”)
as published m The Wall Street Journal. The most recent Index figure available as of the first business day of the
month immediately preceding the month in which the Change Date occurs is called the “Current Index."
• r
If the Index is no longer available, the Note Holder will choose a new index that is based upon comparable
information. The Note Holder will give me notice of this choice.
(C) Calculation of Changes
Before each Change Dale, the Note Holder will calculate my new interest rate by adding TWO AND ONE-POURTH
percentage points (
2.250
%) to the Current Index. The Note Holder will then round the result of
this addition to the nearest one-eighth of one percentage point (0.125%). Subject to the limits stated in Section 4(D)
below, this rounded amount will be my new interest rate until the next Change Date.
The Note Holder will then determine the amount of the monthly payment that would be sufficient to repay the
unpaid principal that I am expected to owe at the Change Date in full on the Maturity Date at my new interest rate in
substantially equal payments. The result of this calculation will be the new amount of my monthly payment
(D) Limits on Interest Rate Changes
The interest rate I am required to pay at the first Change Date will not be greater than 11.000
% or
less than 2.250
%. Thereafter, my interest rate will never be increased or decreased on any single Change
Date by more than TWO
percentage points ( 2.000
%) from the rate of interest I have '
been paying for the preceding 6
months. My interest rate will never be greater than n . 000
%.
(E) Effective Date of Changes
My new interest rate will become effective on each Change Date. I will pay the amount of my new monthly
payment beginning on the first monthly payment date after the Change Date until the amount of my monthly
payment changes again.
(F) Notice of Changes
The Note Holder will deliver or mail to me a notice of any changes in my interest rate and the amount of
my monthly payment before the effective date of any change. The notice will include information required by law to
be given to me and also the title and telephone number of a person who will answer any question I may have
regarding the notice.
B. TRANSFER OF THE PROPERTY OR A BENEFICIAL INTEREST IN BORROWER
Uniform Covenant 18 of the Security Instrument is amended to read as follows:
Transfer of the Property or a Beneficial Interest in Borrower. As used in this Section
18, Interest in the Property” means any legal or beneficial interest in the Property, including, but
not limited to, those beneficial interests transferred in a bond for deed, contract for deed,
installment sales contract or escrow agreement, the intent of which is the transfer of title by
Borrower at a future date to a purchaser.
If all or any part of the Property or any Interest in the Property is sold or transferred (or if
Borrower is not a natural person and a beneficial interest in Borrower is sold or transferred)
without Lender s prior written consent, Lender may require immediate payment in full of all___
sums
secured by this Security instrument. However, this option shall not be exercised by Lender if such
exercise is prohibited by Applicable Law. Lender also shall not exercise this option if: (a)
Borrower causes to be submitted to Lender information required by Lender to evaluate the
intended transferee as if a new loan were being made to the transferee; and (b) Lender reasonably
determines that Lender’s security will not be impaired by the loan assumption and that the risk of
a breach of any covenant or agreement in this Security Instrument is acceptable to Lender.
To the extent permitted by Applicable Law, Lender may charge a reasonable fee as a
condition to Lender s consent to the loan assumption. Lender also may require the transferee to
sign an assumption agreement that is acceptable to Lender and that obligates the transferee to keep
all the promises and agreements made in the Note and in this Security Instrument. Borrower will
continue to be obligated under the Note and this Security Instrument unless Lender releases
Borrower in writing.
If Lender exercises the option to require immediate payment in full, Lender shall give
Borrower notice of acceleration. The notice shall provide a period of not less than 30 days from
the date the notice is given in accordance with Section 15 within which Borrower must pay all
MUl.TISTA TE ADJUSTABLE RATE RIDER - LIBOR SIX-MONT1I INDEX (as published in THE WALL STREET JOURNAL
ooCTMUaafvex 15/28/2000
(page 2 of 3)
Single Family Fannie Mac Uniform Instrument

FORM 3138 01/01

\

VN
\

sums secured by this Security Instrument. If Borrower fails to pay these sums prior to the
expiration of this period, Lender may invoke any remedies permitted by this Security Instrument
without further notice or demand on Borrower.

CLARIFICATION
BY SIGNING BELOW, Borrower accepts and agrees to the terms and covenants contained in this
Adjustable Rate Rider.
BORROWER

SALMA H. KHAN - DATE

MULTISTATE ADJUSTABLE RATE RIDER - LIBOR SIX-MONTH INDEX (as published in Till; WALL STREET JOURNAL
10/02/2002
.(page 3 of 3)
Single Family Fannie Mac Uniform Instrument

docu;-rt.3 i'vTX

FORM 3138 01/01

\

CLARIFICATION

PLANNED UNIT DEVELOPMENT RIDER

KHAN
LOAN #: 04080067
MIN:
100121700040800671
THIS PLANNED UNIT DEVELOPMENT RIDER is made this 18TH day of AUGUST 2004
and is incorporated into and shall be deemed to amend and supplement the Mortgage, Deed of Trust, or Security
Deed (the “Security Instrument”) of the same date, given by the undersigned (the “Borrower”) to secure
Borrower’s Note to PACIFIC COMMUNITY MORTGAGE INC. A CALIFORNIA CORPORATION

(the “Lender”) of the same date and covering the Property described in the Security Instrument and located at:
1967 CHERRY CREEK CIRLCE, LAS VEGAS, NV 89135
[Property Address]
The Property includes, but is not limited to, a parcel of land improved with a dwelling, together with other such
parcels and certain common areas and facilities, as described in
P.ROPERTYNANTS' C0NDITIC>NS AND RESTRICTIONS FILED OF RECORD THAT AFFECT THE

RED rckIk^countki? club^ *S 3 ^art

3 P*anne<^ un‘t development known as

[Name of Planned Unit Development]
(the PUD ). The Property also includes Borrower’s interest in the homeowners association or equivalent entity
owning or managing the common areas and facilities of the PUD (the “Owners Association”) and the uses
benefits and proceeds of Borrower’s interest.
PUD COVENANTS. In addition to the covenants and agreements made in the Security
Instrument, Borrower and Lender further covenant and agree as follows:
A. PUD Obligations. Borrower shall perform all of Borrower’s obligations under the
PUD’s Constituent Documents. The “Constituent Documents” are the (i) Declaration; (ii)
articles of incorporation, trust instrument or any equivalent document which creates the Owners
Association; and (iii) any by-laws or other rules or regulations of the Owners Association.
Borrower shall promptly pay, when due, all dues and assessments imposed pursuant to the
Constituent Documents.

MULTISTATE PUD RIDER-Singlc Family-Fannie Mae/Frcddie Mac UNIFORM INSTRUMENT Form 3150 1/01
(page l of 3 pages)
10/13/2003

DOCURPAl
DOCURPAi. VTX

\

GLARIFICATlOf*

04080067

B. Property Insurance. So long as the Owners Association maintains, with a generally
accepted insurance carrier, a “master” or “blanket” policy insuring the Property which is
satisfactory to Lender and which provides insurance coverage in the amounts (including
deductible levels), for the periods, and against loss by fire, hazards included within the term
“extended coverage,” and any other hazards, including, but not limited to, earthquakes and
floods, for which Lender requires insurance, then: (i) Lender waives the provision in Section 3
for the Periodic Payment to Lender of the yearly premium installments for property insurance on
the Property, and (ii) Borrower s obligation under Section 5 to maintain property insurance
coverage on the Property is deemed satisfied to the extent that the required coverage is provided
by the Owners Association policy.
What Lender requires as a condition of this waiver can change during the term of the loan.
Borrower shall give Lender prompt notice of any lapse in required property insurance
coverage provided by the master or blanket policy.
In the event of a distribution of property insurance proceeds in lieu of restoration or
repair following a loss to the Property, or to common areas and facilities of the PUD, any
proceeds payable to Borrower are hereby assigned and shall be paid to Lender. Lender shall
apply the proceeds to the sums secured by the Security Instrument, whether or not then due, with
the excess, if any, paid to Borrower.
C. Public Liability Insurance. Borrower shall take such actions as may be reasonable to
insure that the Owners Association maintains a public liability insurance policy acceptable in
form, amount, and extent of coverage to Lender.
D. Condemnation. The proceeds of any award or claim for damages, direct or
consequential, payable to Borrower in connection with any condemnation or other taking of all
or any part of the Property or the common areas and facilities of the PUD, or for any conveyance
in lieu of condemnation, are hereby assigned and shall be paid to Lender. Such proceeds shall be
applied by Lender to the sums secured by the Security Instrument as provided in Section 11.
E. Lender’s Prior Consent. Borrower shall not, except after notice to Lender and with
Lender s prior written consent, either partition or subdivide the Property or consent to: (i) the
abandonment or termination of the PUD, except for abandonment or termination required by law
in the case of substantial destruction by fire or other casualty or in the case of a taking by
condemnation or eminent domain; (ii) any amendment to any provision of the “Constituent
Documents” if the provision is for the express benefit of Lender; (iii) termination of professional
management and assumption of self-management of the Owners Association; or (iv) any action
which would have the effect of rendering the public liability insurance coverage maintained by
the Owners Association unacceptable to Lender.
F. Remedies. If Borrower does not pay PUD dues and assessments when due, then
Lender may pay them. Any amounts disbursed by Lender under this paragraph F shall become
additional debt of Borrower secured by the Security Instrument. Unless Borrower and Lender
agree to other terms of payment, these amounts shall bear interest from the date of disbursement
at the Note rate and shall be payable, with interest, upon notice from Lender to Borrower
requesting payment.

MULTISTATE PUD RIDER-Singlc Famity-Fannie Mae/Frcddie Mac UNIFORM INSTRUMENT Form 3150 1/01
(page 2 of3 pages)
10/13/2003

DOCURPA2
DOCURPA2.VTX

VA

\A
\

GLARIFICATIOfo
BY SIGNING BELOW, Borrower accepts and agrees to the terms and provisions contained in this PUD Rider.
BORROWER - SALMA H. KHAN

DATE

MULTISTATE PUD RIDER—Single Family—Fannie Mae/Freddic Mae UNIFORM INSTRUMENT Form 3IS0 1A)I
(page 3 of3 pages)
10/13/2003

DOCURPA3
OOCUHPA3 .VTX

CLARtFICA Yt It (4

SECOND HOME RIDER
KHAN
LOAN #: 04080067
MIN:
100121700040800671

THIS SECOND HOME RIDER is made on this 18TH
day of AUGUST, 2004
and is incorporated into and shall be deemed to amend and supplement the Mortgage, Deed of Trust, or Security*
Deed (the "Security Instrument") of the same date given by the undersigned (the "Borrower," whether there are
one or more persons undersigned) to secure Borrower's Note to
PACIFIC COMMUNITY MORTGAGE INC. A

CALIFORNIA CORPORATION

(the "Lender") of the same date and covering the property described in the Security Instrument (the "Property"),
which is located at:
1967 CHERRY CREEK CIRLCE, LAS VEGAS, NV 89135
(Property Address)

In addition to the covenants and agreements made in the Security Instrument, Borrower and Lender further
covenant and agree that Sections 6 and 8 of the Security Instrument are deleted and are replaced by the following:
6. Occupancy. Borrower shall occupy, and shall only use, the Property as Borrower's second home.
Borrower shall keep the Property available for Borrower's exclusive use and enjoyment at all times, and
shall not subject the Property to any timesharing or other shared ownership arrangement or to any rental
pool or agreement that requires Borrower either to rent the Property or give a management firm or any
other person any control over the occupancy or use of the Property.
8. Borrower’s Loan Application. Borrower shall be in default if, during the Loan application process,
Borrower or any persons or entities acting at the direction of Borrower or with Borrower’s knowledge or
consent gave materially false, misleading, or inaccurate information or statements to Lender (or failed to
provide Lender with material information) in connection with the Loan. Material representations
include, but are not limited to, representations concerning Borrower’s occupancy of the Property as
Borrower’s second home.

MIJI.TISTATE SECOND HOME RIDER- Single Family-Fannie Mae/Frcddic Mac UNIFORM INSTRUMENT

DOCURSAl
OOCUftSAl.VTX 11/28/2003

Page I of J
B
U “

Form 3890 I/O!

\

04080067

CLARIFICATION

BY SIGNING BELOW, Borrower accepts and agrees to the terms and provisions contained in this
Second Home Rider.

BORROWER - SALMA H. KHAN

DATE

MULTIS TATE SECOND HOME RFDER- Single Family-Fannie Mac/Kreddic Mac UNIFORM INSTRUMENT
DOCURSA2
DOCURSA2.VTX 11/28/2003

PflOf' 7 r»f 7
1
tUI ^

Form 3890 1/01

A

CLARIFICATION

ADDENDUM TO ADJUSTABLE RATE RIDER
LOAN #:

This addendum is made AUGUST 18 , 2004
deemed to amend and supplement the Adjustable Rate Rider of the same date.

and

is

04060067

incorporated

into

and

The property covered by this addendum is described in the Security Instrument and located at:
1967 CHERRY CREEK CIRLCE LAS VEGAS, NV 89135
AMENDED PROVISIONS
In addition to the provisions and agreements made in the Security Instrument, 1/we further covenant and
agree as follows:

ADJUSTABLE INTEREST RATE AND MONTHLY PAYMENT CHANGES
Limits on Interest Rate Changes
The interest rate i am required to pay at the first Change Date will not be greater than 11.000
%
or
less than 2.250
%. Thereafter, my adjustable interest rate will never be increased or decreased on any
single Change Date by more than TWO AND 00/100
percentage points)
( 2.000
%) from the rate of interest I have been paying for the preceding six (6) months. My interest rate
will never be greater than 11.000
%. My interest rate will never be less than 2.250
%.
TRANSFER OF THE PROPERTY OR A BENEFICIAL INTEREST IN BORROWER
Uniform Covenant 18 of the Security Instrument is amended to read as follows:
Transfer of the Property or a Beneficial Interest in Borrower. As used in this Section 18, “Interest in
the Property” means any legal or beneficial interest in the Property, including, but not limited to, those beneficial
interests transferred in a bond for deed, contract for deed, installment sales contract or escrow agreement, the intent
of which is the transfer of title by Borrower at a future date to a purchaser.
if all or any part of the Property or any Interest in the Property is sold or transferred (or if Borrower is not a
natural person and a beneficial interest in Borrower is sold or transferred) without Lender’s prior written consent,
Lender may require immediate payment in full of all sums secured by this Security Instrument. However, this
option shall not be exercised by Lender if such exercise is prohibited by Applicable Law.

1202 ADDKNDUM TO R1DRR
DOCUN7G]
DOCW7G1 .VTX

03/31/2003

Page l of 2

\VA

Y

04080067

CLARIFICATION

If Lender exercises this option, Lender shall give Borrower notice of acceleration. The notice shall provide
a period of not less than 30 days from the date the notice is given in accordance with Section 15 within which
Borrower must pay all sums secured by this Security Instrument. If Borrower fails to pay these sums prior to the
expiration of this period, Lender may invoke any remedies permitted by this Security Instrument without further
notice or demand on Borrower.
BY SIGNING BELOW, Borrower accepts and agrees to the terms and covenants contained in this
addendum.

BORROWER - SALMA H. KHAN

DATE

1202 ADDENDUM TO RIDER
Page 2 of2

DOCUN7G2
DOCUN7G2.V7X

04/03/2003

PREPAYMENT RIDER
(Multi-state)

clarification

This Prepayment Rider is made this 18TH day of AUGUST, 2004
and is incorporated into and shall be
deemed to amend and supplement the Mortgage, Deed of Trust or Security Deed (the “Security Instrument") of the same date
given by the undersigned (the “Borrower”) to secure Borrower’s Note (the “Note”) to PACIFIC COMMUNITY MORTGAGE
INC. A CALIFORNIA CORPORATION
(the Lender”) of the same date and covering the property described in the Security Instrument and located at
1967 CHERRY CREEK CIRLCE LAS VEGAS, NV 89135
(the “Property”).
Additional Covenants. Notwithstanding anything to the contrary set forth in the Note or Security Instrument
Borrower and Lender further covenant and agree as follows:
Borrower has the right to make payments of principal at any time before they are due. A payment of
principal only is known as a “prepayment.” A “full prepayment” is the prepayment of the entire unpaid principal due
under the Note. A payment of only part of the unpaid principal is known as a “partial prepayment.”
If, within the EIGHT
-month period beginning with the date Borrower
executes the Note (the “Penalty Period”), Borrower makes a full prepayment, or partial prepayment in any
twelve (12)-month period that exceeds 20 % of the original principal loan amount, Borrower will pay a
prepayment charge as consideration for the Note Holder’s acceptance of such prepayment, The prepayment
charge will equal the amount of interest that would accrue during a six (6)-month period on the amount
prepaid that exceeds 20% of the original principal balance of the Note, calculated at the rate of interest in
effect under the terms of the Note at the time of the prepayment, unless otherwise prohibited by applicable law
or regulation. No prepayment charge will be assessed for any prepayment occurring after the Penalty Period.
Notwithstanding the foregoing, in the event of a full prepayment concurrent with a bona fide sale of the
Property to an unrelated third party after the first
eight
month(s) of the term of the Note, no
prepayment penalty will be assessed. In that event, Borrower agrees to provide the Note Holder with evidence
acceptable to the Note Holder of such sale.
By signing below, Borrower accepts and agrees to the terms and covenants contained in this Prepayment Rider.

* BORROWER - SALMA H. KHAN

DATE

AO
■DOCL-H63
DOCUHS3.VTX

\“7
0S/l'6/2002

EXHIBIT C
Docket Report of Appeal

151-163

(just in case records get altered/changed following
filing of Writ)

WRIT OF CERTIORARI (Originating Ninth Circuit Case 18-15202)

1/20/2021

18-15202 Docket
General Docket
United States Court of Appeals for the Ninth Circuit
Docketed: 02/08/2018
Termed: 11/09/2020

Court of Appeals Docket #: 18-15202
Nature of Suit: 3290 Other Real Property Actions
Salma Agha-Khan v. Pacific Community Mortgage, In, et al
Appeal From: U.S. District Court for Nevada, Las Vegas
Fee Status: Paid
Case Type Information:
1) civil
2) private
3) null
Originating Court information:
District: 0978-2:2:16-cv-01124-JCM-NJK
Trial Judge: James C. Mahan, Senior District Judge
Date Filed: 05/19/2016
Date Order/Judgment:
Date Order/Judgment EOD:

01/23/2018
Prior Cases:
17-15958

01/23/2018
Date Filed: 05/10/2017

Date Disposed: 06/14/2017

Date NOA Filed:

Date Rec'd COA:

02/06/2018

02/07/2018

Disposition: Dismissed - Judge Order

Current Cases:
None

SALMA AGHA-KHAN, M.D., M.D.
Plaintiff - Appellant,

Salma Agha-Khan, M.D.
Direct: 949-332-0330
[NTC Pro Se]
3751 Motor Avenue
Box 34727
Los Angeles, CA 90034

v.
PACIFIC COMMUNITY MORTGAGE, INC., a suspended California
Corporation, its successors and assigns
Defendant - Appellee,
GOLD REVERSE, INC., a dissolved California Corporation
Defendant - Appellee,
KURT KINGSOLVER, an individual, and as agent for Pacific
Community Mortgage Co. Inc., and as agent for Gold Reverse Inc
Defendant - Appellee,

Marilyn Fine, Attorney
Direct: 702-791-0308
[COR NTC Retained]
Holley Driggs Walch Fine Puzey Stein & Thompson
400 S. Fourth Street
Suite 300
Las Vegas, NV 89101

QUALITY LOAN SERVICE CORP, a California corporation-form
unknown
Defendant - Appellee,

Kristin A. Schuler-Hintz
Direct: 702-685-0329
[COR LD NTC Retained]
McCarthy & Holthus, LLP
Suite # 200
9510 W. Sahara Avenue
Las Vegas, NV89117

BOBBY IRIAS, an individual and as agent for Quality Loan Service
Corp.
Defendant - Appellee,
RONALD ALONZO, an individual, and as authorized agent of
Quality Loan Service Corp
Defendant-Appellee,

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

Kristin A. Schuler-Hintz
Direct: 702-685-0329
[COR LD NTC Retained]
(see above)

1
1/12

1/20/2021

18-15202 Docket

BEE VANG, an individual and as agent for Quality Loan Service
Corp
Defendant - Appellee,

Kristin A. Schuler-Hintz
Direct: 702-685-0329
[COR LD NTC Retained]
(see above)

MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.
Defendant - Appellee,

Colt B. Dodrill, Attorney
Direct: 602-953-0100
[COR LD NTC Retained]
Wolfe & Wyman LLP
Suite 3031
11811 N. Tatum Blvd.
Phoenix, AZ 85028

MARY JANE SARNE, an individual and as Vice President of
Mortgage Electronic Registration Systems, Inc.
Defendant-Appellee,

Kristin A. Schuler-Hintz
Direct: 702-685-0329
[COR LD NTC Retained]
(see above)

TRISHA MCMULLIN, agent for Aurora Loan Services
Defendant - Appellee,

Colt B. Dodrill, Attorney
Direct: 602-953-0100
[COR LD NTC Retained]
(see above)

THEODORE SCHULTZ, an individual and as Vice President of
Mortgage Electronic Registration Systems, Inc
Defendant - Appellee,

Colt B. Dodrill, Attorney
Direct: 602-953-0100
[COR LD NTC Retained]
(see above)

SERVICELINK, a business organization form unknown
Defendant - Appellee,

Marni Rubin Watkins, Esquire, Attorney
Direct: 702-667-3000
[COR LD NTC Retained]
Fidelity National Law Group
1701 Village Center Circle
Suite 110
Las Vegas, NV 89134

SERVICE-IRVINE, a business organization form unknown
Defendant - Appellee,

Marni Rubin Watkins, Esquire, Attorney
Direct: 702-667-3000
[COR LD NTC Retained]
(see above)

AURORA LOAN SERVICES
Defendant - Appellee,

Colt B. Dodrill, Attorney
Direct: 602-953-0100
[COR LD NTC Retained]
(see above)

FIDELITY NATIONAL TITLE
Defendant - Appellee,

Marni Rubin Watkins, Esquire, Attorney
Direct: 702-667-3000
[COR LD NTC Retained]
(see above)

STEVEN JOE, an individual
Defendant - Appellee,

Ogonna M. Brown
Direct: 702-474-2622
[COR LD NTC Retained]
Lewis Roca Rothgerber Christie LLP
3993 Howard Hughes Parkway
Suite 600
Las Vegas, NV 89169
Andrea M. Gandara, Esquire, Attorney
Direct: 702-791-0308
[COR NTC Retained]
Holley Driggs Walch Fine Puzey Stein & Thompson
400 S. Fourth Street
Suite 300
Las Vegas, NV 89101

MICHAEL MCNEILL, an individual
Defendant - Appellee,
https://ecf.ca9.uscourts.goV/n/beam/servlet/TransportRoom

Ogonna M. Brown
Direct: 702-474-2622
2/12

1/20/2021

18-15202 Docket
[COR LD NTC Retained]
(see above)
Andrea M. Gandara, Esquire, Attorney
Direct: 702-791-0308
[COR NTC Retained]
(see above)

JULIANN MCNEILL
Defendant - Appellee,

Ogonna M. Brown
Direct: 702-474-2622
[COR LD NTC Retained]
(see above)
Andrea M. Gandara, Esquire, Attorney
Direct: 702-791-0308
[COR NTC Retained]
(see above)

CHRISTOPHER J. FLAHARTY
Defendant - Appellee,

Carleton Ray Burch, Esquire
Direct: 213-688-0080
[COR LD NTC Retained]
Anderson, McPharlin & Conners LLP
707 Wilshire Boulevard
Suite 4000
Los Angeles, CA 90017-3623

NICHOLE R. FLAHARTY
Defendant-Appellee,

Carleton Ray Burch, Esquire
Direct: 213-688-0080
[COR LD NTC Retained]
(see above)

WELLS FARGO BANK, N.A., a US national bank
Defendant-Appellee,

Alayne M. Opie, Esquire, Attorney
Direct: 702-792-3773
[COR LD NTC Retained]
Greenberg Traurig, P.A
10845 Griffith Peak Drive
Suite 600
Las Vegas, NV 89135

WELLS FARGO FINANCIAL NATIONAL BANK, a US bank
Defendant - Appellee,

Kelly Harrison Dove, Esquire, Attorney
Direct: 702-784-5286
[COR LD NTC Retained]
Snell & Wilmer, LLP
Firm: (702) 784-5200
3883 Howard Hughes Parkway
Suite 1100
Las Vegas, NV 89169

FLAHARTY FAMILY TRUST, a trust including subject property
Defendant - Appellee,

Carleton Ray Burch, Esquire
Direct: 213-688-0080
[COR LD NTC Retained]
(see above)

AMERICAN SECURITIES COMPANY OF NEVADA, a company
form unknown
Defendant-Appellee,
NOBLE TITLE, a Title company in Nevada
Defendant - Appellee,

Aaron D. Lovaas, Attorney
Direct: 702-777-7500
[COR LD NTC Retained]
Newmeyer & Dillion LLP
3800 Howard Hughes Parkway
Suite 700
Las Vegas, NV 89169

WILLIAM GO, an individual and Realtor in Prudential Americana
Group
Defendant-Appellee,

Darren J. Welsh
Direct: 702-733-9310
[COR LD NTC Retained]
Darren J. Welsh Chartered
Suite 2

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

3/12

1/20/2021

18-15202 Docket
6765 S. Eastern Avenue
Las Vegas, NV 89119

PRUDENTIAL AMERICANA GROUP, a real estate company
Defendant - Appellee,

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

Darren J. Welsh
Direct: 702-733-9310
[COR NTC Retained]
(see above)

4/12

1/20/2021

18-15202 Docket

SALMA AGHA-KHAN, M.D., M.D.,
Plaintiff-Appellant,
v.
PACIFIC COMMUNITY MORTGAGE, INC., a suspended California Corporation, its successors and assigns; GOLD REVERSE, INC., a
dissolved California Corporation; KURT KINGSOLVER, an individual, and as agent for Pacific Community Mortgage Co. Inc., and as
agent for Gold Reverse Inc; QUALITY LOAN SERVICE CORR, a California corporation-form unknown; BOBBY IRIAS, an individual and
as agent for Quality Loan Service Corp.; RONALD ALONZO, an individual, and as authorized agent of Quality Loan Service Corp; BEE
VANG, an individual and as agent for Quality Loan Service Corp; MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.; MARY
JANE SARNE, an individual and as Vice President of Mortgage Electronic Registration Systems, Inc.; TRISHA MCMULLIN, agent for
Aurora Loan Services; THEODORE SCHULTZ, an individual and as Vice President of Mortgage Electronic Registration Systems, Inc;
SERVICELINK, a business organization form unknown; SERVICE-IRVINE, a business organization form unknown; AURORA LOAN
SERVICES; FIDELITY NATIONAL TITLE; STEVEN JOE, an individual; MICHAEL MCNEILL, an individual; JULIANN MCNEILL;
CHRISTOPHER J. FLAHARTY; NICHOLE R. FLAHARTY; WELLS FARGO BANK, N.A., a US national bank; WELLS FARGO
FINANCIAL NATIONAL BANK, a US bank; FLAHARTY FAMILY TRUST, a trust including subject property; AMERICAN SECURITIES
COMPANY OF NEVADA, a company form unknown; NOBLE TITLE, a Title company in Nevada; WILLIAM GO, an individual and
Realtor in Prudential Americana Group; PRUDENTIAL AMERICANA GROUP, a real estate company,
Defendants - Appellees.

Vo
\

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoorn

5/12

1/20/2021

02/08/2018

18-15202 Docket

Q_
1
21 pg, 596.62 kb

02/28/2018 Q 2
2 pg, 263.47 kb

DOCKETED CAUSE AND ENTERED APPEARANCES OF COUNSEL AND PRO SE APPELLANT.
SEND MQ: No. The schedule is set as follows: Appellant Salma Agha-Khan opening brief due
04/10/2018. Appellees Ronald Alonzo, American Securities Company of Nevada, Aurora Loan Services,
Fidelity National Title, Christopher J. Flaharty, Nichole R. Flaharty, Flaharty Family Trust, William Go, Gold
Reverse, Inc., Bobby Irias, Steven Joe, Kurt Kingsolver, Trisha McMullin, Juliann McNeill, Michael
McNeill, Mortgage Electronic Registration Systems, Inc., Noble Title, Pacific Community Mortgage, Inc.,
Prudential Americana Group, Quality Loan Service Corp., Mary Jane Same, Theodore Schultz, ServiceIrvine, Servicelink, Bee Vang, Wells Fargo Bank, N.A. and Wells Fargo Financial National Bank answering
brief due 05/10/2018. Appellant's optional reply brief is due 21 days after service of the answering brief.
[10756672] (RT) [Entered: 02/08/2018 01:51 PM]
Filed clerk order (Deputy Clerk: MF): It appears that the district court’s order challenged in this appeal
may not have disposed of the action as to all claims and all parties. Within 21 days after the date of this
order, appellant shall move for voluntary dismissal of this appeal or show cause why it should not be
dismissed for lack of jurisdiction. See Fed. R. Civ. P. 54(b); Chacon v. Babcock, 640 F.2d 221 (9th Cir.
1981). If appellant elects to show cause, a response may be filed within 10 days after service of the
memorandum. If appellant does not comply with this order, the Clerk shall dismiss this appeal pursuant to
Ninth Circuit Rule 42-1. Briefing is suspended pending further order of the court. [10780676] (CKP)
[Entered: 02/28/2018 10:46 AM]

05/24/2018

Q 3
1 pg, 183.55 kb

Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
02/28/2018).This order served on the district court shall, 21 days after the date of the order, act as the
mandate of this court. [10884254] (CKP) [Entered: 05/24/2018 09:30 AM]

06/13/2018

Q 4
11 pg, 137.05 kb

Filed Appellant Salma Agha-Khan, M.D. motion to reinstate case after FRAP 42-1 dismissal, to stay the
mandate. Deficiencies: None. Served on 06/13/2018. [10908793] (CW) [Entered: 06/14/2018 11:11 AM]

07/30/2018 Q 5
2 pg, 255.82 kb

08/10/2018 Q 6
9 pg, 387.77 kb

09/07/2018

□
6 pg, 63.88 KB

09/19/2018

□ 8
2 pg, 271.37 kb

Filed clerk order (Deputy Clerk: MF): On May 24, 2018, the court dismissed this appeal for failure to
prosecute because appellant had not responded to the February 28, 2018 order to show cause. See 9th
Cir. R. 42-1. Appellant has now responded to the order to show cause. The motion to reinstate this appeal
is granted (Docket Entry No. [4]). The May 24, 2018 order is vacated, and the appeal is reinstated. The
court’s February 28, 2018 order to show cause and any pending motions will be addressed by separate
order. Briefing remains suspended pending further court order. [10959521] (AF) [Entered: 07/30/2018
01:52 PM]
Filed order (Appellate Commissioner): On July 31, 2018, the district court entered a final judgment
dismissing the remaining parties to the underlying action. Accordingly, the February 28, 2018 order to
show cause is discharged. See Fidelity & Deposit Co. v. City of Adelanto, 87 F.3d 334, 336 (9th Cir. 1996)
(premature appeal from district court’s dismissal order cured by dismissal of remaining parties); see also
Anderson v. Allstate Ins. Co., 630 F.2d 677, 680-81 (9th Cir. 1980). If appellant wishes to challenge the
dismissal of the remaining parties, appellant must file a new notice of appeal within the time limits
prescribed by Federal Rule of Appellate Procedure 4(a)(1). A review of this court’s docket reflects that the
filing and docketing fees for this appeal remain due. Within 21 days after the date of this order, appellant
shall pay to the district court the $505.00 filing and docketing fees for this appeal and file in this court
proof of such payment or file in this court a motion to proceed in forma pauperis. Failure to pay the fees or
file a motion to proceed in forma pauperis shall result in the automatic dismissal of the appeal by the
Clerk for failure to prosecute. See 9th Cir. R. 42-1. The Clerk shall serve a Form 4 financial affidavit on
appellant. The opening brief is due September 10, 2018; the answering brief is due October 10, 2018;
and the optional reply brief is due within 21 days after service of the answering brief. Because appellant is
proceeding without counsel, the excerpts of record requirement is waived. See 9th Cir. R. 30-1.2.
Appellees’ supplemental excerpts of record are limited to the district court docket sheet, the notice of
appeal, the judgment or order appealed from, and any specific portions of the record cited in appellees’
brief. See 9th Cir. R. 30-1.7. The filing of a motion to proceed in forma pauperis will stay the briefing
schedule pursuant to Ninth Circuit Rule 27-11. (Pro Se) [10972751] (CKP) [Entered; 08/10/2018 09:40
AM]
Filed Appellant Salma Agha-Khan, M.D. motion to extend time to file appellant opening brief.
Deficiencies: None. Served on 09/07/2018. [11004772] (CW) [Entered: 09/07/2018 03:14 PM]
Filed clerk order (Deputy Clerk: CO): On August 10, 2018, this court issued an order directing appellant to
pay $505.00 to the district court as the docketing and filing fees for this appeal, or file in this court a
motion to proceed in forma pauperis. In appellant's September 7, 2018 motion to extend time to file the
opening brief, appellant contends that she paid the filing fee to the district court. The district court docket
does not reflect receipt of the fees for this appeal. Within 21 days from the date of this order, appellant
shall have one final opportunity to submit proof of past payment of the $505 docketing and filing fees for
this appeal to this court, pay $505.00 to the district court as the docketing and filing fees for this appeal, or
submit to this court a motion to proceed in forma pauperis. The filing of a motion to proceed in forma
pauperis will automatically stay the briefing schedule under Ninth Circuit Rule 27-11. Appellant’s motion
for extension of time to file opening brief is granted [7]. The opening brief is due October 18, 2018; the
answering brief is due November 19, 2018; and the optional reply brief is due within 21 days after service
of the answering brief. If appellant fails to comply with this order, the appeal will be dismissed

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

t si 6/12

1/20/2021

18-15202 Docket
automatically by the Clerk under Ninth Circuit Rule 42-1. [11017577] (CKP) [Entered: 09/19/2018 12:59
PM]

10/18/2018 Q _g
8 pg, 273.26 kb

Filed Appellant Salma Agha-Khan, M.D. motion to extend time to file appellant opening brief. Also
included copy of receipt of payment of fees, but the receipt is not for this DC docket or appeal,
Deficiencies: None. Served on 10/18/2018. [11053424] (CW) [Entered: 10/19/2018 11:29 AM]

10/25/2018 Q 10i

Received original and 7 copies of Appellant Salma Agha-Khan, M.D. opening brief (Informal: No) 93
1420 pg, 41.36 mb pages. 4 copies of excerpts of record in 6 volumes. Served on 10/14/2018. Major deficiencies: fee due.
[11062595] (SML) [Entered: 10/26/2018 02:59 PM]

10/26/2018 Q -j-)

Terminated Margaret Foley for Wells Fargo Financial National Bank for failure to register for appellate
ECF. [11062605] (SML) [Entered: 10/26/2018 03:01 PM]

10/26/2018 Q 12

Filed (ECF) Appellees Flaharty Family Trust, Christopher J. Flaharty and Nichole R. Flaharty
Correspondence: Request for Removal from ECF Notification. Date of service: 10/26/2018 [11062680]
[18-15202] (Burch, Carleton) [Entered: 10/26/2018 03:23 PM]

2 pg, 61.83 KB

10/26/2018 □ 13

Terminated Sue Trazig Cavaco for Flaharty Family Trust, Christopher J. Flaharty and Nichole R. Flaharty
in 18-15202 [11062716] (NAC) [Entered: 10/26/2018 03:31 PM]

10/31/2018 Q 14

Filed clerk order (Deputy Clerk: CO): Appellant's motion for an extension of time to file the opening brief is
granted [9], The Clerk shall file the opening brief received on October 25, 2018. Appellant’s motion for an
extension of time to file the opening brief includes a statement that she has paid the fees for this appeal.
The receipt appellant provides is for appeal No. 18-16553, not for this appeal. The fees for this appeal
remain due. Within 21 days after the date of this order, appellant shall have one final opportunity to pay to
the district court $505.00 as the docketing and filing fees for this appeal and file proof of payment in this
court, or file in this court a motion to proceed in forma pauperis. The filing of a motion to proceed in forma
pauperis will automatically stay the briefing schedule under Ninth Circuit Rule 27-11. If appellant fails to
comply with this order, the appeal will be dismissed automatically by the Clerk under Ninth Circuit Rule
42-1. The Clerk shall serve a Form 4 financial affidavit on appellant. The answering brief is due December
7, 2018; and the optional reply brief is due within 21 days after service of the answering brief. [11067485]
(CKP) [Entered: 10/31/2018 01:23 PM]

9 pg, 309.85 kb

11/01/2018

Q j5_
1 pg, 199.06 KB

12/04/2018

□ J6_
1 pg, 188.14 KB

12/21/2018 Q

xj_

32 pg, 1.46 MB

04/02/2019

Q jg_
2 pg, 263.14 KB

04/02/2019 Q 19

Filed clerk order (Deputy Clerk: MF): The portion of the October 31, 2018 order addressing the briefing
schedule for this appeal is vacated. The Clerk shall not file the opening brief until the fee status for this
appeal is resolved. The remainder of the briefing schedule will be set if the opening brief is filed. Appellant
remains obligated to comply with the portion of the October 31, 2018 order requiring appellant to pay the
fees for this appeal or file a motion to proceed in forma pauperis. [11069015] (CKP) [Entered: 11/01/2018
02:54 PM]
Filed order (Deputy Clerk: CKP) Motion to dismiss case for failure to prosecute (Cir. Rule 42-1). Pursuant
to Ninth Circuit Rule 42-1, this appeal is dismissed for failure to respond to order. (Order dated
10/31/2018). This order served on the district court shall, 21 days after the date of the order, act as the
mandate of this court. [11108695] (CKP) [Entered: 12/04/2018 11:05 AM]
Filed Appellant Salma Agha-Khan, M.D. motion to reconsider order of the Clerk of the Court filed on
11/01/2018. Deficiencies: None. Served on 12/21/2018. [11217834] (CW) [Entered: 03/06/2019 10:37 AM]
Filed clerk order (Deputy Clerk: MF): On December 4, 2018, the court dismissed this appeal for failure to
prosecute because appellant had not paid the filing and docketing fees. See 9th Cir. R. 42-1. A review of
the district court’s records reflects that appellant has now paid the filing and docketing fees for this appeal.
However, appellant erroneously paid the fees for this appeal in District of Nevada civil case No. 2:17-cv02739-GMN-CWH, not the above-referenced district court docket. The motion to reinstate this appeal is
granted (Docket Entry No. [17]). The December 4, 2018 order is vacated, and the appeal is reinstated.
The Clerk shall amend the docket to reflect that the fees for this appeal have been paid. The Clerk shall
file the opening brief received on October 25, 2018 (Docket Entry No. [10]). The answering brief is due
May 3, 2019; and the optional reply brief is due within 21 days after service of the answering brief. The
Clerk shall send a copy of this order to the district court. The district court clerk shall transfer the fee
payment received on November 26, 2018 in civil case No. 2:17-cv-02739-GMN-CWH to the abovereferenced district court docket. [11250217] (AF) [Entered: 04/02/2019 01:20 PM]
Fee status changed ([Case Number 18-15202: Paid]). (See 4/2/2019 order [18] of the court) [11250221]
(AF) [Entered: 04/02/2019 01:21 PM]

04/02/2019 Q 20

Filed original and 7 copies of Appellant Salma Agha-Khan, M.D. (Informal: No) opening brief of 93 pages.
1420 pg, 41.36 mb 4 copies of excerpts of record in 6 volumes. Served on 10/14/2018. [11253635] (LA) [Entered: 04/04/2019
04:15 PM]

04/15/2019 Q 21_
5 pg, 155.82 KB

04/15/2019

□ 22

Filed (ECF) Appellees Aurora Loan Services, Trisha McMullin, MERS and Theodore Schultz
Correspondence: Notice of Bankruptcy. Date of service: 04/15/2019. [11263241] [18-15202]-[COURT
UPDATE: Updated docket text to reflect correct ECF filing type. 04/15/2019 by SLM] (Dodrill, Colt)>
[Entered: 04/15/2019 09:40 AM]
\3
Filed (ECF) Streamlined request for extension of time to file Answering Brief by Appellees Aurora Loan

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

7/12

18-15202 Docket

1/20/2021

Services, Trisha McMullin, MERS and Theodore Schultz. New requested due date is 04/15/2019.
[11263323] [18-15202] (Dodrill, Colt) [Entered: 04/15/2019 10:05 AM]
04/15/2019

04/15/2019

Q 23

Streamlined request [22] by Appellees Aurora Loan Services, Trisha McMullin, MERS and
Theodore Schultz to extend time to file the brief is approved FOR ALL APPELLEES. Amended
briefing schedule: Appellees Ronald Alonzo, American Securities Company of Nevada, Aurora
Loan Services, Fidelity National Title, Christopher J. Flaharty, Nichole R. Flaharty, Flaharty Family
Trust, William Go, Gold Reverse, Inc., Bobby Irias, Steven Joe, Kurt Kingsolver, Trisha McMullin,
Juliann McNeill, Michael McNeill, Mortgage Electronic Registration Systems, Inc., Noble Title,
Pacific Community Mortgage, Inc., Prudential Americana Group, Quality Loan Service Corp., Mary
Jane Same, Theodore Schultz, Service-lrvine, Servicelink, Bee Vang, Wells Fargo Bank, N.A. and
Wells Fargo Financial National Bank answering brief due 06/03/2019. The optional reply brief is
due 21 days from the date of service of the answering brief. [11263721] (DLM) [Entered: 04/15/2019
12:03 PM]

Q _24_

Filed clerk order (Deputy Clerk: MKS): The court has received appellee Aurora Loan Services LLC’s
Notice of Bankruptcy (Docket Entry No. [21]). Appellate proceedings are stayed for Aurora Loan Services
LLC only. See Cohen v. Stratosphere Corp., 115 F.3d 695, 697 (9th Cir. 1997). On or before July 15,
2019, Aurora Loan Services LLC shall file a status report concerning the bankruptcy proceeding. The
status report should include: the court and case number of the bankruptcy proceeding; parties to the
appeal to whom the automatic stay applies; whether any party to the appeal has sought relief from the
automatic stay; and projected termination date of the automatic stay, if known. The briefing schedule
established at Docket Entry No. 23 remains in effect for the remaining parties. [11264048] (AF) [Entered:
04/15/2019 02:21 PM]

2pg, 130.63 KB

04/29/2019

□ _25_
36 pg, 128.43 KB

04/29/2019

Q _2g_
236 pg, 18.46 MB

Filed (ECF) Appellees Fidelity National Title, Service-lrvine and Servicelink Joint Motion for summary
affirmance, Motion to stay appellate proceedings. Date of service: 04/29/2019. [11280670] [18-15202]
(Watkins, Marni) [Entered: 04/29/2019 02:14 PM]
Filed (ECF) Appellees Fidelity National Title, Service-lrvine and Servicelink Correspondence: Exhibits in
support of motion for summary affirmance. Date of service: 04/29/2019. [11280806] [18-15202] --[COURT
UPDATE: Updated docket text to reflect correct ECF filing type. 4/30/2019 by TYL] (Watkins, Marni)
[Entered: 04/29/2019 02:48 PM]

05/10/2019

□ 27

Filed (ECF) Streamlined request for extension of time to file Answering Brief by Appellee Wells Fargo
Financial National Bank. New requested due date is 07/02/2019. [11293048] [18-15202] (Dove, Kelly)
[Entered: 05/10/2019 09:30 AM]

05/10/2019

Q 28

Streamlined request [27] by Appellee Wells Fargo Financial National Bank to extend time to file the
brief is not approved because it is unnecessary. The briefing schedule is stayed. Briefing shall be
reset as necessary upon the Court’s disposition of the motion for summary affirmance and to stay
appellate proceedings. [Docket 25] See 9th Cir. R. 27-11. [11293246] (DLM) [Entered: 05/10/2019
11:06 AM]

Q _2g_

Filed (ECF) Appellee Quality Loan Service Corp. response joining motion (motion for summary
affirmance). Date of service: 05/13/2019. [11295349] [18-15202]~[COURT UPDATE: Edited docket text to
reflect content of filing. 05/13/2019 by RY] (Schuler-Hintz, Kristin) [Entered: 05/13/2019 02:11 PM]

05/13/2019

4 pg, 728.7 KB

05/15/2019

□ _30_
94 pg, 34.69 MB

05/23/2019

Q _3j_
7 pg, 245.23 KB

05/23/2019

□ _32_
9 pg, 83.14 KB

05/30/2019

□ _33_
1 pg, 96.52 KB

05/30/2019

Q _34_
6 pg, 161.59 KB

05/31/2019

Q j5_
6 pg, 144.98 KB

06/03/2019

□ 36

Filed (ECF) Appellees Flaharty Family Trust, Christopher J. Flaharty and Nichole R. Flaharty Motion for
summary affirmance. Date of service: 05/15/2019. [11298317] [18-15202] (Burch, Carleton) [Entered:
05/15/2019 11:22 AM]
Filed (ECF) Appellees William Go and Prudential Americana Group response joining motion ([25] Motion
(ECF Filing), [25] Motion (ECF Filing) motion for summary affirmance, [25] Motion (ECF Filing) motion to
stay appellate proceedings). Date of service: 05/23/2019. [11307735] [18-15202] (Welsh, Darren)
[Entered: 05/23/2019 02:44 PM]
Filed Appellant Salma Agha-Khan, M.D. motion to extend time to file opposition for 60 days. Deficiencies:
None. Served on 05/21/2019. [11310116] (CW) [Entered: 05/28/2019 11:36 AM]
Filed clerk order (Deputy Clerk: CZ): Appellant’s motion (Docket Entry No. [32]) for an extension of time to
respond to the motions for summary affirmance (Docket Entry Nos. [25] and [30]) is granted. Any
response to these motions is now due June 28, 2019. [11313732] (WL) [Entered: 05/30/2019 01:34 PM]
Filed (ECF) Appellees Trisha McMullin, MERS and Theodore Schultz response joining motion (1251
Motion (ECF Filing), [25] Motion (ECF Filing), [25] Motion (ECF Filing)). Date of service: 05/30/2019.
[11314272] [18-15202] (Dodrill, Colt) [Entered: 05/30/2019 04:00 PM]
Filed (ECF) Appellee Kurt Kingsolver response joining motion ([25] Motion (ECF Filing), [25] Motion (ECF
Filing) motion for summary affirmance, [25] Motion (ECF Filing) motion to stay appellate proceedings).
Date of service: 05/31/2019. [11315926] [18-15202] (Fine, Marilyn) [Entered: 05/31/2019 03:17 PM]
Filed (ECF) notice of appearance of Andrea M. Gandara for Appellees Steven Joe, Michael McNeill and
Juliann McNeill. Date of service: 06/03/2019. (Party previously proceeding without counsel: No)
[11318094] [18-15202] (Gandara, Andrea) [Entered: 06/03/2019 04:56 PM]

https://ecf.ca9.uscourts.gov/ri/beam/servlet/TransportRoom

8/12

18-15202 Docket

1/20/2021
06/04/2019
06/04/2019

Q 37

Added attorney Andrea M. Gandara for Steven Joe Juliann McNeill Michael McNeill, in case 18-15202.
[11318255] (CW) [Entered: 06/04/2019 07:12 AM]

Q _38_

Filed (ECF) Appellees Steven Joe, Juliann McNeill and Michael McNeill response joining motion ([251
Motion (ECF Filing), [25] Motion (ECF Filing), [25] Motion (ECF Filing), [30] Motion (ECF Filing), [30]
Motion (ECF Filing)). Date of service: 06/04/2019. [11318432] [18-15202] (Gandara, Andrea) [Entered:
06/04/2019 09:03 AM]

3 pg, 88.17 KB

06/28/2019

□ _39_
14 pg, 89.79 KB

06/28/2019

06/28/2019

Q 40
26 pg, 805.88 kb

Received original and 0 copies of Appellant Salma Agha-Khan, M.D.'s supplemental opening brief
(Informal: No) of 14 pages (titled "Appellant's Addendum to Brief Pertaining to SEC Fraud Perpetrated by
Appellee-Defendants Alleged in Detail in Underlying Complaint"). Served on 06/27/2019. Major
deficiencies: a motion to file a supplemental brief is required. Notified appellant. [11349438] (LA) [Entered:
06/28/2019 06:59 PM]

Q 41

Filed Appellant Salma Agha-Khan, M.D. response opposing motion for summary affirmance. Served on
06/27/2019. [11349738] (CW) [Entered: 07/01/2019 08:05 AM]

54 pg, 1015.94 KB

06/28/2019

Filed (ECF) Appellee Aurora Loan Services Correspondence: Notice of Entry of Order Pursuant to 11
U.S.C. section 105(a) and 362(a) Extending Automatic Stay to Certain Non-Debtor Parties. Date of
service: 06/28/2019 [11348273] [18-15202] (Dodrill, Colt) [Entered: 06/28/2019 10:35 AM]

Q 42
62 pg, 1.53 MB

Filed Appellant Salma Agha-Khan, M.D. motion 2nd mtn to disqualify Ninth Circuit. Deficiencies: None.
Served on 06/27/2019. [11349740] (CW) [Entered: 07/01/2019 08:06 AM]

07/02/2019

Q 43

Filed (ECF) Streamlined request for extension of time to file Reply Brief by Appellees Flaharty Family
Trust, Christopher J. Flaharty and Nichole R. Flaharty. New requested due date is 08/02/2019. [11351816]
[18-15202] (Burch, Carleton) [Entered: 07/02/2019 10:09 AM]

07/02/2019

Q 44

Filed (ECF) Streamlined request for extension of time to file Reply Brief by Appellees Fidelity National
Title, Service-lrvine and Servicelink. New requested due date is 08/12/2019. [11351983] [18-15202]
(Watkins, Marni) [Entered: 07/02/2019 10:52 AM]

07/02/2019

Q 45

Streamlined request [44], [43] by Appellees Fidelity National Title, Christopher J. Flaharty, Nichole
R. Flaharty, Flaharty Family Trust, Service-lrvine and Servicelink to extend time to file the brief is
not approved because it is unnecessary. The briefing schedule is stayed. Briefing shall be reset as
necessary upon the Court’s disposition of the pending motions for Summary
Affirmance/Dismissal. Dockets [30,42] See 9th Cir. R. 27-11. [11352595] (DLM) [Entered: 07/02/2019
03:23 PM]

□ 4g_

Filed (ECF) Appellees Christopher J. Flaharty, Nichole R. Flaharty and Flaharty Family Trust Motion to
extend time to file a reply until 08/05/2019. Date of service: 07/03/2019. [11353268] [18-15202] (Burch,
Carleton) [Entered: 07/03/2019 09:38 AM]

07/03/2019

3 pg, 11.04 KB

07/08/2019

□ 47_
1 pg, 101.18 KB

07/15/2019

□ _48_
6 pg, 20.06 KB

07/15/2019

□ _49_
5 pg, 16.3 KB

07/22/2019

Q _5Q_
7 pg, 272.41 KB

07/25/2019

□ _5J_
7 pg, 94.51 KB

08/01/2019

Q _§2_
3 pg, 112.64 KB

10/08/2019

Q _53_
2 pg, 106.59 KB

12/17/2019

□ _54_
2 pg, 125.64 KB

Filed clerk order (Deputy Clerk: KWH): Appellees’ motion for an extension of time to file a reply in support
of their motion for summary affirmance (Docket Entry No. [46]) is granted. The reply is due August 5,
2019. [11356913] (AF) [Entered: 07/08/2019 03:21 PM]
Filed (ECF) Appellees Christopher J. Flaharty, Nichole R. Flaharty and Flaharty Family Trust reply to
response (). Date of service: 07/15/2019. [11362891] [18-15202] (Burch, Carleton) [Entered: 07/15/2019
09:24 AM]
Filed (ECF) Appellee Aurora Loan Services status report (as required by Court order dated 04/15/2019).
Date of service: 07/15/2019 [11363012] [18-15202] (Dodrill, Colt) [Entered: 07/15/2019 10:23 AM]
Filed (ECF) Appellees Fidelity National Title, Service-lrvine and Servicelink response supporting motion
([251 Motion (ECF Filing), [25] Motion (ECF Filing), [25] Motion (ECF Filing)). Date of service: 07/22/2019.
[11372420] [18-15202] (Watkins, Marni) [Entered: 07/22/2019 04:25 PM]
Filed (ECF) Appellees William Go and Prudential Americana Group reply to response (). Date of service:
07/25/2019. [11376644] [18-15202] (Welsh, Darren) [Entered: 07/25/2019 12:42 PM]
Filed (ECF) Appellee Kurt Kingsolver response joining motion ([50] Response to Motion (ECF Filing)).
Date of service: 08/01/2019. [11383938] [18-15202] (Fine, Marilyn) [Entered: 08/01/2019 11:01 AM]
Filed clerk order (Deputy Clerk: MKS): The court has received Aurora Loan Services, LLC’s status report
(Docket Entry No. [49]) and notice of entry of order extending the automatic stay imposed by 11 U.S.C. §
362 to certain non-debtor parties to this appeal (Docket Entry No. [39]). Appellate proceedings are stayed
for Aurora Loan Services, LLC; Mortgage Electronic Registration Systems, Inc.; Theodore Schultz; and
Trisha McMullin only. This appeal will proceed as to the remaining parties. The opposed motions for
summary affirmance (Docket Entry Nos. [25], [30]) and appellant’s motion for disqualification (Docket
Entry No. [42]) will be addressed by separate order. The briefing schedule remains stayed pending further
order of the court. [11458390] (AF) [Entered: 10/08/2019 03:35 PM]

l*>°

Filed clerk order (Deputy Clerk: MKS): This appeal has been held in abeyance as to Aurora Loan
Services, LLC (“Aurora”) since April 15, 2019, and as to Mortgage Electronic Registration Systems, Inc.

https://ecf.ca9.uscourts.gov/n/beam/servlet/TransportRoom

9/12

1/20/2021

18-15202 Docket

(“MERS”), Theodore Schultz, and Trisha McMullin since October 8, 2019, due to the automatic stay
imposed by 11 U.S.C § 362. See Docket Entry Nos. [24] and [53]. The Clerk will administratively close this
appeal as to Aurora, MERS, Theodore Schultz, and Trisha McMullin. No mandate will issue in connection
with this administrative closure, and this order does not constitute a decision on the merits as to Aurora,
MERS, Theodore Schultz, or Trisha McMullin. Within 28 days after any change to the automatic stay’s
effect in this appeal, any party may notify this court and move to reopen the appeal as to Aurora, MERS,
Theodore Schultz, or Trisha McMullin, or for other appropriate relief. This appeal will proceed as to the
remaining parties. The pending motions will be addressed by separate order. The briefing schedule
remains stayed pending further order of the court. [11534720] (AF) [Entered: 12/17/2019 09:26 AM]

01/14/2020

Q _§§_
2pg, 168.85 KB

02/05/2020

□ _5g_

Filed order (CONSUELO M. CALLAHAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): Upon
a review of the record and the opening brief, we conclude that the questions raised in this appeal are so
insubstantial as not to require further argument. See United States v. Hooton, 693 F.2d 857, 858 (9th Cir.
1982) (stating standard for summary affirmance); see also Hebbe v. Pliler, 627 F.3d 338, 341-42 (9th Cir.
2010) (although pro se pleadings are construed liberally, plaintiff must present factual allegations
sufficient to state a plausible claim for relief). Accordingly, the opposed motions for summary affirmance
(Docket Entry Nos. [25] and [30]) are granted. We summarily affirm the district court’s judgment as to all
parties except Aurora Loan Services, LLC, Mortgage Electronic Registration Systems, Inc., Theodore
Schultz, and Trisha McMullin. This appeal has been administratively closed as to Aurora Loan Services,
LLC, Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. See Docket
Entry No. [54]. Appellant's motions for recusal of all Ninth Circuit judges and transfer of this appeal to
another circuit court (Docket Entry Nos. [17] and [42]) is denied. Appellant’s request for oral argument, set
forth in the opening brief, is denied. AFFIRMED as to all parties except Aurora Loan Services, LLC,
Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. [11561075] (AF)
[Entered: 01/14/2020 09:13 AM]
MANDATE ISSUED.(CMC, JHN and ADH) [11585750] (CW) [Entered: 02/05/2020 06:39 AM]

1 pg, 87.5 KB

04/24/2020

Q _g7_
1 pg, 90.33 KB

04/24/2020

□ _5g_
1 pg, 96.62 KB

07/17/2020 □ _5g_
1 pg, 95.56 KB

07/17/2020 Q _gg_
2 pg, 168.41 KB,

08/10/2020 □ _ei_
1 pg, 95.47 KB

10/16/2020

□ 62
105 pg, 981.15 KB

11/09/2020

□ J33_
1 pg, 132.2 KB

Filed clerk order (Deputy Clerk: cw): The mandate issued on 02/05/2020 is recalled as issued in error.
[11670910] (CW) [Entered: 04/24/2020 11:35 AM]
PARTIAL MANDATE ISSUED issued as to all parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. (CMC, JHN and ADH)
[11670921] (CW) [Entered: 04/24/2020 11:38 AM]
Filed order (CONSUELO M. CALLAHAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): The
order filed on January 14, 2020 (Docket Entry No. [55]) is hereby withdrawn. A replacement order will be
filed concurrently with this order. [11757150] (AF) [Entered: 07/17/2020 02:23 PM]
Filed order (BARRY G. SILVERMAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): Upon a
review of the record and the opening brief, we conclude that the questions raised in this appeal are so
insubstantial as not to require further argument. See United States v. Hooton, 693 F.2d 857, 858 (9th Cir.
1982) (stating standard for summary affirmance); see also Hebbe v. Pliler, 627 F.3d 338, 341-42 (9th Cir.
2010) (although pro se pleadings are construed liberally, plaintiff must present factual allegations
sufficient to state a plausible claim for relief). Accordingly, the opposed motions for summary affirmance
(Docket Entry Nos. [25] and [30]) are granted. We summarily affirm the district court’s judgment as to all
parties except Aurora Loan Services, LLC, Mortgage Electronic Registration Systems, Inc., Theodore
Schultz, and Trisha McMullin. This appeal has been administratively closed as to Aurora Loan Services,
LLC, Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. See Docket
Entry No. [54]. Appellant’s motions for recusal of all Ninth Circuit judges and transfer of this appeal to
another circuit court (Docket Entry Nos. [17] and [42]) is denied. Appellant’s request for oral argument, set
forth in the opening brief, is denied. AFFIRMED as to all parties except Aurora Loan Services, LLC,
Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. [11757244] (AF)
[Entered: 07/17/2020 02:44 PM]
PARTIAL MANDATE ISSUED. AFFIRMED as to all parties except Aurora Loan Services, LLC, Mortgage
Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin. (BGS, JHN and ADH)
[11782293] (CW) [Entered: 08/10/2020 07:35 AM]
Filed (ECF) Appellees Aurora Loan Services, Trisha McMullin, MERS and Theodore Schultz Motion to lift
stay and Response to motion ([25] Motion (ECF Filing), [25] Motion (ECF Filing) motion for summary
affirmance, [25] Motion (ECF Filing) motion to stay appellate proceedings). Date of service: 10/16/2020.
[11861879] [18-15202] (Dodrill, Colt) [Entered: 10/16/2020 01:45 PM]
Filed order (BARRY G. SILVERMAN, JACQUELINE H. NGUYEN and ANDREW D. HURWITZ): No
opposition having been filed and good cause appearing, appellees Aurora Loan Services, LLC ("ALS”),
Mortgage Electronic Registration Systems, Inc. (“MERS”), Theodore Schultz, and Trisha McMullin’s
motion to reinstate and dismiss the appeal as to ALS, and for summary affirmance as to MERS, Schultz,
and McMullin (Docket Entry No. [62]) is granted. DISMISSED as to Aurora Loan Services, LLC;
AFFIRMED as to Mortgage Electronic Registration Systems, Inc., Theodore Schultz, and Trisha McMullin.
[11887335] (AF) [Entered: 11/09/2020 04:55 PM]

https://ecf.ca9. uscourts.gov/n/beam/servlet/TransportRoom

10/12

1

1/20/2021
12/01/2020

18-15202 Docket
Q _g4_

MANDATE ISSUED.(BGS, JHN and ADH) [11910277] (CW) [Entered: 12/01/2020 07:14 AM]

1 pg, 92.85 KB

\io
https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

11/12

f

1/20/2021

18-15202 Docket

Clear All
© Documents and Docket Summary
O Documents Only
E3 Include Page Numbers
Selected Pages: 0

Selected Size: 0 KB

View Selected

PACER Service Center
Transaction Receipt
U.S. Court of Appeals for the 9th Circuit - 01/20/2021 07:54:07
PACER Login:

rr661111

Client Code:

Description:

Docket Report (filtered)

Search Criteria:

18-15202

Billable Pages:

10

Cost:

1.00

/

{

https://ecf.ca9.uscourts.gOv/n/beam/servlet/TransportRoom

12/12

